 DEPARTMENT OF HOMELAND SECURITY

                Office of Inspector General


         Information Technology Management
         Letter for the FY 2006 DHS Financial
                    Statement Audit
                       (Redacted)




Notice: The Department of Homeland Security, Office of Inspector General, has redacted
this report for public release. A review under the Freedom of Information Act will be
conducted upon request.




OIG-07-53                                                     August 2007
                                                               (Revised)
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                             June 20, 2007

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report presents the information technology (IT) management letter for DHS’ financial statement
audit as of September 30, 2006. It contains observations and recommendations related to
information technology internal control that were not required to be reported in the financial
statement audit report (OIG-07-10, November 2006) and represents the separate restricted
distribution report mentioned in that report. The independent accounting firm KPMG LLP (KPMG)
performed the audit of DHS’ FY 2006 financial statements and prepared this IT management letter.
KPMG is responsible for the attached IT management letter dated December 15, 2006, and the
conclusions expressed in it. We do not express opinions on DHS’ financial statements or internal
control or conclusion on compliance with laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                              Richard L Skinner
                                              Inspector General
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036




December 15, 2006

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Department of Homeland Security,

Chief Financial Officer
U.S. Department of Homeland Security,

Ladies and Gentlemen:

We were engaged to audit the balance sheet and statement of custodial activity of the U.S. Department of
Homeland Security (DHS) as of September 30, 2006. We were not engaged to audit the consolidated
statements of net cost, changes in net position, and financing, and combined statement of budgetary resources
for the year ended September 30, 2006. Because of matters discussed in our Independent Auditors’ Report,
dated November 15, 2006, the scope of our work was not sufficient to enable us to express, and we did not
express, an opinion on the consolidated balance sheet or the statement of custodial activity for the year ended
September 30, 2006.

In connection with our fiscal year 2006 engagement, we were also engaged to consider DHS’ internal control
over financial reporting and to test DHS’ compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the consolidated balance sheet.
Our procedures did not include examining the effectiveness of internal control and do not provide assurance on
internal control. We have not considered internal control since the date of our report.

We noted certain matters involving internal control and other operational matters with respect to
information technology that are summarized in the Information Technology Management Comments on
the next page, and presented for your consideration in the sections that follow. These comments and
recommendations, all of which have been discussed with the appropriate members of management, are
intended to improve internal control or result in other operating efficiencies. These comments are in
addition to the reportable conditions presented in our Independent Auditors’ Report, dated November 15,
2006, included in the FY 2005 DHS Performance and Accountability Report. A description of each
internal control finding, and its disposition, as either a significant finding contributing to the material
weakness for financial systems security, any remaining findings contributing to the material weakness for
financial systems security, or an information technology management comment is provided in Appendix
B. We have also included the current status of the prior year Notice of Findings and Recommendations in
Appendix C. Our comments related to financial management have been presented in a separate letter to
the Office of Inspector General and the DHS Chief Financial Officer dated December 15, 2006.

As described above, the scope of our work was not sufficient to express an opinion on the balance sheet
or statement of custodial activity of DHS as of September 30, 2006, and we were not engaged to audit the
statements of net cost, changes in net position, and financing, and combined statement of budgetary
resources for the year ended September 30, 2006. Accordingly, other internal control matters and other
instances of non-compliance may have been identified and reported had we been able to perform all
procedures necessary to express an opinion on the September 30, 2006 balance sheet and statement of
custodial activity, and had we been engaged to audit the other fiscal year 2006, financial statements. We
aim, however, to use our knowledge of DHS’ organization gained during our work to make comments
and suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ management, the Office of Inspector General,
the U.S. Office of Management and Budget, the U.S. Congress, and the Government Accountability
Office, and is not intended to be and should not be used by anyone other than these specified parties.

Very truly yours,
                 INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                     TABLE OF CONTENTS
                                                                                            Page

Objective, Scope and Approach                                                                1

Summary of Findings and Recommendations                                                      2

Findings by Audit Area                                                                       3

       Entity-Wide Security Program Planning and Management                                  3

       Access Controls                                                                       3

       Application Software Development and Change Controls                                  3

       System Software                                                                       4

       Segregation of Duties                                                                 4

       Service Continuity                                                                    4

       Application Controls                                                                  4

                                         APPENDICES

    Appendix                                        Subject                                 Page


                    Description of Key Financial Systems and IT Infrastructure within the
        A                                                                                    8
                    Scope of the FY 2006 DHS Financial Statement Audit



                    FY 2006 Notice of IT Findings and Recommendations - Detail by DHS
        B                                                                                    15
                    Organizational Element



                    Status of Prior Year Notices of Findings and Recommendations and
        C                                                                                   122
                    Comparison to Current Year Notices of Findings and Recommendations


        D           Financial System Security FY 2006 Remediation Briefing                  137
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006


                    OBJECTIVE, SCOPE AND APPROACH
We performed an audit of DHS IT general controls in support of the FY 2006 DHS balance sheet and
statement of custodial activity audit engagement. The overall objective of our audit was to evaluate the
effectiveness of IT general controls of DHS’ financial processing environment and related IT
infrastructure as necessary to support the engagement. The Federal Information System Controls Audit
Manual (FISCAM), issued by the Government Accountability Office, formed the basis of our audit. The
scope of the IT general controls assessment included testing at DHS’ Office of the Chief Financial Officer
(OCFO), and all significant DHS component as described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following six control functions to be essential to the effective operation of
the general IT controls environment.

•   Entity-wide security program planning and management (EWS) – Controls that provide a framework
    and continuing cycle of activity for managing risk, developing security policies, assigning
    responsibilities, and monitoring the adequacy of computer-related security controls.
•   Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
    programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
•   Application software development and change control (ASDCC) – Controls that help to prevent the
    implementation of unauthorized programs or modifications to existing programs.
•   System software (SS) – Controls that limit and monitor access to powerful programs that operate
    computer hardware.
•   Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
    structure to prevent one individual from controlling key aspects of computer-related operations, thus
    deterring unauthorized actions or access to assets or records.
•   Service continuity (SC) – Controls that involve procedures for continuing critical operations without
    interruption, or with prompt resumption, when unexpected events occur.

In addition to testing DHS’ general control environment, we performed application control tests on a
limited number of DHS financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

•   Application Controls (APC) - Application controls are the structure, policies, and procedures that
    apply to separate, individual application systems, such as accounts payable, inventory, payroll, grants,
    or loans.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices, as well as testing over key financial application controls. The technical
security testing was performed both over the Internet and from within select DHS facilities, and focused



    Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                     1
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

on test, development, and production devices that directly support DHS financial processing and key
general support systems.

      SUMMARY OF FINDINGS AND RECOMMENDATIONS
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements caused by
error or fraud, in amounts that would be material in relation to the balance sheet or statement of custodial
activity being audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.
Controls over IT and related financial systems are essential elements of financial reporting integrity.
Effective general controls in an IT and financial systems environment are typically defined in six key
control areas: entity-wide security program planning and management, access control, application
software development and change control, system software, segregation of duties, and service continuity.
In addition to general controls, financial systems contain application controls, which are the structure,
policies, and procedures that apply to control access to an application, separate individuals from accessing
particular application modules such as accounts payable, inventory, payroll, grants, or loans, and assess if
the specific interface and edit controls are in place, as defined by management.
During fiscal year 2006, DHS as an agency, improved its Federal Information Security Management Act
results, as reported by the DHS-Office of Inspector General. In addition, a few DHS components took
actions to improve their IT general and application control environments and to address prior year IT
control issues; however, a number of DHS components did not make necessary improvements during the
year. During the 2006 IT testing, we identified over 200 separate findings, covering each DHS
component. DHS closed approximately 44% of our prior year IT findings; however, we identified over
150 new IT findings through our test work this year. A significant number of findings were repeated in
fiscal year 2006.
The control areas where the increases in the IT Notification of Findings and Recommendations (NFRs)
present an increased risk of impacting financial data integrity include: 1) excessive access to key DHS
financial applications, 2) misconfigured logical security controls to key DHS financial applications and
support systems; and 3) application change control processes that are inappropriate, and in other locations
not fully defined, followed, or effective. The re-issuance and the additionally identified internal control
weaknesses were the result of a lack of needed prioritization of taking the necessary corrective actions.
Despite the improvements in a few DHS components, several significant general IT and application
control weaknesses remain that collectively limit DHS’ ability to ensure that critical financial and
operational data is maintained in a manner to ensure confidentiality, integrity, and availability.




   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                     2
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2006


                          FINDINGS BY IT AUDIT AREA
1   Entity-wide security program planning and management – we noted:

    •   Despite continued improvements in the process of performing Certification and Accreditation
        (C&A) of IT systems, nine DHS component financial and associated feeder systems, at three
        DHS components, were not properly certified and accredited, in compliance with DHS 4300A.
    •   Instances of incomplete or inadequate policies and procedures associated with computer incident
        response capabilities at four DHS components.
    •   Instances where background investigations of contractors employed to operate, manage and
        provide security over IT systems were not being properly conducted at three DHS components.
    •   Instances of lack of compliance with DHS computer security awareness training requirements,
        and/or lack of component policies for IT-based specialized security training at three DHS
        components.

2   Access controls – we noted:

    •   A large number of instances of missing and weak user passwords on key servers and databases
        which process and house DHS financial data at six DHS components.
    •   A large number of instances where user account lists were not periodically reviewed for
        appropriateness, and inappropriate authorizations and excessive user access privileges were
        allowed at nine DHS components.
    •   Instances where workstations, servers, or network devices were configured without necessary
        security patches or were not configured in the most secure manner at five DHS components.
    •   Instances where physical access to sensitive computer operations were not adequate at four DHS
        components.

3   Application software development and change control – we noted:

    •   One DHS component implemented a separate and secondary change control process outside of
        and conflicting with the established change control process. During our testing of this separate
        process, we identified it to be informal, undocumented, and not effective.
    •   Instances where policies and procedures regarding change controls were not in place to prevent
        users from having concurrent access to the development, test, and production environments of the
        system at four DHS components.
    •   Instances where changes made to the configuration of the system were not always documented
        through System Change Requests (SCRs), test plans, test results, or software modifications at
        seven DHS components. Additionally, documented approval did not exist, or was not always
        retained, for emergency enhancements, “bug” fixes, and data fixes, and in some cases, audit logs
        for tracking changes to the data or systems were not activated.




    Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                   3
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

4   System software – we noted:

    •   Instances where policies and procedures for restricting and monitoring access to operating system
        software were not implemented or were inadequate at six DHS components. In some cases, the
        ability to monitor security logs did not exist.
    •   Instances where changes to sensitive operating system settings and other sensitive utility software
        and hardware were not always documented.

5   Segregation of duties – we noted:

    •   Instances where individuals were able to perform incompatible functions, such as the changing,
        testing, and implementing of software, without sufficient compensating controls in place at four
        DHS components.
    •   An instance where the policy and procedures to define and implement segregation of duties were
        not properly developed and/or implemented at one DHS component.
    •   Access control weaknesses identified during our IT testing also contributed to numerous instances
        where access to data could lead to various incompatible function issues, including the override of
        transactions at five DHS components.

6   Service continuity – we noted:

    •   Instances where incomplete or outdated business continuity plans and systems with incomplete or
        outdated disaster recovery plans were noted at four DHS components. Some plans did not
        contain current system information, emergency processing priorities, procedures for backup and
        storage, or other critical information.
    •   Service continuity plans were not consistently and/or adequately tested, and individuals did not
        receive training on how to respond to emergency situations at four DHS components.

7   Application controls – we noted:

    •   Instances of weak or expired user passwords, user accounts that were not kept current, users with
        excessive access privileges to certain key processes of an application, and key edit and business
        rules not working as designed by management at nine DHS components. Many of the
        weaknesses that were identified during our general control testing of access and segregation of
        duties controls are also relevant to this area, since these same issues also impact controls over
        specific key financial applications, and are thus reported here as well.

Cause/Effect: Many of these weaknesses were inherited from the legacy agencies that came into DHS or
system development activities that did not incorporate strong security controls from the outset and will
take several years to fully address. At many of the larger components, IT and financial system support
operations are decentralized, contributing to challenges in integrating DHS IT and financial operations.
In addition, financial system functionality weaknesses, as discussed throughout our report on internal
controls in various processes, can be attributed to non-integrated legacy financial systems that do not have
the embedded functionality required by Office of Management and Budget (OMB) Circular No. A-127,
Financial Management Systems.


    Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                     4
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

Further, there is no consistent and thorough testing of IT security controls by individual DHS components
and by the DHS Office of the Chief Information Officer (CIO) to identify and mitigate such weaknesses.

The effect of these numerous IT weaknesses identified during our testing reduces the reliability of DHS’
financial data. Many of these weaknesses, especially those in the area of change control, may result in
material errors in DHS’ financial data that are not detected, in a timely manner, in the normal course of
business. In addition, as a result of the continuous presence of serious IT deficiencies, there is added
pressure on the mitigating manual controls to be operating effectively at all times. Since manual controls
are operated by people, there cannot be a reasonable expectation that they would be able to be in place at
all times and in all areas.

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the E - Government
Act of 2002, mandates that Federal entities maintain IT security programs in accordance with OMB and
National Institute of Standards and Technology (NIST) guidance. OMB Circular No. A-130, Management of
Federal Information Resources, and various NIST guidelines describe specific essential criteria for
maintaining effective general IT controls. In addition OMB Circular No. A-127 prescribes policies and
standards for executive departments and agencies to follow in developing, operating, evaluating, and
reporting on financial management systems. In closing, for this year’s IT audit we assessed the DHS
component’s compliance with DHS’ Information Technology Security Program Publication, 4300A.

Recommendations: We recommend that the DHS CIO in coordination with the OCFO make the
following improvements to the Departments financial management systems:

1. For entity-wide security program planning and management:

    •   Enforce through the DHS C&A program across all DHS components, a testing process which
        goes beyond an assessment of in-place policies and procedures, to include tests of password
        “strength,” access lists, and software patches, of an application.
    •   Enforce the consistent implementation of security programs, policies, and procedures, including
        incident response capability and IT security awareness and training; and
    •   Enforce DHS’ policy to ensure that all contractors go through the appropriate
        background/suitability check.

2. For access control:

    •   Enforce password controls that meet DHS’ password requirements on all key financial systems;
    •   Implement an account management certification process within all the components to ensure the
        periodic review of user accounts for appropriate access;
    •   Implement a DHS-wide patch and security configuration process, and enforce the requirement
        that systems are periodically tested by individual DHS components and the DHS CIO; and
    •   Conduct periodic vulnerability assessments, whereby systems are periodically reviewed for access
        controls not in compliance with DHS and Federal guidance.


3. For application software development and change control:


   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                    5
                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2006


    •   Implement a single, integrated change control process over the DHS components’ financial
        systems with appropriate internal controls to include clear lines of authority to the components’
        financial management personnel and to enforce responsibilities of all participants in the process
        and documentation requirements;
    •   Develop policies and procedures regarding change controls, and implement to ensure segregation
        of change control duties; and
    •   Enforce policies that require changes to the configuration of the system are approved and
        documented, and audit logs are activated and reviewed on a periodic basis.

4. For system software, monitor the use of and changes related to operating systems and other sensitive
   utility software and hardware.

5. For segregation of duties:

    •   Document the user responsibilities so that incompatible duties are consistently separated. If this
        is not feasible given the smaller size of certain functions, then sufficient compensating controls,
        such as periodic peer reviews, should be implemented; and
    •   Assign key security positions, and ensure that position descriptions are kept current.

6. For service continuity:

    •   Develop and implement complete current business continuity plans and system disaster recovery
        plans; and
    •   Perform component-specific and DHS-wide testing of key service continuity capabilities, and
        assess the need to provide appropriate and timely emergency training.

7. For application controls:

    •   Implement policies to ensure that password controls meet DHS password requirements on all key
        financial applications and feeder systems;
    •   Implement an account management certification process to ensure the periodic review of user
        accounts for appropriate access,
    •   Document the user responsibilities so that incompatible duties are consistently separated. If this is
        not feasible given the smaller size of certain functions, then sufficient compensating controls,
        such as periodic peer reviews, should be implemented; and
    •   Implement the appropriate oversight over the edit and interface controls to ensure that the
        financial processes are operating as management had designed.




   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                     6
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2006




                         Management Comments and OIG Evaluation

We obtained written comments on a draft of this report from the DHS CIO and DHS CFO. Generally, the
DHS CIO and CFO agreed with all of the report’s findings and recommendations. The DHS CIO has
developed a remediation plan to address these findings and recommendation. We have incorporated these
comments where appropriate and included a copy of the comments at Appendix D.




   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                 7
                                                                              Appendix A

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2006




                                   Appendix A

Description of Key Financial Systems and IT Infrastructure within
    the Scope of the FY 2006 DHS Financial Statement Audit




 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                           8
                                                                                          Appendix A

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2006


Below is a description of significant DHS financial management systems and supporting IT
infrastructure included in the scope of the financial statement audit for the twelve months ended
September 30, 2006.

United States Citizen and Immigration Services (USCIS)

Locations of Audit: USCIS Headquarters in Washington, D.C., as well as offices in Texas, and
Vermont.

Key Systems Subject to Audit:

•   Federal Financial Management System (FFMS) – The Immigration and Customs Enforcement
    (ICE) component owns and operates FFMS. ICE performs the financial reporting function for
    USCIS, using FFMS per the shared services agreement with USCIS. FFMS is a commercial off-
    the-shelf financial reporting system that was fully implemented in FY 2003. FFMS is the official
    system of record and is built in Oracle 8i Relational Database Management System. It includes
    the core system used by accountants, FFMS Desktop, which is used by average users, and a
    National Finance Center payroll interface. FFMS supports all USCIS core financial processing.
    FFMS uses a Standard General Ledger (SGL) for the accounting of agency financial transactions.
•   Claims 3 Local Area Network (LAN) – Claims 3 LAN provides USCIS with a decentralized LAN
    based system that supports the requirements of the Direct Mail Phase I and II, Immigration Act of
    1990 (IMMACT 90) and USCIS forms improvement projects. The Claims 3 LAN is located at
    each of the service centers (Nebraska, California, Texas, Vermont, and the National Benefits
    Center). The main purpose of Claims 3 is to enter and track immigration applications.
•   Claims 4 - The purpose of Claims 4 is to track and manage naturalization applications. Claims 4
    resides on multiple platforms, including a Siemens E70 located in Dallas, Texas. Claims 4 data is
    centrally stored within one Oracle Database. Software is developed and maintained in the Oracle
    relational database and Microsoft Visual Basic environments.

Immigration and Customs Enforcement (ICE)

Locations of Audit: ICE Headquarters in Washington, D.C., as well as offices in Texas, and
Vermont.

Key System Subject to Audit:

Federal Financial Management System (FFMS) – ICE owns and operates FFMS. ICE performs
accounting services for other DHS components, such as the USCIS, Management Directorate and US-
Visit, using FFMS per the shared services agreement these agencies have with ICE. FFMS is a
commercial off-the-shelf financial reporting system that was fully implemented in FY 2003. FFMS is
the official system of record and is built in Oracle 8i Relational Database Management System. It
includes the core system used by accountants, FFMS Desktop that is used by average users, and a
National Finance Center payroll interface. FFMS supports all USCIS/ICE core financial processing
and uses a SGL for the accounting of agency financial transactions.


Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                9
                                                                                          Appendix A

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2006

Departmental Operations

Locations of Audit: ICE Headquarters in Washington, D.C.

Key Systems Subjected to Audit:

Federal Financial Management System (FFMS) – ICE owns and operates FFMS. ICE performs the
financial reporting function for USCIS and departmental operations using FFMS per the shared
services agreement these agencies have with ICE. FFMS is a commercial off-the-shelf financial
reporting system that was fully implemented in FY 2003. FFMS is the official system of record and
is built in Oracle 8i Relational Database Management System. It includes the core system used by
accountants, FFMS Desktop that is used by average users, and a National Finance Center payroll
interface. FFMS supports all USCIS/ICE core financial processing and uses a SGL for the
accounting of agency financial transactions.

United States Coast Guard

Locations of Audit: Coast Guard Headquarters in Washington, DC; the Aviation Repair and Supply
Center (ARSC) in Elizabeth City, North Carolina;

                                                     .

Key Systems Subject to Audit:

•   Core Accounting System (CAS) – CAS is the core accounting system that records financial
    transactions and generates financial statements for the Coast Guard. CAS is hosted at            ,
    the Coast Guard’s primary data center.
•   Financial Procurement Desktop (FPD) – The FPD application used to create and post obligations
    to the core accounting system. It allows users to enter funding, create purchase requests, issue
    procurement documents, perform system administration responsibilities, and reconcile weekly
    Program Element Status reports.
•   Workflow Imaging Network System (WINS) - WINS is the document image processing system,
    which is integrated with an Oracle Developer/2000 relational database. WINS allows electronic
    data and scanned paper documents to be imaged and processed for data verification,
    reconciliation and payment. WINS utilizes MarkView software to scan documents and to view
    the images of scanned documents and to render images of electronic data received.
•   Checkfree - The Checkfree system is used to aid in the account reconciliations for the CAS.
    General Ledger extracts are imported into the system and automated passes are run to match
    transactions for reconciliation purposes. The results will later be loaded into CAS. This system is
    hosted on a Windows server and resides at the Coast Guard
•   Naval Electronics Supply Support System (NESSS) – Formerly named the Supply Center
    Computer Replacement System, NESSS is hosted at             . NESSS is the primary financial
    application for the Engineering Logistics Command (ELC), the Supply Fund, and the Coast
    Guard Yard fund. Also housed at           is the Fleet Logistics System, a web-based application
    designed to automate the management of Coast Guard vessel logistics by supporting the following


Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                10
                                                                                            Appendix A

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2006

    functions: configuration, maintenance, supply and finance. In addition,      is responsible for
    the Configuration Management Plus System, the central repository for activities associated with
    maintaining Coast Guard assets at the unit level.

Several other key Coast Guard financial applications support military personnel and payroll, retired
pay, and travel claims. These applications are hosted at the Coast Guard’s        These applications
include the Personnel Management Information System and the Joint Uniform Military Pay System.
Also housed at       is the PeopleSoft 8.3 Direct Access application, which is used by members for
self-service functions, including updating and viewing personal information.

United States Customs and Border Protection (CBP)

Locations of Audit:


Key Systems Subject to Audit:

•                    is a client/server-based financial management system that was implemented
    beginning in FY 2004 to ultimately replace the                                               using a
    phased approach. The                                           was implemented and utilized in FY
    2004. In FY 2005, the Funds Management, Budget Control System, General Ledger, Internal
    Orders, Sales and Distribution, Special Purpose Ledger, and Accounts Payable modules were
    implemented.
•                                                   is a collection of mainframe-based applications
    used to track, control, and process all commercial goods, conveyances and private aircraft
    entering the United States territory, for the purpose of collecting import duties, fees, and taxes
    owed the Federal government.

DHS Consolidated

Location of Audit: DHS Headquarters in Washington, D.C.

Key Systems Subject to Audit:

•   Treasury Information Executive Repository (TIER) – The system of record for the DHS
    consolidated financial statements is TIER. The DHS components update TIER on a monthly
    basis with data extracted from their core financial management systems. TIER subjects
    component financial data to a series of validation and edit checks before it becomes part of the
    system of record. Data cannot be modified directly in TIER, but must be resubmitted as an input
    file.
•   CFO Vision – CFO Vision interfaces with TIER, and is used for the consolidation of the financial
    data and the preparation of the DHS financial statements.

The TIER and CFO Vision applications reside on the Department of Treasury’s (Treasury) network
and are administered by Treasury. Treasury is responsible for the administration of the TIER


Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                 11
                                                                                        Appendix A

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2006

Windows NT server, Oracle 8i database, and the TIER and CFO Visions applications. The DHS
Office of Financial Management is responsible for the administration of DHS user accounts within
the TIER and CFO Vision applications.

Federal Law Enforcement Training Center

Location of Audit:


Key Systems Subject to Audit:

•   Momentum: FLETC’s core computerized system that processes financial documents generated by
    various FLETC divisions in support of procurement, payroll, budget and accounting activities.
•   Procurement Desktop: Procurement Desktop is the procurement management system, which is
    used for the tracking of procurement activities at various FLETC locations. The system resides on
    an Oracle database and the front-end of the system is integrated with Momentum.

Federal Emergency Management Agency (FEMA)

Locations of Audit: FEMA Headquarters in Washington, D.C., and the


Key Systems Subject to Audit:

•   Integrated Financial Management Information System (IFMIS) – IFMIS is the key financial
    reporting system, and has several feeder subsystems (budget, procurement, accounting, and other
    administrative processes and reporting).
•   National Emergency Management Information System (NEMIS) – NEMIS is an integrated system
    to provide FEMA, the states, and certain other federal agencies with automation to perform
    disaster related operations. NEMIS supports all phases of emergency management, and provides
    financial related data to IFMIS via an automated interface.
•   Transaction Record Reporting and Processing (TRRP): The TRRP application acts as a central
    repository of all data submitted by the Write Your Own (WYO) companies. TRRP also supports
    the WYO program, primarily by ensuring the quality of financial data submitted by the WYO
    companies to TRRP. TRRP is a mainframe-based application that runs on the National Flood
    Insurance Program (NFIP) mainframe logical partition in Norwich, CT.
•   Traverse: The general ledger application used by CSC to generate the NFIP financial
    statements. Traverse is a client-server application that runs on a Windows server in Lanham,
    MD, which is secured in the local area network room. The Traverse client is installed on the
    desktop computers of the NFIP Bureau of Financial Statistical Control group members.


Grants and Training (G&T)

Location of Audit: G&T Headquarters in Washington, D.C.


Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                               12
                                                                                       Appendix A

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2006


Key Systems Subject to Audit:

G&T’s IT platforms are hosted and supported by the Department of Justice’s Office of Justice
Programs (OJP). The following is a list of key financial related applications supporting G&T.
• IFMIS (same application as FEMA’s, but hosted at OJP) – IFMIS consists of five modules that
   include: budget, cost posting, disbursement, general ledger, and accounts receivable. Users
   access the system through individual workstations that are installed throughout G&T and OJP.
   The current IFMIS version does not have the ability to produce external federal financial reports
   (i.e., SF132 and SF133) and financial statements. IFMIS was updated in February 2002 with the
   version certified by the Joint Financial Management Improvement Program.
• Grants Management System (GMS) – GMS supports the G&T grant management process
   involving the receipt of grant applications and grant processing activities. GMS is divided into
   two logical elements. There is a grantee and an administration element within the system. The
   grantee component provides the Internet interface and functionality required for all of the
   grantees to submit grant applications on-line. The second component, the administration
   component, provides SLGCP/OJP personnel the tools required to store, process, track and
   ultimately make decisions about the applications submitted by the grantee. This system does not
   interface directly with IFMIS.
• Line of Credit Electronic System (LOCES) – The LOCES allows recipients of SLGCP funds to
   electronically request payment from OJP on one day and receive a direct deposit to their bank for
   the requested funds usually on the following day. Batch information containing draw down
   transaction information from LOCES is transferred to IFMIS. The IFMIS system then interfaces
   with Treasury to transfer payment information to Treasury, resulting in a disbursement of funds
   to the grantee.
• Paperless Request System (PAPRS) – This system allows grantees to access their grant funds.
   The system includes a front and back end application. The front-end application provides the
   interface where grantees make their grant requests. The back end application is primarily used by
   accountants and certifying officials. The back end application also interfaces with the IFMIS
   application. Batch information containing draw down transaction information from PAPRS is
   interfaced with IFMIS. The IFMIS system then interfaces with Treasury to transfer payment
   information to Treasury, resulting in a disbursement of funds to the grantee.

Transportation Security Administration (TSA)

Locations of Audit: TSA Headquarters in Washington, D.C. and the
                    . TSA’s financial applications are hosted on the Coast Guard’s IT platforms.


Key Systems Subject to Audit:

•   Core Accounting System (CAS) – CAS is the core accounting system that records financial
    transactions and generates financial statements for TSA. CAS is hosted at         the Coast
    Guard’s primary data center.



Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                              13
                                                                                        Appendix A

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2006

•   Financial Procurement Desktop (FPD) – The FPD application is used to create and post
    obligations to the core accounting system. It allows users to enter funding, create PR’s, issue
    procurement documents, perform system administration responsibilities, and reconcile weekly
    PES Reports.
•   Sunflower: The Sunflower system is the property management system, which is used for the
    tracking of property at TSA locations. The system resides on an Oracle database and the front-end
    of the system is integrated with the CAS user interface. Sunflower is hosted at the           the
    Coast Guard’s primary data center.




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                               14
                                                                             Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                                   Appendix B

FY2006 Notice of IT Findings and Recommendations - Detail by
                DHS Organizational Element




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         15
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


             United States Citizenship and Immigration Services




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         16
                                                                                                                            Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                              Department of Homeland Security
                                               FY2006 Information Technology
                                   Notification of Findings and Recommendations – Detail

                                              Citizenship and Immigration Services

                                                                                                                         Repeat      Risk
NFR #               Condition                                      Recommendation                            New Issue
                                                                                                                          Issue     Rating
USCIS   The National Benefits Center          Define and document the various                LAN roles and
06-01   (NBC) has not defined or              their associated user permissions as they pertain to NBC.
        documented the appropriate user
                                                                                                                X                    Low
        permissions for the various roles
        granted to             Local Area
        Network (LAN).
USCIS   NBC does not perform periodic         •   Ensure that the NBC IT Department annually review the
06-02               LAN user access               list of            LAN system administrators and
        reviews to ensure that users' level       Database Administrators as well as review and approve
        of access remains appropriate.            access level list.
                                              •   Ensure that NBC management annually review and
                                                  approve the lists of employees stating the appropriate        X                  Medium
                                                  level of access for each NBC employee with access to
                                                              LAN.
                                              •   Require the NBC IT Department to exercise its oversight
                                                  role to ensure necessary adjustments in NBC
                                                  LAN account access levels are accomplished. based on
                                                  the input.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    17
                                                                                                                           Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                        Repeat     Risk
NFR #               Condition                                     Recommendation                            New Issue
                                                                                                                         Issue    Rating
USCIS   Management at the USCIS               Establish procedures for the completion and maintenance of       X                  Medium
06-03   Headquarters and the Service          user access forms for                                 and
        Centers (Nebraska, California,        CISCOR users.
        Texas, and Vermont) has not
        completed or inadequately
        completed access forms for
                                        and
        CISCOR system users.
USCIS   Access control weaknesses such        Ensure that            system passwords are established and                 X       Medium
06-04   as account management, password       maintained in accordance with DHS and Federal guidance and
        length, and a lack of review over     that warning banners are in place when users logon to the
        audit records were identified for     system.
        the           system.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   18
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


                   Immigration and Customs Enforcement




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         19
                                                                                                                             Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                              Department of Homeland Security
                                               FY2006 Information Technology
                                   Notification of Findings and Recommendations – Detail

                                            Immigration and Customs Enforcement

                                                                                                                          Repeat     Risk
NFR #                   Condition                                         Recommendation                      New Issue
                                                                                                                           Issue    Rating
 ICE    ICE-Office of the Chief Information Officer    Continue its efforts to define, document, and follow      X                  Medium
06-01   (OCIO) management has not defined or           a formal plan to monitor security control compliance
        documented a formal plan to monitor            of third party providers of       services.
        security control compliance of third party
        providers of
                         services.

 ICE    The         System Security Plan does not      •   Update the              System Security Plan to       X                  Medium
06-02   include procedures for distributing,               include procedures for ensuring all        users
        maintaining, or tracking a user’s signed           acknowledge and accept the DHS ROB when
        Rules of Behavior (ROB) document.                  they login to
                                                       •   Develop and implement controls to ensure such
        Additionally, not all        users have            procedures are enforced; and
        signed the current ROB document reflecting
                                                       •   Continue its efforts to append the DHS ROB to
        DHS policies and procedures.
                                                           the initial login screen of     .

 ICE    At the time our procedures were performed,     Periodically review the list of ICE users with            X                  Medium
06-03   OCIO Management had not reviewed and           wireless access to ensure that all users with active
        updated the list of ICE users with wireless    accounts still require wireless access.
        access. Several wireless broadband cards
        were issued to ICE users, but the OCIO was
        unaware of who the users are or where they
        are located. After communicating this issue
        to OCIO management, subsequently
        performed such a review and updated its list

               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     20
                                                                                                                                  Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                               Repeat      Risk
NFR #                    Condition                                         Recommendation                          New Issue
                                                                                                                                Issue     Rating
        of ICE users with wireless access.
        Furthermore, OCIO management indicated
        that it suspended and de-activated all cards
        not accounted for.

 ICE    ICE network traffic for the                     Continue efforts to implement a second firewall for           X                   High
06-04   client/server application does not pass         the protection of ICE’s network, and more
        through the ICE firewall, but rather goes       specifically, its financial information.
        directly to the ICE router at the Department
        of Commerce (DOC) Office of Computer
        Services (OCS) and then is handed off to
        DOC OCS’ network.
 ICE    Users are not locked out of           or the    Configure         and the ICE network to lock users           X                  Medium
06-05   ICE network after 20 minutes of inactivity.     out after 20 minutes of inactivity.
 ICE    The          security audit log for the         The ICE-CIO should work with DOC-OCS to                       X                  Medium
06-06   mainframe system housing the                    prevent the        security audit log from being
        databases can be modified by the                modified by the         Security Administrator.
        Security Administrator.

 ICE    ICE-CIO has not completed and authorized        Ensure that all users with remote access have a               X                  Medium
06-07   remote access forms for two of the five ICE     completed and approved Remote Access Request
        users we selected for testing.                  form on file.
 ICE    Two of the five         users we selected for   Complete and authorize user access forms for all              X                  Medium
06-08   testing have two accounts (eg - Jsmith,               user accounts.
        Jsmith1, same person with 2 accounts), but
        only one access form on file.
 ICE    User profiles are not properly segregated       •   Clearly define and document            profiles that      X                   High
06-09   within        . We noted the following:             must be segregated.
        • 3 users can enter, approve, and make          •   Implement a timely and disciplined analysis (at
             payments;                                      least 2 times per year) of user access and
        • 157 users can create obligations and              segregate incompatible           user profiles
             payments; and                                  whenever identified.

               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      21
                                                                                                                             Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                          Repeat      Risk
NFR #                     Condition                                       Recommendation                      New Issue
                                                                                                                           Issue     Rating
         •   7 contractors have access to the Desk
             Approving Official (AO) and Desk
             Funding Official (FO) profiles.

  ICE    User profiles have not been updated across    Continue its efforts to review and update user            X                   High
 06-10   all instances of       for the entities in    profiles, across all       instances, to ensure that
         which ICE, Office of Financial                user profiles are adequately segregated and users
         Management (OFM) provides accounting          only have access to profiles they need to perform
         services to address the principles of least   their official duties.
         privilege and separation of duties.

         According to ICE management a business
         decision has been made to complete an
         overall update of user profiles, across all
                instances. The business decision is
         to approach the full profile component, as
         ICE has determined it is the better long
         range solution.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     22
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006



                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


                            Departmental Operations




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         23
                                                                                                                            Appendix B

                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2006

                                             Department of Homeland Security
                                              FY2006 Information Technology
                                  Notification of Findings and Recommendations – Detail

                                                      Departmental Operations

                                                                                                                         Repeat      Risk
NFR #                   Condition                                       Recommendation                       New Issue
                                                                                                                          Issue     Rating
MGT     During our testing we noted that the user     •   Request the ICE OCIO to remove the inactive           X                    Low
06-01   account for an individual who separated           user account from
        from MGT on May 24, 2006 had not been         •   Perform; in coordination with the ICE OCIO,
        removed from           as of September 8,         periodic reviews of user accounts to ensure that
        2006. Although the user account was made          all accounts are active and users require access
        inactive in        upon the employee’s            to       .
        departure, the inactive account was not
        removed from            Experienced system
        users/hackers can access systems via
        dormant/inactive accounts; therefore, it is
        important to remove all inactive accounts
        from the system.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   24
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006



                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


                        Customs and Border Protection




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         25
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                Department of Homeland Security
                                                 FY2006 Information Technology
                                     Notification of Findings and Recommendations – Detail

                                                    Customs and Border Protection

                                                                                                                                Repeat      Risk
NFR #                        Condition                                        Recommendation                        New Issue
                                                                                                                                 Issue     Rating
CBP-IT-   Due to the design of        certain controls can    While we understand that the complete mitigation,                    X        High
 06-01    be overridden without supervisory approval.         via system-based controls, of this issue may
          For example, when a CBP entry specialist            require significant investment, we recommend that
          attempts to liquidate an import entry in      ,     CBP management develop a process to mitigate
          the system displays a warning message,              the systemic         weakness that certain controls
          indicating that a drawback claim had been filed     can be overridden without supervisory approval.
          against the import entry. However, entry                  Drawback functionality is just an example of
          specialists could override the warning message      supervisory overrides in         This is prevalent
          without supervisory review and process a refund     throughout the        environment. Considering the
          without investigating pending drawback claims       number of years necessary to fully replace
                                                              functionality with        this process should be
          We noted that there have been no changes in the     designed in a manner to ensure supervisory review
          status of the finding. CBP management agrees        of        overrides while maintaining a minimal
          with the finding, but does not agree with the       burden on management. Also, CBP should ensure
          recommendation to correct this issue in        .    that the new        system has the appropriate
          Instead, CBP management plans on                    requirements for such controls and that these
          implementing functionality in        to prevent     controls are applied prior to implementation. CBP
          the override capability. We noted that although     management has concurred that the new
                 will eventually replace            was not   system will be designed with this functionality
          be implemented in FY 2006.                          built in to the system.
CBP-IT-   • CBP management has not established ISAs           • Complete efforts to identify the remaining                        X       Medium
 06-02         for legacy connections with      .                  dial-up connections that are considered
          • Additionally, the majority of financial                “legacy” connections and formally establish
               institutions connecting with       do not           ISAs with these entities
               have ISAs.                                     • Complete efforts to identify all connections

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       26
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                Repeat      Risk
NFR #                        Condition                                       Recommendation                         New Issue
                                                                                                                                 Issue     Rating
                                                                 with the      and formally establish ISAs
                                                                 with these entities.

CBP-IT-   CBP management has not performed a formal          Complete the certification and accreditation of
 06-03    certification and accreditation on the      LAN         LAN components and the           LAN as a
          as a whole. Specifically, a formal security        whole.                                                               X       Medium
          control assessment and a formal risk assessment
          have not been performed for components of the
                 LAN.

CBP-IT-   CBP does not maintain a centralized listing of     •    Develop a formal centralized process for                        X       Medium
 06-04    separated contract personnel. The only method           tracking the termination of contract personnel.
          CBP employs to track terminated contractors is     • Deactivate all systems access of terminated
          the use of a report of users that had their             contractors immediately upon separation from
          mainframe account deleted. We cannot                    CBP.
          acknowledge this list as representative of all
                                                             • Periodically distribute a listing of terminated
          terminated contractors. This is because
                                                                  contract personnel to information system
          terminated contract personnel might not have
                                                                  administrators so they remove user access and
          mainframe access or their access was not
                                                                  periodically assess contractor access to CBP
          removed after their termination.
                                                                  systems.
CBP-IT-   •    CBP management has not performed a            • Perform a formal review of access to the data
 06-05         formal review of individuals with physical         center,
                                                                                                                                  X       Medium
               access to the data center.                    • Update the data center access listing based on
          • Additionally, CBP management has not                  the review of access, and
               established formal procedures for revoking    • Formalize the procedures for granting and
               physical access to       buildings.                removing        building access.
CBP-IT-   CBP has not performed a separate certification     Complete the formal certification and accreditation                  X         Low
 06-06    and accreditation for the applications remaining   of all       Administrative applications.
          in the seven business process areas defined in
          the Administrative Applications C&A. These
          seven business process areas include the
          following:

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      27
                                                                                                                                       Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                    Repeat      Risk
NFR #                        Condition                                         Recommendation                           New Issue
                                                                                                                                     Issue     Rating
          •   Disclosure Administrative Support Systems
          •   Financial Administrative Support Systems
          •   Field Operations Support Systems
          •   Investigation Support Systems
          •   OIT Administrative Support Systems
          •   Personnel Administrative Support Systems
          •   Training Support Systems
CBP-IT-        does not have an automated mechanism to         Implement an automated mechanism to detect and                         X       Medium
 06-07    detect and deactivate users that have not logged     deactivate inactive accounts that does not require
          on for 90 days per DHS policy.                       manual initiation.

CBP-IT-   Field offices are not consistently reporting the     •   Communicate the directive to all the field sites                   X       Medium
 06-08    completion of         re-certifications at their         so that the field sites are aware of the reporting
          ports to the OFO headquarters. Email                     requirement.
          confirmation of completion of           re-          •   Periodically reconcile the received completion
          certifications were not available for Boston,            reports with the field sites to determine the
          Baltimore, New Orleans, Miami, and Calgary               field sites that have not reported        re-
          (Canada) field offices, and the Los Angeles field        certifications to OFO.
          office only provided an email stating that re-
          certification process exists, but did not confirm
          that       re-certifications had been completed.
          The six field offices listed above represent 10 of
          44 ports selected for testing.
CBP-IT-   We could not obtain the requested evidence of                                                                               X       Medium
                                                               Field ports should maintain documented evidence
 06-09          recertifications from CBP for any of the 44
                                                               of       recertifications for audit purposes. CBP
          selected field level ports to determine whether
                                                               should ensure that field sites submitting
                accounts with sensitive and high-risk
                                                               completion reports are maintaining the required
          combination of functions are reviewed for
                                                                     recertification records.
          appropriateness.
CBP-IT-   Improvements are still needed in CBP’s               •   Continue to roll out        Endpoint Health to                     X       Medium
 06-10    Incident Handling and Response Capability                all CBP workstations.


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        28
                                                                                                                                   Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                Repeat      Risk
NFR #                        Condition                                         Recommendation                       New Issue
                                                                                                                                 Issue     Rating
          which may potentially limit CBP’s ability to         •   Develop procedures to respond to system flaw
          respond to incidents in an appropriate manner.           notifications in a consistent manner.
          Specifically, we noted the following issues:
          •            Health Endpoint will not be installed
               on all workstations for the majority of the
               fiscal year.
          • 3 of 8 selected system flaw notifications did
               not have an associated Service Center
               ticket.
CBP-IT-   We noted that the process for deletion of            •   Determine whether the potential matches are         X                   High
 06-11    accounts for terminated government and                   actual matches. Delete the accounts of any
          contractor personnel may be utilizing erroneous          confirmed terminated employees.
          data. Specifically, we noted that the files being    •   Continue to use the payroll feed to determine
          sent from the Mainframe Security group to the            if a     user has terminated employment.
                Security team to terminate       accounts
                                                               •   Disable user accounts of separated employees
          of separated employees do not display the true
                                                                   and contractors as stated in CBP and NIST
          status of employees. The mainframe query
                                                                   guidance.
          producing the separated contractor file includes
          individuals with Mainframe accounts that have        •   Implement and monitor a formal employee
          been locked after 30 days of inactivity.                 separation process that removes all systems
          Additionally, the separated government                   accounts for terminated or separated
          employees file is not accurate due to the fact           employees.
          that many government employees are separated
          and return to CBP as contractors.
          Consequently, the        Security Group does not
          deactivate the accounts for these instances.
CBP-IT-   We noted that 24 out of 45 selected individuals      •  Continue to use the official authorization form                 X       Medium
 06-12    did not have formally documented VPN access             for new VPN users.
          authorization forms. Additionally, CBP has not       • Formally re-certify all VPN employee
          implemented formal procedures for VPN                   accounts on a periodic basis and document
          recertification for the majority of FY 2006.            results.
CBP-IT-   CBP System Security does not conduct reviews         Implement policies and procedures for monitoring        X                  Medium

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        29
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                Repeat      Risk
NFR #                        Condition                                        Recommendation                        New Issue
                                                                                                                                 Issue     Rating
 06-13    of powerful system utilities. Specifically, the     and reviewing logs of powerful system utilities for
          utilities                           and             suspicious activity.
                     are not reviewed by management.
CBP-IT-   • Multiple methods of termination of                •   Ensure that management understands the               X                  Medium
 06-14         mainframe accounts are used by Systems             importance of completing CF-241 forms and
               Security personnel (i.e. electronic mail,          receiving appropriate notification from System
               phone calls, and termination checklists).          Security for removal of access to systems.
          • We selected 45 terminated employees to            •   Implement and enforce a formal separation
               determine whether termination checklists           and review process that requires the CF-241
               had been consistently completed. Of the 45         form to be complete, including signatures
               employees, only 30 forms were provided.            from direct supervisors, before the employee’s
               Of these 30 forms, we noted that 9 out of 30       final day of employment.
               forms did not have supervisory signature,
               which signifies completion of the form to
               include notification sent to System Security
               for removal of logical access to
               applications. We noted that termination
               checklists (CF-241) are not consistently
               completed for separating employees
               throughout the organization.
CBP-IT-   Backup tapes do not have affixed external labels    Apply external labels to the backup tapes and other      X                  Medium
 06-15    to indicate the sensitivity of the data contained   storage devices with the sensitivity level of the
          in the tapes.                                       information contained within the object.
CBP-IT-   CBP System Security does not have formal            Formally document, implement and monitor                 X                  Medium
 06-16    policies and procedures in place for monitoring     policies and procedures related to the use of such
          powerful/sensitive system utilities                 powerful/sensitive system utilities.
CBP-IT-   • Improvements still needed in CBP’s                • Coordinate with DHS in developing                                 X        High
 06-17         technical security controls. Related to            enterprise-wide solutions for improving
               issues reported in FY02, FY03 and FY04             network and host-based system configuration
               findings regarding host and network based          design(s) to reduce the risks of compromise.
               security system access deficiencies, we        • Consider use of system administrator level
               noted the following:                               security management monitoring tools to

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       30
                                                                                                                                  Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                               Repeat      Risk
NFR #                       Condition                                        Recommendation                        New Issue
                                                                                                                                Issue     Rating
                                                                 detect and correct security deficiencies in
          •   CBP has confirmed that they will not be            preventing possible intrusions
              implementing the Passfilt.dll system control   •   Proceed with the implementation of
              program to enforce strong passwords or the                            to replace the Windows NT
              Windows NT password protection feature             domain configuration.
              enhancement upgrade referred to as             •   Provide and approve more robust standards for
                                       .                         Windows-based production servers for a
          •   CBP has not made the configuration                 standard and sustainable baseline set of system
              changes to the                                     management security controls.
                         that was compromised in We          •   Consider development of a compliance level
              FY03 intrusion tests.                              policy that provides for adherence to CBP
          •   Discovered key systems’ domains in                 password management policies set at the
              targeting for potential unauthorized access        domain controller level where local system
              attempts where we were able to identify            administrators and help desk staff may alter
              major CBP network domains.                         users’ password management policies
          •   Exploited a system vulnerability that had          resulting in non-compliance situations.
              not been corrected.                            •   Review and justify the level of system
          •   We confirmed that the number of Domain             administrators on critical domains to ensure
              Administrators on selected Domains has             that the level of access is based on strict
              increased since 2005.                              adherence to least privilege principles where
          •   ESM identified weak passwords, expired             the absolute minimum level necessary is
              passwords, misconfigurations, and missing          applied.
              patches.
          •   Identified vulnerabilities on an Oracle
              database which had critical patches missing,
              week passwords and auditing is not
              enabled.
CBP-IT-   •   We noted the following issues related to       •   Continue to develop and implement the                X                   High
 06-18        password parameters:                                               security record to bring
                                                                 Mainframe password parameters in
          •   Mainframe minimum password length is set           compliance with DHS and CBP policies.


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      31
                                                                                                                                  Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                               Repeat      Risk
NFR #                       Condition                                        Recommendation                        New Issue
                                                                                                                                Issue     Rating
              to six characters                              •   Bring               password parameters in
          •          LAN minimum password length is set          compliance with DHS and CBP policies.
              to six characters                              •   Configure the    security parameter to
          • Password complexity is not set on the                enforce minimum password length of eight
              Mainframe                                          characters.
          • Password complexity is not set on
          • Password complexity is not set on the
              LAN
CBP-IT-   We noted the following issues related to           •   Modify CBP’s automatic session                       X                  Medium
 06-19    automatic session disconnection:                       disconnection policy so that it is consistent
                                                                 with DHS’ policy or obtain a formal waiver
          •   CBP’s policy states that sessions should be        from DHS.
              automatically disconnected after 30 minutes    •   Modify CBP documentation to reflect that
              of inactivity, which is not consistent with        only the password-protected screensaver must
              DHS’ policy.                                       be activated after 5 minutes of inactivity.
          •   CBP’s policy states that the workstation       •   Modify        session disconnection settings to
              should log off from all connections after 5        terminate sessions after 20 minutes of
              minutes of inactivity, which is a                  inactivity.
              documentation error. According to              •   Continue deployment of                      and
              applicable guidance, all system connections        Windows 2003 in order to set up group policy
              do not have to be terminated after 5 minutes       and enforce password-protected screensaver
              of inactivity on the workstation.                  settings on the workstations.
          •         sessions are configured to terminate
              after 60 minutes of inactivity.
          •   CBP workstations cannot enforce the
              activation of a password-protected
              screensaver after 5 minutes of inactivity.
              The settings can be disabled or changed by
              individual users.

CBP-IT-       is not configured to disable user accounts     •   Modify         system parameters to lock users       X                  Medium


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      32
                                                                                                                                  Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                               Repeat      Risk
NFR #                        Condition                                        Recommendation                       New Issue
                                                                                                                                Issue     Rating
 06-20    after 3 consecutive failed logon attempts.              after three consecutive failed logon attempts
                                                                  as required by the relevant policy.
          Additionally, per observation, we noted             •   Modify intrusion detections parameters on all
          LAN accounts were not locked after thr                         LAN Novell Netware contexts to allow
          consecutive failed login attempts.                      two failed logon attempts, which will enforce
                                                                  account lockout on the third failed logon
                                                                  attempt.

CBP-IT-   CBP does not document formal approval of            Implement and enforce formal policies and               X                   High
 06-21    system changes for the       system. We             procedures for documenting       change
          selected 8      regularly scheduled changes to      approvals by end users and data processing staff.
          determine if formal approval was given and
          documented. Per inspection of documentation,
          we were informed that there is no formally
          documented approval for the 8 selected changes.

CBP-IT-   We noted weaknesses related to the deposit and      •   File the tape deposit receipts immediately          X                    Low
06-022    withdrawal of backup tapes:                             following the transaction with the off-site
                                                                  storage vendor.
          •    Tape deposit receipts for 2 of 25 selected     •   Implement and monitor a process to log the
               dates were not available.                          withdrawal of backup tapes from the off-site
          • Withdrawal of backup tapes from the off-              storage facility.
               site storage facility is not logged.
CBP-IT-   CBP System Security does not consistently           CBP management implement policies and                   X                  Medium
06-023    retain audit logs of powerful mainframe system      procedures for retention of audit logs of powerful
          utilities. Specifically, we selected 25             system utilities.
                        reports to determine if powerful
          mainframe system utilities are being
          consistently logged. We determined that 5 out
          of the 25 selected logs were missing.
CBP-IT-   We determined that                  does not have   We recommend that CBP management implement              X                  Medium
06-024    the ability to prevent developers from              procedures which prevent the overwrite of

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       33
                                                                                                                                   Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                Repeat      Risk
NFR #                        Condition                                         Recommendation                       New Issue
                                                                                                                                 Issue     Rating
          overwriting existing code in the development          development code in the development
          environment. The developer is able to extract         environment.
          the code from the development environment and
          place it into a personal folder on the user’s
          personal computer. If multiple users are
          modifying a program in their own personal
          folders they may be overwriting existing
          changes.
CBP-IT-   Accounts are not deactivated after 90 days of         •   Configure the setting within      to               X                   High
06-025    inactivity with respect to the       system. We           automatically disable accounts that have been
          determined through inspection of audit evidence           inactive after 90 days per DHS 4300A
          acquired from         that the defined deactivation       Sensitive Systems Handbook v3.3.
          period is, in fact, 180 days.                         •   Review current        accounts and disable
                                                                    and/or remove accounts that have been
                                                                    inactive for 90 or more days in

CBP-IT-         LAN Security Administrators do not keep                                                                X                  Medium
                                                                •   Configure the        LAN to keep audit logs
06-026    audit logs for the prescribed period of time.
                                                                    and track security events according to CBP
          Audit logs are only available for, at the most,
                                                                    and DHS policies.
          the past three months. Logs are not maintained
          beyond the configured space for the log file.         •   Review        LAN audit logs on a regular
          We also noted that         LAN Security                   basis, according to CBP and DHS policy, to
          Administrators do not review audit logs.                  look for potential security events.
CBP-IT-   We noted that accounts are not deactivated after      •   Implement a control to automatically disable       X                  Medium
06-027    90 days of inactivity on the       LAN. We                or remove accounts after ninety days of
          determined that the removal of inactive                   system inactivity in the system.
          LAN accounts is a manual process.                     • Review current accounts and disable or
                                                                    remove accounts that have been inactive for
                                                                    ninety or more days in the system.
CBP-IT-        ISAs are not fully documented for     .          Complete and approve all connections with              X                  Medium
06-028    The ISA documenting the connection between            existing and new entities connecting with
               America and CBP is currently out of date.

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                         34
                                                                                                                                     Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                  Repeat      Risk
NFR #                        Condition                                         Recommendation                         New Issue
                                                                                                                                   Issue     Rating
          In addition, the connection that exists between
          Treasury and CBP is currently not officially
          documented.
CBP-IT-   The documentation of completed initial security      Consistently apply the requirements for initial and                  X         Low
06-029    awareness training is not properly maintained.       refresher security awareness training for all CBP
          We selected security awareness training              employees and contractors upon initially
          documentation for 45 users. Per inspection of        establishing LAN/Mainframe accounts to CBP
          documentation, and noted that 13 of 45 did not       information systems.
          have security awareness training certificates
          documented.
CBP-IT-   Contractor access request forms for the              •   Formalize policies and procedures that all            X                   High
 06-30    LAN could not be adequately tested. We noted             employees, either government or contractor,
          that no list of contractors hired to work at CBP         are tracked by CBP personnel.
          is maintained, accordingly audit procedures          •   Implement a method of tracking those
          requiring a sample of contractor access request          government employees and contractors that
          forms could not be requested.                            are currently employed at CBP.
CBP-IT-          has excessive access to emergency             •   Implement a policy and procedure that all             X                  Medium
 06-31    processing capabilities. We noted that after an          users that require emergency access must have
          initial authorization to be added to an                  supervisory approval for each time they need
          emergency user table in         , a user can             their emergency access activated.
          repeatedly request that t       mergency access      •   Recertify the users on the emergency access
          be reinstated, without being reauthorized.               table to determine whether these are still users
          While emergency access in            can expire in       that may need emergency access as part of
          no more than nine days, some users renew their           their operational duties at CBP.
          emergency access every nine days. We noted
          that CBP has not implemented an effective
          method of controlling this access, as users are
          not required to reauthorize their emergency
          access each time it is requested.
CBP-IT-   Access change audit logs are not reviewed in         •   Implement policy that requires review of              X                  Medium
06-032                     CBP management does not                 access level change logs for     and     .
          independently review the changes that are put            Ensure that personnel reviewing these      are

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        35
                                                                                                                               Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                            Repeat      Risk
NFR #                         Condition                                     Recommendation                      New Issue
                                                                                                                             Issue     Rating
          into place by the               security              independent from the personnel that can make
          administrators.                                       changes to the access.
                                                            •   Maintain documentation of the review of these
                                                                logs and follow up on any anomalous issues
                                                                discovered during a review.
CBP-IT-   An administrator account on the      LAN                                                                 X                   High
                                                            Ensure that the shared account is locked or
 06-34    (“CMO NDS Administrator”) is shared by four
                                                            deleted.
          LAN administrators.
CBP-IT-   We determined that the following documents        Ensure all documentation, outlining CBP policies,      X                   High
06-036    have not been formally approved:                  procedures and guidelines are appropriately
                                                            coordinated and officially approved.
          •   Systems Development Life Cycle (SDLC)
              Configuration Management Plan – No
              approval
          • Configuration Management Code Migration
              Procedures for
                             has no authorization
          • Acquisition Planning and Selection and
              Development Process has no authorization
          • Configuration Management Code Migration
              Procedure for Systems, Applications, and
              Products has no authorization
          • Production Management Team Procedures
              – No approval, no change history
          • NDC Operations: Standard Operating
              Procedures – No approval
CBP-IT-   User acceptance testing for Employee Self         •   Ensure that user acceptance testing is             X                  Medium
 06-37    Service Solution (ESSS)/Remedy was not                performed for all systems developed or
          formally documented                                   acquired at CBP.
                                                            •   Maintain formal documentation of user
                                                                acceptance testing, including test plans and

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     36
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                  Repeat      Risk
NFR #                        Condition                                       Recommendation                           New Issue
                                                                                                                                   Issue     Rating
                                                                results.

CBP-IT-   We noted that one individual with        LAN      •   Delete         LAN administrator privileges              X                   High
 06-38    administrator privileges did not have justified       from the individual without a documented
          access.                                               need.
                                                            • Perform periodic review of LAN accounts
          We noted that there are instances where               with        LAN administrator privileges to
          locks security administrator accounts due to          determine whether it is appropriate.
          various reasons that do not require documented
                                                            • Formally document approvals every time a
          approvals for reinstating the user account.
                                                                field       administrator privilege is requested
          Additionally, we noted that instances where the
                                                                regardless of whether it is due to new
                security administrator is new or
                                                                administrators, existing administrator that was
          reinstatement of suspended/deleted accounts is
                                                                suspended or deleted, or existing administrator
          needed, a documented approval is required. We
                                                                that lost their profile, but is still active in the
          noted that due to a system limitation within
                                                                system.
               , management cannot produce a system-
          generated list of field     security              • Work towards identifying a solution in
          administrators that differentiates between the        that will allow system-generated listing of
          two cases.                                            users that required formal field
                                                                administrator access approval documentation.
CBP-IT-   We noted that 1 out of 3 selected batch job       Management consistently document and maintain                X                  Medium
 06-39    schedule changes did not have documented          the OMS approvals for job schedule changes.
          approval.




                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      37
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


                           United States Coast Guard




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         38
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                Department of Homeland Security
                                                 FY2006 Information Technology
                                     Notification of Findings and Recommendations - Detail
                                                    United States Coast Guard

  Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for Financial System Security

                                                                                                                                           Risk
NFR #                        Condition                                      Recommendation                    New Issue   Repeat Issue
                                                                                                                                          Rating
CG-IT-   The          Business Contingency and Disaster         •   Finalize and implement the DRBC                            X           High
06-001   Recovery Plan is still in draft form and has not yet       and ensure that it reflects changes
         been tested.                                               in hardware and software and
                                                                    addresses       disaster     recovery
                                                                    procedures for                 s key
                                                                    financial systems.
                                                                •   Identify an alternate processing site
                                                                    and       document         associated
                                                                    restoration procedures.
                                                                •   Periodically test the DRBC and
                                                                    evaluate the results of the testwork so
                                                                    that the DRBC can be adjusted to
                                                                    correct any deficiencies identified in
                                                                    testing.
CG-IT-   A comprehensive incident capability that includes      •   Develop an incident response                 X                       Medium
06-002   designated response team members and                       capability that includes:
         procedures for incident handling to help ensure            - Designation of response team
         that the incident is properly handled has not been              members;
         documented and implemented.                                - Training for team members; and
                                                                    - Procedures for incident handling,
                                                                         including preparation,
                                                                         containment, eradication,
                                                                         recovery and follow-up activities.


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       39
                                                                                                                               Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                       Risk
NFR #                       Condition                                    Recommendation                   New Issue   Repeat Issue
                                                                                                                                      Rating

                                                             •   Approve and implement the incident
                                                                 response capability at the

CG-IT-   Configuration weaknesses over                       •   Develop and implement a                     X                       Medium
06-003   workstations allowed users to modify sensitive          configuration checklist for the anti-
         workstation system and security settings. During        virus server.
         our test work, using a         network user         •   Perform periodic audits of the anti-
         account provided with ordinary privileges, we           virus and workstation security
         were able to successfully:                              settings to ensure appropriate
                                                                 configurations are maintained.
         •   Disable the desktop’s anti-virus;
         •   Change the screen saver setting to remove the
             password-locking feature; and
         •   Increase the time period for the screen saver
             activation significantly.

CG-IT-   Although backup tapes for          and the are      •   Develop and document                        X                       Medium
06-004   created on a regular basis, testing proce               comprehensive backup procedures,
         have not been documented in accordance with             which include testing the        and
                  Instruction.                                        backup tapes on a regular
                                                                 basis, at least annually.
         Additionally, althou                                •   Enforce the tape rotation procedures
         rotated offsite to the                                  to ensure that tape transfer logs are
                       backups have not been included in         completed and perform a weekly
         the tape rotation process to the    . Although          review to ensure that the logs are
         a tape rotation schedule and ta     ation               completed in their entirety before the
         procedures have been documented, the tape               tapes are sent to the
         transfer logs are not being completed in their
                                                             •   Include the        backup tapes in the
         entirety to note the tape numbers and the
                                                                 weekly offsite tape rotation to the
         number of tapes being rotated offsite.
                                                                        Update the tape transfer log to


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    40
                                                                                                                               Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                       Risk
NFR #                        Condition                                     Recommendation                 New Issue   Repeat Issue
                                                                                                                                      Rating
                                                                   include the       backup tapes that
                                                                   will be included in the rotation.
CG-IT-   Although a change control process has been            •   Approve and complete each field           X                       Medium
06-005   established and documented for WINS, the                  related to the SCR within PVCS
         process is not consistently followed. The                 Tracker in accordance with the
         appropriate approvals are not consistently                documented requirements of the
         documented within PVCS Tracker prior to                   Finance Center Staff Instruction
         implementation. Out of a selection of 30                  5232.1C;
         changes, 2 approvals were not documented.             •   Attach appropriate test plans,
         Additionally, evidence of testing, either through         results, and approvals to the SCR
         attached test plans and results or emails were not        forms within PVCS Tracker in
         consistently attached to the selected SCRs within         accordance with Instruction
         Tracker. As a result, evidence of testing for 7 out       5232.1C; and
         of the 30 selected changes were not available.
                                                               •   Document procedures for
                                                                   controlling emergency changes to
         Additionally, although criticality levels for
                                                                   the         application.
         changes have been defined, procedures for making
         emergency changes to          have not been
         developed.

CG-IT-   •              emergency procedures are in place      •   Finalize and implement the                X                       Medium
06-006       for the evacuation of           and its Data          emergency procedures that include
             Center. However, no emergency re-entry                re-entry procedures into the Data
             procedures exist within this directive.               Center.
         •   No policies and procedures are in place to        •   Develop and implement policies
             guide and document the emergency training             and procedures to train Data Center
             of Data Center personnel.                             staff in emergency procedures
         •   Weaknesses exist in the implementation of             pertaining, but not limited to fire,
             least privilege regarding granting access to          water, and alarm procedures.
             the Data Center personnel. Specifically, two          Additionally, formalize this
             out of the fifteen personnel forms selected,          training by retaining documentation
             granted twenty-four hour access to                    that all staff has completed the


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      41
                                                                                                                                 Appendix B

                                                        Department of Homeland Security
                                                    Information Technology Management Letter
                                                               September 30, 2006

                                                                                                                                         Risk
NFR #                         Condition                                     Recommendation                  New Issue   Repeat Issue
                                                                                                                                        Rating
             individuals on the janitorial staff.                   training.
                                                                •   Continue to limit entry to the Data
                                                                    Center, especially after normal
                                                                    business hours, to critical personnel
                                                                    only.

CG-IT-   The passwords for            are not required by       Complete planned corrective actions to                       X         Medium
06-007   the system to be 8 characters in length or contain     replace        with the Coast Guard
         a combination of alphabetic, numeric and/or            Direct Access HRMS 8.9
         special characters. Due to lack of vendor              implementation, which will address
         support, there is uncertainty to the feasibility of    vendor support and password strength.
         implementing stronger password controls.

CG-IT-   A periodic review of Direct Access access lists        •   Perform a periodic review of                             X         Medium
06-008   was not conducted to ensure that users had the             accounts to ensure that users are
         correct access privileges. Additionally, we                currently employed and have the
         determined that an applicant could be entered              correct access to the system,
         and hired by the same individual. The process              specifically to sensitive areas.
         of transitioning an applicant to an employee is in     •   Require that the person who enters
         an audit trail; however this audit trail is not            an applicant’s data is not the person
         reviewed on a regular basis.                               that hires the applicant or have an
                                                                    independent party at        monitor
                                                                    Direct Access audit trails on a
                                                                    regular basis for any irregularity.

CG-IT-   Access authorization requests for         ids did      •   Perform a periodic review of                             X         Medium
06-009   not indicate the roles or menus necessary for the                  accounts to ensure that users
         user to perform job functions; rather access               are employed by the USCG and
         authorizations identified a current user with              have the appropriate access to the
         similar privileges that could be copied to create          system, specifically to sensitive
         the privileges for the new         id.                     areas.
         Additionally, requests for new accounts are            •   Utilize the        access form,

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       42
                                                                                                                                 Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                         Risk
NFR #                        Condition                                      Recommendation                  New Issue   Repeat Issue
                                                                                                                                        Rating
         accomplished via email, and the system                     which indicates the roles and
         administrator did not routinely retain these               responsibilities required for an
         emails prior to January 2006.                              individual’s job function and a
                                                                    supervisor’s approval.

CG-IT-   •   Formal documented procedures are not in            •   Document policies and procedures                         X         Medium
06-010       place over syst          are changes, related to       for requesting, authorizing, testing,
                         an                                         and approving system software
         •   A testing baseline for system software                 changes, including emergency
             changes has not been established and                   changes.
             documented;                                        •   Establish a testing detail baseline
         •   PSC does not formally document and                     that defines the standard
             maintain the following for each system                 components that should be
             software change:                                       documented for software changes,
             - System software change request and                   and communicate and enforce this
                 authorization of the request;                      procedure to implement testing as a
             - Test plan documentation and test results;            component of change
             - Approval for migration of system                     implementation.
                 software changes into production; and          •   Document and maintain test plans,
         •   The audit trail of system software changes is          test results, and approvals for all
             not periodically reviewed.                             system modifications.
                                                                •   Review an audit trail of system
                                                                    software changes to identify
                                                                    unauthorized changes.

CG-IT-   Test plans and test results for        application     •   Document and maintain test plans           X                         High
06-011   changes were not consistently documented and               and test results for application
         maintained. Specifically, 28 out of 30 selected                  es, in accordance with the
         application changes did not have test plans or test             SDLC policy
         results documented. In addition, 11 out of 30          •   Obtain and document appropriate
         changes were not approved by the business                  approvals prior to the
         sponsor (user acceptance approval) and 4 out of 30         implementation of program

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       43
                                                                                                                              Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                      Risk
NFR #                        Condition                                   Recommendation                  New Issue   Repeat Issue
                                                                                                                                     Rating
         changes were not approved by the peer reviewers          changes, in accordance with
         prior to migration into production, as required by       SDLC policy
         the      Systems Development Life Cycle
CG-IT-           passwords are not in           ce with the   •   Strengthen password and account           X                         High
06-012   DHS password policy. The               ystems            configurations in accordance with
         does not enforce the following password rules:           DHS 4300A requirements
         • passwords are to be eight characters in                including:
             length                                                   - Require passwords to be
         • passwords are to include alphabetic,                            eight characters in length
             numeric, and special characters                          - Require passwords to
         • passwords are not be the same as the                            include alphabetic,
             previous eight passwords                                      numeric, and special
                                                                           characters
         We determined that          sessions are not                 - Require that passwords not
         timed out following 20 minutes of inactivity and                  be the same as the previous
         accounts are not disabled following a period of                   eight passwords
         90 days of inactivity.                                       - Terminate sessions
                                                                           following 20 minutes of
         During our testing of         accounts with                       inactivity
         special attributes, we determine                             - Delete inactive accounts
         generic accounts have access to             and                   following 90 days of
                          . Additionally, we determined                    inactivity
         that the                   and                       •   Set         security settings to the
         settings were not enabled. Furthermore, four             most restrictive mode.
         accounts assigned to        personnel had both           Specifically, the following
                     and                 , two of which                         settings should be
         were system programmers.                                 changed:
                                                                      - Change
                                                                           to
                                                                      - Enable
                                                              •   Review access to sensitive
                                                                  privileges to ensure that users


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    44
                                                                                                                           Appendix B

                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2006

                                                                                                                                   Risk
NFR #                       Condition                                  Recommendation                 New Issue   Repeat Issue
                                                                                                                                  Rating
                                                               require the privilege to perform job
                                                               functions.


CG-IT-   Outgoing Personnel forms were not documented      Implement corrective actions to document      X                       Medium
06-013   for two out of nine selected users. These two     and implement policies and procedures
         individuals retained access to the                for use in managing terminations,
         system with read only access.                     including use of the Outgoing Personnel
                                                           form.
CG-IT-   • Excessive access privileges have been           • Review the              database user       X                         High
06-014       granted within the      database.                  listing to de       e which users
         • Password configurations for the                      have a business need to retain
                                                                access to the
            profiles have been configured to permit        • Configure the
            passwords to be a minimum of six                                           and
            characters in length. Additionally, the                            profiles to be in
            password history requirement is the only            compliance with
            password requirement that has been                  Password Policy SOP.
            configured for the               profile.      • Establish detailed procedures for
         • Audit logging has not been enabled within            audit trail generation, review and
            the        application or database.                 management.
         • Documented access request forms could not       • Develop and implement access
            be located for nine out of 22 new                   control procedures for the
            users granted access to the applic                  system and database accounts.
            Additionally, although the automated access    • Develop and implement access
            request forms for the other 13 out of 22 new        control procedures for the
                   users granted access to the                  system and database accounts.
            application were approved, the level of        • Develop and implement access
            access/privileges associated with the new           control procedures for the
            user were not documented on the access              system and database acco
            request form.
         • Individuals who are no longer employed with

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                  45
                                                                                                                               Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                       Risk
NFR #                        Condition                                     Recommendation                 New Issue   Repeat Issue
                                                                                                                                      Rating
                        were found to have active
              accounts within
         • WINS account reviews have not been
              performed on a periodic basis.
CG-IT-   Weaknesses were noted in regard to these              •   Continue with efforts to improve          X                       Medium
06-015              personnel entrance and exit procedures         the implementation of the
         for civilian, contractor and military personnel.          personnel entrance and exit
         Specifically, out of fifteen entrance check-in            procedures and a more formalized
         sheets inspected, thirteen were incomplete or did         chain of command for the
         not exist. Additionally, out of fifteen exit check-       collection of the check-in and
         out sheets inspected, only four were received from        check-out sheets.
         our sample selection, and none of which were          •   Track and monitor the completion
         complete.                                                 of check-in and check-out sheets.
                                                               •   Ensure that personnel indicate
                                                                   which line items on the check-
                                                                   in/check-out sheets are not
                                                                   applicable.
                                                               •   Retain Check-out sheets for up to a
                                                                   year after an employee’s departure.

CG-IT-   •   Password configurations for        have been      •   Configure the        application and      X                         High
06-16        not configured to maintain the password               database to be       mpliance with
             history for each account.                                          Password Policy SOP.
         •   Users are not locked out of their                 •   Configure the        application and
             accounts after three invalid logon attempts.          database to lock users out of their
         •   Policies and procedures for application and           accounts after three failed login
             database audit log management have not                attempts.
             been documented.                                  •   Establish detailed procedures for
         •   Documented access request forms could not             audit trail generation, review and
             be located for three out of nine new                  management.
             users granted access to the application.          •   Develop and implement access


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      46
                                                                                                                                Appendix B

                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2006

                                                                                                                                        Risk
NFR #                       Condition                                    Recommendation                    New Issue   Repeat Issue
                                                                                                                                       Rating
         •         accounts are not immediately disabled         control procedures for the
             upon an employee’s termination.                     system and database accounts.
             Specifically three civilians terminated         •   Develop and implement access
             employment with                                     control procedures for the
         •          has not been configured to track and         system and database accounts.
                    vate accounts that have not been used    •   Configure the system to track and
             in 90 days.                                         lock the accounts of individuals
         •         account reviews have not been                 who have not logged into the
             performed on a periodic basis and results of        system in 90 days.
             the reviews are not maintained.                 •   Develop and implement access
         •   An excessive number of individuals have user        control procedures for the
             administrator capabilities within                   system and database accounts.
                                                             •   Develop                wide segregation
                                                                 of duties policy that provides
                                                                 guidance to personnel regarding
                                                                 incompatible duties.
CG-IT-   •   Password configurations for application and     •   Configure the         application and        X                         High
06-017       database have been configured to permit                          be      mpliance with
             passwords to be a minimum of six                                 Password Policy SOP.
             characters in length.                           •   Upgrade         to ensure that users
         •   Users are not locked out of their                   are locke       of their accounts
             application accounts after three invalid            after three invalid attempts.
             logon attempts.                                 •   Establish detailed procedures for
         •         logging has not been enabled within the       audit trail generation, review and
                  application or database.                       management.
         •   Individuals who are no longer employed          •   Develop and implement access
             with            were found to have active           control procedures for the
             accou          n                                    system and database acco
         •        account reviews have not been              •   Develop and implement
                  rmed on a periodic basis.                      control procedures for th
                                                                 system and database accounts.


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    47
                                                                                                                             Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                     Risk
NFR #                        Condition                                    Recommendation                New Issue   Repeat Issue
                                                                                                                                    Rating
CG-IT-   •   Password configurations for the application       •   Configure the                           X                         High
06-018       and database have been configured to permit           application and             e in
             passwords to be a minimum of six                      compliance wit
             characters in length                                  Password Polic

         •   Policies and procedures for application and       •   Establish detailed procedures for
             database audit log management have not                audit trail generation, review and
             been documented.                                      management.
         •              account reviews have not been          •   Develop and implement a
             performed on a periodic basis.                        control procedures for the
                                                                   system and database acco
CG-IT-   •   Manager Review of System Administration           •   Revise the Manager Review of                          X           High
06-019       Monitor Procedures have been developed that           System Administration Monitor
             guide managers in performing periodic system          Procedures to note how often
             administration monitoring reviews. However,           managers should perform system
             the procedures do not note the periods of             administration monitoring reviews.
             review that are being monitored, who is           •   Continue enforcing
             responsible for performing the reviews and            Instruction 5230.3 – Policy for
             evidence that the manager review was                  System Level Access to
             performed could only be obtained for March            Computer Assets.
             2006. Additionally, although the manager          •   Continue enforcing
             reviews were implemented in March 2006, for           Instruction 5230.3 –           r
             the first half of the fiscal year, October            System Level Access to
             through March,            system administration       Computer Assets to ens
             monitoring was            formed by a manager         accounts of terminated
             or group outside of the three systems                 civilians/contractors/military
             administrators during that time period.               personnel are revoked in a timely
         •   The access request form for one out of four           manner.
             individuals granted access to          since
             October 1, 2005, did not cont
             supervisor’s approval.
         •   The account of a contractor that lef

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     48
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                             Risk
NFR #                         Condition                                      Recommendation                     New Issue   Repeat Issue
                                                                                                                                            Rating
             in October 2005 remained active until May
             2006.



CG-IT-   A           Security Configuration Management           Implement                ctions to                X                       Medium
06-020   Plan does not exist that clearly delineates the roles   implement                Security
         and responsibilities betwee                             Configuration Management Plan that
                             , and the                 is the    includes the role and responsibilities of
         organizatio       er contract by Coast Guard to                   and          Also, the plan should
         manage the         and       software programs.         address both          nd       and their
         Conseque       the System Security Plans for the        associated operating systems and
              and       applications do not include key          databases. Subsequently, the          and
         security control information. Specifically, the               ystem Security Plans should be
         plans do not include information on the current                d to reflect the approved
         security configuration management process,              information in the             Security
         including delineation of responsibilities for all       Configuration Ma               Plan.
         involved parties. The System Security Plans were
         otherwise compliant with current NIST standards.

CG-IT-   Coast Guard Headquarters is in the process of           •   Finalize the development of                   X                       Medium
06-021   developing policy that addresses role-based                 centralized headquarter policies and
         training requirements for individuals with                  procedures for IT role-based
         critical IT positions. However, currently this              training for civilian personnel with
         Training and Education Plan is still in draft form          critical IT positions.
         and no policies and procedures exist that require       •   Deploy the IT role-based training
         critical IT personnel to continue their education           of civilian personnel with critical
         through role-based training.                                IT positions down to the CG
                                                                     component levels for
                                                                     implementation.

CG-IT-   NOAA forgotten widows, member type 1384,                Implement corrective actions to add the           X                         Low


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        49
                                                                                                                          Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                  Risk
NFR #                       Condition                                   Recommendation               New Issue   Repeat Issue
                                                                                                                                 Rating
06-022   are not designed to be excluded from the                                 to the
         actuarial data file created annually to estimate    group in the
         the pension liability for the Coast Guard.                    to                e
         Forgotten widows are the survivors of retired       NOAA Forgotten Widows from the
         personnel who died before any survivor benefit      actuarial data file.
         program was enacted. The program is designed
         to exclude those member types included in the
                      group identified in the
                            which does not contain mber
                       All member types not in the    -
                 group are included in the actuarial
         liability file.

CG-IT-   A security test and evaluation has not been         Complete the Certification and                           X         Medium
06-024   conducted on the        General Support System.     Accreditation package for the
         In addition, the final Certification and            general support system in compliance
         Accreditation package has not been created and      with NIST Special Publication 800-37
         an Authorization to Operate has not been            and DHS Sensitive Systems Policy
         requested or approved for the         General       Directive 4300A, including a Security
         Support System.                                     Assessment Report and a signed
                                                             Authorization to Operate.

CG-IT-   No documentation exists for the change control      •   Develop and implement a change         X                       Medium
06-025   process, including the emergency changes process,       control process for the
         surrounding the             application. Although       application.
         a development server exists for the application,    •   Develop and implement an
                   management indicated that the                 emergency change control process
         application version 6.0.13 was the only version         for the            application.
         implemented for              in 2003 and no
         changes or updates have been made since.

CG-IT-   During technical testing patch management           •   Implement the corrective actions                     X           High


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   50
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                             Risk
NFR #                        Condition                                      Recommendation                      New Issue   Repeat Issue
                                                                                                                                            Rating
06-026   weaknesses were identified on hosts supporting             noted in the finding.
         the             and          applications. Many of     •   Implement polices and procedures to
         these vulnerabilities could allow a remote attacker        ensure that the software builds
         to gain full control of the affected host and could        created by the CG software developer
         lead to the compromise of the                              are tested to ensure that all software
         confidentiality and integrity of             and           security configurations, such as
                data.                                               software patches and non-compliant
                                                                    settings, are up to date.
                                                                •   Continue the process for performing
                                                                    periodic scans of the
                                                                    network environment, including the
                                                                    financial processing environment, for
                                                                    the identification of vulnerabilities, in
                                                                    accordance with NIST SP 800-42.
                                                                •   Implement corrective actions to
                                                                    mitigate the risks associated with any
                                                                    vulnerabilities identified during
                                                                    periodic scans.

CG-IT-   During technical testing configuration                 •   Implement the corrective actions                             X           High
06-027   management weaknesses were identified on hosts             noted in the finding.
         supporting the             and         applications.   •   Implement polices and procedures to
         Specifically, servers were identified with                 ensure that the software builds
         excessive access privileges, and password and              created by the CG software developer
         auditing configuration weaknesses.                         are tested to ensure that all software
                                                                    security configurations, such as
                                                                    software patches and non-compliant
                                                                    settings, are up to date.
                                                                •   Continue performing periodic scans
                                                                    of the           network
                                                                    environment, including the financial
                                                                    processing environment, for the

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       51
                                                                                                                                Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                        Risk
NFR #                        Condition                                    Recommendation                   New Issue   Repeat Issue
                                                                                                                                       Rating
                                                                  identification of vulnerabilities, in
                                                                  accordance with NIST SP 800-42.
                                                              •   Implement corrective actions to
                                                                  mitigate the risks associated with any
                                                                  vulnerabilities identified during
                                                                  periodic scans.

CG-IT-   •   Coast Guard has not completed the process        •   Complete the process of restoring                         X           High
06-028       of filing the records that were recovered and        the background investigation
             recreating of the records that were not found        records of their military and
             during the migration of records from the             civilian personnel that were not
             Department of Transportation to DHS.                 included during the migration of
         •   Civilian background investigations and               records from the Department of
             reinvestigations are not being consistently          Transportation to DHS.
             performed. Specifically, three (3) out of        •   Perform the background
             seven (7) newly hired civilian employees at          investigations for civilian
                        did not have any record of a              employees in accordance with DHS
             background investigation on file.                    directives.
             Additionally, for the re-investigation of        •   Reevaluate and assign the correct
                        employees, four (4) out of five (5)       position sensitivity levels to
             GS employees selected did not have a                 individuals with access to DHS
             current investigation on file.                       information systems in accordance
         •   Position sensitivity level distinctions for          with DHS policy.
             civilian personnel with access to DHS
             information systems at              are not
             accurately depicted. Specifically, of the
             selection of position descriptions received,
             nine (9) out of ten (10) had non-critical
             position sensitivities although their job
             functions were that of IT personnel with
             advanced access to the DHS system.



                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     52
                                                                                                                                Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                        Risk
NFR #                        Condition                                    Recommendation                   New Issue   Repeat Issue
                                                                                                                                       Rating
CG-IT-   Coast Guard has and continues to operate a           •   Immediately implement a single,             X                         High
06-029   separate, informal and largely undocumented              integrated change control process
         change development and implementation                    over Coast Guard Financial
         process effecting Coast Guard Financial                  Systems with appropriate internal
         Systems, outside of and conflicting with the             controls.
         formal change control process. This informal         •   Immediately commence an in depth
         script development and implementation process            examination of the Coast Guard
         began with the implementation of          in June        Financial Systems with an external
         of 2003.            reports that the                     independent organization trained in
         documentation and tracking of the scripts was            financial information systems,
         not developed until June of 2005 but is unable to        process analysis and with a
         provide a complete population of implemented             demonstrated understanding of the
         scripts, to include the type, purpose and intended       federal accounting environment.
         effect on financial data. The implemented
                                                              •   In conjunction with item number two
         process is ineffective as the approval, testing
                                                                  above, begin an in depth examination
         and documentation procedures of the script
                                                                  to determine and document, in detail,
         changes are not appropriately designed and the
                                                                  the effects of the identified root
         current process is ineffective to control the
                                                                  causes and implemented automated
         intended and actual effect on financial data.
                                                                  and manual adjustments on financial
                                                                  data and affected financial statements
                                                                  for prior reporting periods and make
                                                                  appropriate restatements.
CG-IT-   •   A copy of the                         Disaster   •   Periodically test the DRPs and                            X         Medium
06-030       Recovery Plan has been completed. However,                 ngency Plans for the
             the plan has not been tested.                               and          so that the plans
         •   The DRP for the                                      can be adj          correct any
                                        has been completed.       deficiencies identified in testing.
             However, testing of the          DRP has not     •   Obtain a finalized and approved
             taken place. The projected completion date is        MOU with                 nd CG-61
             October 2006.                                        outlining their responsibilities in
         •   The DRP for the General Support System has           getting the       DR site up and
             been completed. However, testing of the              running in a timely manner.

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     53
                                                                                                                                 Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                         Risk
NFR #                        Condition                                     Recommendation                   New Issue   Repeat Issue
                                                                                                                                        Rating
             DRP is scheduled to take place by the end of      •   Obtain a finalized and approved
             the year.                                             contract with the      off-site
         •   A copy of the Memorandum of Understanding             Disaster Recover       lity.
             (MOU) between          and two other CG
             components who the          must rely on for
             various reasons at the off-site facility was
             cited in the Disaster Recovery Plan
         •   A finalized contract with the off-site facility
             was cited in the Disaster Recovery Plan.
             However, we were unable to obtain the
             signature page for it during our audit field
             work.


CG-IT-   During our FY 2006 follow-up testing, we              •   Implement the corrective actions                          X           High
06-031   determined that         had taken corrective action       noted in the finding.
         on several of the previously noted vulnerabilities,   •   Institute a formal process for
         however several remained. The remaining                   performing periodic scans of the
         vulnerabilities are in the following four areas:          network environment, for the
                                                                   identification of vulnerabilities, in
         •   Account management - 2 high-risk                      accordance with the DHS IT Security
             vulnerabilities and 4 medium-risk                     Program Handbook for MD4300A
             vulnerabilities                                       and NIST SP 800-42.
         •   Configuration management – 2 medium-risk          •   Implement corrective actions to
             vulnerabilities                                       mitigate the risks associated with any
         •   Patch management – 3 high-risk                        vulnerabilities identified during
             vulnerabilities                                       periodic scans.

CG-IT-   During our FY 2006 testing, we determined that        •    Implement the corrective actions                         X           High
06-032   none of the      prior year vulnerabilities were           noted in the tables above.
         corrected. As a result, the vulnerabilities present   •   Institute a formal process for
         in FY 2006 are in the following four areas:

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      54
                                                                                                                               Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                       Risk
NFR #                        Condition                                   Recommendation                   New Issue   Repeat Issue
                                                                                                                                      Rating
                                                                 performing periodic scans of the
         •   Audit management – 2 medium risk                    network environment, for the
             vulnerabilities                                     identification of vulnerabilities, in
         •   Configuration management – 3 high, 6                accordance with DHS IT Security
             medium and 11 low risk vulnerabilities              Program Handbook for MD4300A
                                                                 and NIST SP 800-42.
         •   Password management – 1 high and 5 medium
             risk vulnerabilities                            •   Implement corrective actions to
                                                                 mitigate the risks associated with any
         •   Patch management- 11 high, 12 medium and
                                                                 vulnerabilities identified during
             12 low risk vulnerabilities
                                                                 periodic scans

CG-IT-             contracts the maintenance of their        •   Continue to communicate with                X                       Medium
06-033   information systems software and hardware for           Coast Guard Headquarters in order
         the Superdome supercomputer, which houses               to convey the importance of a
         the four production databases including the             timely renewal of the maintenance
         production database, to Hewlett Packard (HP)            contract.
         through two separate service agreements. One of     •   Maintain a continuous service
         the service contracts is valid until 2007 for a         contract for the hardware and
         segment of their computer software and                  software with the current vendor by
         hardware. However, the second portion of                anticipating delays in contract
                     Superdome equipment is covered              renewal and submitting requests for
         under a maintenance contract that expired on            procurement in a timely manner.
         May 31, 2006.             has requested a renewal
         of this contract however the request is still
         pending and there is no other contractual
         agreement to cover the maintenance of their
         software and hardware during this lapse in
         service contracts.

CG-IT-   •             does not perform background           •   Implement policies and procedures                         X           High
06-034       investigations or verify that background            to ensure compliance with the new
             investigations have been performed for              DHS policies for the background


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    55
                                                                                                                                 Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                         Risk
NFR #                        Condition                                      Recommendation                  New Issue   Repeat Issue
                                                                                                                                        Rating
             contractors working at             especially          investigations of contracting
             those with sensitive IT positions. Specifically,       personnel.
                       employs 150 contractors; however,        •   Develop risk levels for contractor
             We were unable to obtain the status of a               positions with access to DHS
             background investigation on any of them.               information systems in accordance
         •   No risk levels for contractor personnel with           with DHS policy.
             access to DHS information systems at
                       exist. Contracting personnel with IT
             job functions which require advanced access
             to the DHS system are not categorized at a
             higher risk level then an individual who uses
             the system with basic privileges.

CG-IT-   The Memorandum of Understanding (MOU)                  Complete planned corrective actions to         X                         Low
06-035   developed between Coast Guard              and         finalize and obtain all approvals for the
         Treasury Financial Management Service addresses        MOU and ISA between                and
         the development, management, operation, and            Treasury-FMS Financial Management
         security of a connection between systems owned         Service.
         by both parties. The previous agreement expired in
         April of 2006 and a current MOU between
                   and Treasury has not been completed.
CG-IT-   • Seven developers out of 15 personnel in the          •   Remove analyst access to the               X                       Medium
06-036       Business Services Section had inappropriate            development environment.
             access to                           function       •   Continue to ensure that developers
             in the Production and Development                      have limited access (select or read
             environments allowing them to potentially              only) to the production environment.
             circumvent the change control process at
                        from October 1, 2005 through
             August 10, 2006.
         • We further note that 5 out of 15 personnel in
             the Business Services Section had
             inappropriate access to functions containing

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       56
                                                                                                                             Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                     Risk
NFR #                       Condition                                     Recommendation                New Issue   Repeat Issue
                                                                                                                                    Rating
             elevated privileges in the Production and
             Development environments allowing them
             to update production and potentially
             circumvent the change control process at




CG-IT-   The following password configuration weaknesses      •   Modify the          pplication           X                         High
06-037   associated with the                                      password configurations to be
               ) application:                                     compliant with DHS and Coast
                                                                  Guard policy.
         •   Passwords were not configured to require         •   Configure the        application to
             password changes every 90 days from                  terminate idle sessions after a
             October 1, 2005 to February 14, 2006.                specified period of inactivity as
         •   Passwords were not configured to require             defined in DHS and Coast Guard
             minimum length of six instead of eight.              policy.
         •   Passwords were not configured to maintain a
             history of six passwords.
         •   Passwords were not configured to require a
             combination of alphabetic, numeric, and
             special characters.
         •   Passwords were not configured to restrict
             dictionary words including dictionary words
             spelled backwards.
         •   Passwords were not configured to restrict
             simple pattern passwords; such as “qwerty” or
             “xyz123”.
         •   Passwords were not configured to check that
             two identical characters in any position exist
             from the previous password.


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     57
                                                                                                                                  Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                          Risk
NFR #                         Condition                                     Recommendation                   New Issue   Repeat Issue
                                                                                                                                         Rating
         Additionally, we identified that the
         application is configured to terminate idle sessions
         after 30 minutes of inactivity instead of 20
         minutes.

CG-IT-   The following segregation of duties weaknesses         •   Monitor the         user and DBA            X                         High
06-038   associated with the     application.                       actions as well as develop and
                                                                    implement procedures to
         Application Audit Trails/Monitoring                        periodically perform reviews of
         • The         application does not have the                      user actions.
            capacity to maintain audit trails for               •   Develop and implement procedures
            management review.                                      to periodically perform reviews of
                                                                    the       DBA’s actions.
         Incompatible Duties                                    •   Perform a review of accounts with
         •    There is only one individual performing all           DBA privileges to determine that
                     DBA duties. The lone           DBA             access is granted based on the
              actions are not reviewed for                          principle of least privilege.
              appropriateness, including changes to data
              and/or security profiles.
         • Users in the “                    ” group have
              privilege to insert data at the database level.
         • There are 17 accounts associated with the
              DBA role in Oracle.
CG-IT-   There are no documented policies and procedures        Develop policies and procedures around          X                       Medium
06-039   on the calculation of the environmental liability      calculation of the environmental liability
         reported on the DHS Consolidated balance sheet.        using data stored in the     application.
         The environmental liability is adjusted quarterly
         based on the data stored in the         application.
CG-IT-   We identified the following account management         •   Develop and implement procedures            X                         High
06-040   weaknesses associated with the SAM application.            to periodically perform reviews of
                                                                    inactive       application accounts.
         Inactive Accounts                                      •   Develop and implement procedures

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       58
                                                                                                                               Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                       Risk
NFR #                        Condition                                    Recommendation                  New Issue   Repeat Issue
                                                                                                                                      Rating
         •  A planned monthly review of inactive                  requiring documented authorization
            application user accounts has not been                for access to the        application.
            implemented.                                      •   Develop and implement procedures
         • There are 315 active accounts that have not            to periodically perform reviews of
            logged into the        application for 90 days.              application accounts.
         Access Authorizations                                •   Develop and implement procedures
         • Access authorization documentation was not             to periodically perform reviews of
            made available for 17 out of 60 selected new          failed logon attempts to the
                   application users.                             application.
         Logical/Physical Access Reviews                      •   Develop and implement centralized
         • The          application accounts are not              process for tracking terminations of
            recertified annually to validate that the             all Coast Guard personnel, including
            accounts belong to appropriate personnel.             military, civilian, and contractor
         • Management is not reviewing failed logon               personnel, and implement a process
            attempts to the        application.                   to ensure that access to        is
         Termination Procedures                                   removed for all terminated personnel
                                                                  in a timely manner.
         • Five separated civilian personnel had active
            accounts in the        application.
         • Nine separated military personnel had active
            accounts in the        application.
         • Coast Guard does not maintain a centralized
            listing of separated contractors.

CG-IT-   System change request to modify transaction          The system change request to                                 X         Medium
06-041   code         o automatically reestablish the         automatically reestablish the funds as
         funds as obligated was implemented in March          obligated when transaction code
         2006 within the      3.2 build. Currently, the       is used was implemented in March
         automated process appeared to be operating           2006 and therefore has no further
         effectively. However, from October 2005              recommendations to provide.
         through March 2006, no mitigating controls
         such as procedures for training of staff and/or      For recommendations for all other


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     59
                                                                                                                             Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                     Risk
NFR #                        Condition                                   Recommendation                 New Issue   Repeat Issue
                                                                                                                                    Rating
         manual reviews were established to determine        transaction codes, refer to NFR CG IT-
         whether or not the re-obligation should be          06-029.
         established to the associated UDO balance.

         Additionally,            management indicated
         that transaction code      should not be
         automatically reestablishing the funds in the
         system. However, as we could not perform a
         complete analysis of the        posting logic in
         FY 2006 as noted in NFR CG IT-06-029,
         transaction code       as well as other codes,
         may still contain errors as of September 30,
         2006.

CG-IT-             had not developed formal change           Complete planned corrective actions to        X                       Medium
06-042   control procedures documenting the                  document policies and procedures for
         requirements for altering the criteria used in      requesting, authorizing, testing, and
                     to match transactions. Functional       approving functional changes to
         changes are required when initially establishing
         a matching process or when the accounting
         operations team identifies that transactions that
         should be matching are not correctly matching
         in the system.

CG-IT-   Policies and procedures surrou        he change     •   Develop and implement additional          X                       Medium
06-043   control process for Coast Guard        needs            change control policies and
         improvement. Specifically, no policies and              procedures to include the testing of
         procedures exist for:                                   changes in a pre-production
         • the testing/verification the functionality of         instance and obtain final approvals
             the change in pre-production before the             from           management on all
             change is implemented in production                 changes before implementation in
         • the final approval of the change by                   production.


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    60
                                                                                                                              Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                      Risk
NFR #                        Condition                                   Recommendation                  New Issue   Repeat Issue
                                                                                                                                     Rating
             management                                       •   Develop and implement a formalize
                                                                  process for the retention of
         Additionally, change control test results, as well       documentation throughout the
         as approvals, are not consistently documented.           change control process.
         Specifically, documentation for the two formula
         changes requested, did not include evidence of
         testing in a pre-production instance and the final
         approvals of the changes when they are
         implemented in production. Furthermore, of the
         five remained changes selected, we were unable
         to obtain documentation of final of final
         approvals for each of the five sample items
         approvals for five out of the five items.

CG-IT-   Policies and procedures for the overall change       •   Formally document and better              X                         High
06-044   control process surrounding        and                   define the change control and the
         changes and emergency changes are inadequate.            emergency change control process
         Specifically, the policies and procedures do not         for both       and        This
         fully include guidance for the roles and                 documentation should include the
         responsibilities           possesses in the change       different roles and responsibilities
         control process. Additionally, they do not               that CG-           and CG’s support
         include detailed requirements and guidance on            contractor have in the change
         requesting changes, initial approvals,                   control process for the
         testing, final approvals and documentation               product suite.
         retention requirements for changes made to the       •   Develop and implement policies
         system.                                                  and procedures to specifically
                                                                  address initial approvals of the
                                                                  changes proposed by CG’s support
                                                                  contractor, including technical
                                                                  changes, testing involved and final
                                                                  approval of all changes to the
                                                                  system.


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    61
                                                                                                                            Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                    Risk
NFR #                        Condition                                 Recommendation                  New Issue   Repeat Issue
                                                                                                                                   Rating
                                                            •   In the testing phases of the change
                                                                control process, retain
                                                                documentation about the
                                                                discrepancies found in            s
                                                                results versus the test plans and
                                                                results from their support
                                                                contractor.
                                                            •   Develop and implement a formalize
                                                                process for the retention of
                                                                documentation throughout the
                                                                change control process for
                                                                and
CG-IT-   As a result of our audit test work and supported   •   Continue to develop, implement                          X           High
06-045   by all the IT NFRs issued during the current           and monitor compliance with DHS,
         year, we determined that Coast Guard is non-           Coast Guard and Federal security
         compliant with the following laws and                  policies and procedures in the areas
         regulations:                                           of:
                                                                - Access Controls
         •   Federal Information Security Management            - Change Controls
             Act of 2002 (FISMA)                                - System Software
         •   Federal Financial Management Improvement           - Segregation of Duties
             Act (FFMIA)                                        - Entity-wide Security Planning
         •   Office of Management and Budget (OMB)              - Service Continuity
             Circular A-130
                                                            •   Develop and implement corrective
                                                                action plans to remediate the NFRs
                                                                issued during the FY 2006 audit.
                                                                These corrective action plans
                                                                should be developed from the
                                                                perspective of the identified root
                                                                cause of the weakness.


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                  62
                                                                                                          Appendix B

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

                                                                                                                  Risk
NFR #            Condition                            Recommendation             New Issue       Repeat Issue
                                                                                                                 Rating




        Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                 63
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                 Department of Homeland Security
                  FY2006 Information Technology
      Notification of Findings and Recommendations - Detail


                 Federal Emergency Management Agency




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         64
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                Department of Homeland Security
                                                 FY2006 Information Technology
                                     Notification of Findings and Recommendations - Detail

                                        Federal Emergency Management Agency (FEMA)

                                                                                                                                              Risk
NFR #                     Condition                                      Recommendation                         New Issue   Repeat Issue
                                                                                                                                             Rating
FEMA-    During our technical testing, patch             FEMA should implement the corrective actions                            X
IT-06-   management weaknesses were identified on        listed in the NFR for each technical control
  01             servers. Specifically, as a result of   weakness identified.
                                                                                                                                             High
         missing patches, the          servers were
         vulnerable to buffer overflow
         vulnerabilities.
FEMA-    During our technical testing, configuration     FEMA should implement the corrective actions                            X
IT-06-   management weaknesses were identified on        listed in the NFR for each technical control
  02                       and key support servers.      weakness identified.
                                                                                                                                             High
         Specifically, servers were identified with
         password and auditing configuration
         weaknesses, and version weaknesses.
FEMA-    There are no procedures are in place to         Develop and implement procedures regarding                              X
IT-06-   periodically review         user access lists   periodic review of access lists. The policy should
  03     to determine if acc          l needed,          require that a master listing of all employees and
         including the development of a master           contractors is collaboratively developed and
         listing of all employees and contractors        maintained by FSB in order to periodically                                          High
         developed and maintained by FSB.                determine whether logical user access to          is
                                                         valid, consistent with job responsibilities, and
                                                         according to the least privilege principle.

FEMA-    The         production and test servers are     FEMA, upon implementation of the                                        X
IT-06-   located in very close proximity of each         Data Center’s “real-time” back-up facility, create
                                                                                                                                            Medium
  04     other, which is not conducive to effective      redundant servers at the               Data Center
         contingency planning efforts. We note that      for the two       servers located at


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       65
                                                                                                                                      Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                               Risk
NFR #                     Condition                                       Recommendation                         New Issue   Repeat Issue
                                                                                                                                              Rating
         upon the implementation of the
                 Data Center’s “real-time” back-up
         facility, both th         est and production
         servers will be redundant, alleviating the
         current condition. However, the Denton
         back-up facility does not currently have that
         capability in place.

FEMA-    •   The                  did not provide         •   Document the results of the                   by                    X
IT-06-       adequate documentation of the results            providing a detailed listing for the
  05         to the accrediting authority. The                vulnerabilities and/or corrective action for the
                     included thorough testing of             vulnerabilities in the ATO as well as
             managerial, operational and technical            documenting them in an individual manner in
             controls and identified 88                       the POA&M when the system is re-certified
             vulnerabilities; however, the                    and accredited in 2007.
             vulnerabilities listed in the ST&E report    •   Document the results of the ST&Es performed
             were only identified as one POA&M                on                                      after
             weakness in the           POA&M                  performing technical testing, and provide
         •   Of the 10 systems deemed critical for            results for the technical testing performed over
             which the C&A process was completed,             the baseline security requirements in                                           High
             we noted that the following four                 accordance with NIST 800-37 and IT Security
             systems did not include any                      Program Handbook for MD4300A Sensitive
             documentation of                results in       Systems.
             the ATO package:                             •   Re-perform the C&A process for              due
                                                              to the major changes the system has undergone
         •   FEMA has completed a majority of the             using NIST 800-37 and IT Security Program
                     migration from Microsoft                 Handbook for MD4300A Sensitive Systems.
             Windows 2000 Professional to
             except for a few aspects of the
             migration dealing with Individual
             Assistance and various regional sites.
             We noted that these major changes to


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       66
                                                                                                                                        Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                                 Risk
NFR #                     Condition                                         Recommendation                         New Issue   Repeat Issue
                                                                                                                                                Rating
              the system warrant that the
              C&A process be re-performed.
FEMA-    There is not formal, documented procedures        Develop and implement procedures to require                              X
IT-06-   are in place to require updates to the            updates to         documentation as functions are
                                                                                                                                                 Low
  06     system documentation as             functions     added, deleted, or modified.
         are added, deleted, or modified.
FEMA-    • FEMA did not adequately document                •   Perform a full test of the        Contingency                        X
IT-06-        testing of the Contingency Plan for              Plan when th                    Data Center is
  07                    Although a table-top test of the       prepared to be the functional alternate site for
                      Contingency Plan was                                    As part of this contingency plan
              completed on February 10, 2006, the              test, FEMA should include the IT components
                      table top test did not adequately        in order to assess if they will operate as
              test the IT components of the                    planned. Additionally, testing of the
              system/processes.                                Contingency Plan should be performe
         • FEMA does not have an accurate                      annually.
              Contingency Plan for              The        •   Update the            Contingency Plan and then                                  High
              most recent version of the                       perform an adequate test of the plan in
              Contingency Plan is dated July 19,               compliance with DHS 4300A and NIST 800-
              2004. However, since that time, FEMA             34, once the           migration is complete.
              has nearly completed its migration of
                        from Microsoft Windows 2000
              Professional to the         operating
              system and is adding a Small Business
              Administration web interface.

FEMA-    The FEMA COOP has prioritized each of             Update the FEMA COOP to clearly state and                                X
IT-06-   its 12 critical Information Technology (IT)       prioritize the listing of 12 critical IT systems that
  08     systems according to criticality of the           would be brought back online at various alternate
         systems; however, the FEMA COOP has               processing sites in the event of a disaster.                                        Medium
         not been updated to take into account the
         new listing of FEMA critical IT systems.
         We confirmed with the Office of Cyber


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                         67
                                                                                                                                       Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                                Risk
NFR #                     Condition                                       Recommendation                          New Issue   Repeat Issue
                                                                                                                                               Rating
         Security (OCS) and ONSC that the updated
         listing of FEMA mission critical IT systems
         should be represented in the FEMA COOP.
FEMA-    •             users are not locked out of the    •   Complete a review over all                                           X
  IT-         system after three invalid logon                settings for Microsoft Windows 2000 users
 NFR-         attempts. In addition, we determined            and ensure that all                   settings
 06-09        that upon locking a user account out of         are properly applied to those users, including
              the system after three invalid logon            disabling the user’s ability to change the
              attempts at the domain level, the user          inactivity threshold of the password protected
              account becomes unlocked and active             screensaver.
              again after fifteen (15) minutes of         •   Ensure that FEMA users locked out of the
              inactivity.                                     system at a domain level must have the system
         •                        settings on machines        administrator unlock and reset passwords for                                    Medium
              running Microsoft Windows 2000                  users, per Department of Homeland Security
              Professional disabled the user’s ability        (DHS) Information Technology Security
              to disable the password protected               Program Publication, 4300A.
              screensaver; however the
                          settings did not disable the
                        lity to change the inactivity
              threshold greater than the FEMA
              standard of fiftee            . This
              weakness impact
FEMA-                        settings on machines         Complete a review over all                                               X
IT-06-   running Microsoft Windows 2000                   settings for Microsoft Windows 2000 users and
  10     Professional prevented the user’s ability to     ensure that all                   settings are
         disable the password protected screensaver;      properly applied to those users, including disabling
         however the                       settings did   the user’s ability to change the inactivity threshold
                                                                                                                                              Medium
         not prevent the user’s ability to change the     of the password protected screensaver.
         inactivity threshold. The implementation of
         a password protected screensaver as a
         mitigating control for lacking a second form
         of authentication is not sufficient if users


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        68
                                                                                                                                    Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                             Risk
NFR #                    Condition                                       Recommendation                          New Issue   Repeat Issue
                                                                                                                                            Rating
         have the ability to change the inactivity
         threshold greater than the FEMA standard
         of fifteen minutes. This weakness impacts

FEMA-    •   Password configurations for the             •   Configure the          application to require a        X
IT-06-       application have been configured to             password to be a minimum of eight
  11         permit passwords to be a minimum of             characters in length to be in compliance with
             six characters in length which is not in        DHS Information Technology Security
             compliance with Department of                   Program Publication, 4300A Password
             Homeland Security (DHS) Information             Policy.
             Technology Security Program                 •   Ensure that          user access is only
             Publication, 4300A.                             granted upon completion of FEMA Form
         •   Access authorizations for         are not       20-24,         User Access Control Form,                                        High
             consistently documented and                     and evidence of supervisory authorization.
             maintained on file. We noted that               In addition, the access request forms should
             FEMA Form 20-24, User Access                    be retained for at least one year.
             Control Form, was not completed for
             three (3) out of a sample of twenty-five
             (25) new user access request forms for


FEMA-    No policies or procedures exist to              Develop and implement procedures regarding                 X
IT-06-   periodically review            access           periodic review of           access lists. The policy
  12     listings to determine if access is still        should require that a master listing of all
         required or if access levels commensurate       users is periodically reviewed to determine
         with users’ job responsibilities. We noted      whether logical user access to            is valid,
         that          user access lists have not        consistent with job responsibilities, and according                                Medium
         been reviewed to determine if access is         to the least            rinciple. Additionally, a
         still required or if access levels              review of al           user accounts should be
         commensurate with users’ job                    performed at least annually.
         responsibilities.



                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       69
                                                                                                                                   Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                            Risk
NFR #                    Condition                                      Recommendation                        New Issue   Repeat Issue
                                                                                                                                           Rating
FEMA-    Twenty-nine (29) terminated or separated       •   Complete a review over all existing FEMA                           X
IT-06-   FEMA employees and contractors maintain            application users’ access to ensure that access
  13     active         user accounts. Additionally,        to each respective application is warranted.
         we noted that two (2) terminated or            •   Per FEMA Instruction 1540.3, perform a
         separated FEMA employees maintain active           review of authorized accounts on a semi-
                  user accounts. The implementation         annual basis and remove terminated
         of FEMA Instruction 1540.3 as a form of            employees’ access to all FEMA systems.                                         High
         access controls review is not sufficient
         because FEMA is only performing reviews
         over current year terminations and
         separations, and has not performed reviews
         over legacy users to ensure that all users
         have valid access.

FEMA-             software request forms were not       Enforce the requirement for written email approval       X
IT-06-   consistently approved by supervisors. We       by a supervisor for all       software requests to
  14     noted that FEMA Software Tracking Form,        comply with FEMA P            rocedures for
         did not have supervisor approval prior to      Removal and Return of Storage Media from and to
         receiving software for eight (8) out of a      the Library.
         sample of fifteen (15)           software
         request tickets, which is not in compliance                                                                                       High
         with the FEMA Policy – Procedures for
         Removal and Return of Storage Media from
         and to the Library, as well as DHS
         Information Technology Security Program
         Publication, 4300A.

FEMA-    •           s and withdrawals of         and   •   Develop and implement procedures to                  X
IT-06-                backup tapes are not authorized       authorize and log the withdrawal of         and
  15         or logged.                                              backup tapes. The policy should                                       High
         •            and         backup tapes are          require that a documented backup inventory
             not rotated to an offsite location.            for        and         is maintained, a log for


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     70
                                                                                                                                 Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                          Risk
NFR #                     Condition                                     Recommendation                        New Issue   Repeat Issue
                                                                                                                                         Rating
                                                            the deposit and withdrawal of         and
                                                                    backup tapes, and documented
                                                            procedures for the delivery and pickup of
                                                                   and          backup tapes.
                                                        •   Upon implementation of the
                                                                                                Data
                                                            Center’s “real-time” back-up facility, create
                                                            redundant servers at the        Data Center for
                                                            the        and          servers located at


FEMA-    FEMA Policy - Sanitization and Release of      Ensure that FEMA Policy - Sanitization and               X
IT-06-   Electronic Storage Media has not been          Release of Electronic Storage Media is finalized,
  16     finalized or implemented and is currently in   and promulgated to necessary FEMA personnel.                                     Medium
         draft form.

FEMA-    No formally documented configuration           Develop and implement formal policies and                X
IT-06-   management plan is in place for                procedures over the      configuration
  17     FEMA has informal configuration                management process modeled after the informal
         management procedures for                      configuration management process currently in                                     High
         however they have not been formally            place.
         documented.

FEMA-    •   A documented configuration                 •   Finalize the formal policies and procedures          X
IT-06-       management plan is in place for                over the          configuration management
  18                 ; however, it is currently in          process to be in compliance with DHS
             draft form. We noted that the plan             Information Technology Security Program
             has multiple sections where input              Publication, 4300A.                                                           High
             from FEMA personnel is requested           •   Develop and implement formal policies and
             by the Contractor who created the              procedures for restricting access to
             plan, however, FEMA has not                    system software, and promulgate it to all
             responded back to these requests.              needed personnel, to be in compliance with

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     71
                                                                                                                                 Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                          Risk
NFR #                     Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                         Rating
             Additionally, the                                DHS Information Technology Security
             configuration management plan was                Program Publication, 4300A.
             created in 1998 and needs to be              •   Develop and implement formal          patch
             updated to reflect the current                   management policies and procedures in
             environment.                                     accordance with DHS Information Technology
         •   No documented policies and                       Security Program Publication, 4300A.
             procedures are in place for restricting
             access to system software.
         •   No documented             Patch
             Management Policy has been
             documented.

FEMA-    No formally documented policies and              Develop and implement formal policies and              X
IT-06-   procedures are in place for restricting access   procedures for restricting access to      system
  19     to       system software                         software, and promulgate it to all needed
                                                          personnel, to be in compliance with DHS                                        Medium
                                                          Information Technology Security Program
                                                          Publication, 4300A.

FEMA-            application                              Limit the Contractors access to the                    X
IT-06-   programmers/configuration management             production environment to “read only” and
  20     group responsible for maintaining and            segregating the responsibility for deploying
         developing changes for          are also         application code changes into production from the
         responsible for migrating application code       Contractor to an independent control group.
         changes into the production environment.                                                                                         High
         We noted t           ntractor us
         username,             within the
         Unix envir           deploy app
         code changes into the         production
         environment.
FEMA-    No formal investigation procedures are in        Develop and implement formal policies and              X
                                                                                                                                         Medium
IT-06-   place to review suspicious system                procedures to review suspicious system software


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       72
                                                                                                                                Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                         Risk
NFR #                     Condition                                    Recommendation                        New Issue   Repeat Issue
                                                                                                                                        Rating
  21     software activities or suspicious access      and access activities for       o be in compliance
         activities for                                with DHS Information            gy Security
                                                       Program Publication, 4300A.

FEMA-    •   No documented policies and                •   Develop and implement formal policies and            X
IT-06-       procedures exist to monitor sensitive         procedures to monitor sensitive access and
  22         ac           ystem software utilities         system software utilities fo         to be in
             fo                                            compliance with DHS Information
         •   No formal investigation procedures            Technology Security Program Publication,
             are in place to review suspicious             4300A.
             system software activities or             •   Develop and implement formal investigation                                   Medium
             suspicious access activities for              policies and procedures to review suspicious
                                                           system software and access activities for
                                                                    to be in compliance with DHS
                                                           Information Technology Security Program
                                                           Publication, 4300A.

FEMA-    No documented SDLC has been                   Develop, implement and establish a documented            X
IT-06-   developed for                                 SDLC methodology for            as well as
  23                                                   incorporating security planning throughout the life
                                                       cycle. Furthermore, ensure that the SDLC
                                                       methodology is promulgated to all personnel                                       High
                                                       involved in the design, development, and
                                                       implementation process on the SDLC
                                                       methodology.

FEMA-    No document             has been              Develop, implement and           h a documented          X
IT-06-   developed fo                                  SDLC methodology for             as well as
  24                                                   incorporating security planning throughout the life
                                                                                                                                         High
                                                       cycle. Furthermore, ensure that the SDLC
                                                       methodology is promulgated to all personnel
                                                       involved in the design, development, and


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     73
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                            Risk
NFR #                     Condition                                       Recommendation                        New Issue   Repeat Issue
                                                                                                                                           Rating
                                                          implementation process on the SDLC
                                                          methodology.

FEMA-                                                     Develop and implement detailed emergency exit            X
         Emergency exit and re-entry procedures are
IT-06-                                                    and re-entry procedures for the            data
         not effective for the data center housing the
  25                                                      center housing the                      production
                              production and test
                                                          and test servers which accurately portrays the
         servers. The current procedures do not
                                                          controls around re-entry into the data center. Once
         provide detailed information regarding the                                                                                        Medium
                                                          these procedures have been developed they must
         exact procedures needed to re-enter the data
                                                          be promulgated to all            data center
         center after leaving the facility for an
                                                          operators as well as displayed throughout the data
         emergency.
                                                          center.

FEMA-    Excessive access has been granted to             •   Ensure that the         system administrator         X
IT-06-                  . We identified one member            privileges remain restricted to only the
  26     of Group 0001 who does not have a real               minimum number of users necessary to
         business need to have access to this                 achieve the principle of least privilege.
         function. We informed the Financial              •   Develop procedures to perform routine
         Services Branch (FSB) of the excessive               monitoring         ystem administrator
                      access and noted that FSB               accounts in                                                                  Medium
         removed the user with excessive access.
         We noted that corrective action has been
         taken and completed in the current fiscal
         year; however, this issue posed a risk for a
         majority of the fiscal year and therefore will
         be reported as a weakness for FY 2006.

FEMA-    Twenty-one (21) users in Group 0002 and          •   Implement a solution to limit the excessive
IT-06-   eight (8) users in Group 0003 have the               access to the online         account mapping
  27     ability to gain access to the account                functions and the ability to make offline                                     High
         mapping functions and make changes to the            changes to the general ledger account tables.
         account tables. Of the 21 users in Group             Access rights should be periodically


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       74
                                                                                                                                  Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                           Risk
NFR #                     Condition                                       Recommendation                       New Issue   Repeat Issue
                                                                                                                                          Rating
         0002, nine (9) users do not have a real              reevaluated and limited to people who have a
         business need to have access to this                 business need.
         function. The 9 users that         o have        •   Develop procedures to perform routine
         excessive access consist of                          monitoring over access to the online
         developers or others with system                     account mapping functions and gene           r
         administrative access. Additionally, of the          account tables.
         8 users in Group 0003, six (6) users do not
         have a real business need to have access to
         this function.

         Additionally, excessive access is designed
         to be permitted within         to make
         offline changes to the general ledger
         account tables via the

                                               ntified
                           he          group that have
         the ability to make          hanges to the
         general ledger account tables. Of the five
         users, four (4) users do not have a real
         business need to have access to this
         function.

FEMA-               user access request forms were        Ensure             Enterprise System Access             X
IT-06-   not consi              leted prior to granting   Request forms are only provided to the Department
  28     access to              Specifically, two (2)     of Treasury for granting access upon completion of
         out of a sample of thirteen (13) did not have    the access request form with evidence of                                         Low
         a supervisor’s approval.                         supervisory authorization.


FEMA-    •   An applicant’s homeowner’s                   •   Ensure that applicant’s homeowner’s                 X
IT-06-       insurance status is not verified prior to        insurance status is verified by developing and                              High
  29

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       75
                                                                                                                                       Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                                Risk
NFR #                     Condition                                        Recommendation                           New Issue   Repeat Issue
                                                                                                                                               Rating
             granting disaster housing assistance.             implementing procedures to establish a
         •   The automated home ownership                      centralized database to verify applicant’s
             verification check within           failed        homeowner’s insurance status.
             by (a) misidentifying a renter as a           •   In conjunction with a contractor, develop and
             homeowner and (b) failing to verify               implement a reliable method of obtaining
             home ownership status for a valid                 accurate and up to date home ownership
             homeowner.                                        information.

FEMA-    •   Visitor logs a                ned to the      •   Develops policies and procedures requiring all          X
IT-06-       LAN room at                    LAN Data           visitors to sign in and out on the visitors log
  30         Center in                                         when entering and leaving the computer/server
         •   One separated CSC personnel retained              room.
             physical access to the Lanham facility;           Maintains visitor logs for the LAN
             however, this individual did not have                            LAN Data Center in
             access privileges to the LAN room.
         •   Management does not periodically              •   Develops and implements policies to inform                                       Low
             review physical access listings to                the physical security personnel of separated
             determine if access is still required or if       individuals with access to NFIP facilities.
             access levels are commensurate with           •   Develops and implements policies to
             users’ job responsibilities.                      periodically review physical access listings to
                                                               determine if access is still required or if access
                                                               levels are commensurate with users’ job
                                                               responsibilities.

FEMA-    •   The            application does not           •   Implements a separate password                          X
IT-06-       require password authentication                   authentication for the        application
  31         separate from an initial Local Area               with password parameters that are in
             Network (LAN) password                            compliance with DHS Information                                                 High
             authentication to identify and                    Technology Security Program Publication,
             authenticate user access.                         4300A.
         •   No audit trails documenting user              •   Develops and implements policies and


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                         76
                                                                                                                                      Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                               Risk
NFR #                     Condition                                        Recommendation                          New Issue   Repeat Issue
                                                                                                                                              Rating
             actions or actual or attempted access are         procedures to monitor or review sensitive
             maintained or reviewed.                           activity, such as transaction activities, changes
         •   The           application does not                to security profiles, and actual or attempted
             timeout after a period of inactivity.             access.
         •   Password protected screensavers are not       •   Implements a session termination after the
             operating on all NFIP desktops.                   DHS required period of inactivity.
         •   Information owners do not periodically        •   Requires and enforces that all workstations use
             review access authorization listings to           a password protected screensaver that is
             determine if access is still required or if       activated after the DHS required period of
             access levels commensurate with users’            inactivity.
             job responsibilities.
         •            does not disable accounts after      •   Develops and implements policies and
                       f inactivity, such as 90 days.          procedures regarding periodic review of
                                                                         access lists in order to determine
                                                               whether logical            ess is valid.
                                                           •   Configures the             application to disable
                                                               inactive accoun             rdance with DHS
                                                               4300A.
FEMA-    •   Information owners do not periodically        •   Develops and implements policies and                   X
IT-06-       review access authorization listings to           procedures regarding periodic review of
  32         determine if access is still required or if       application access lists in order to determine
             access levels commensurate with users’            whether logical user access is valid, consistent
             job responsibilities.                             with job responsibilities, and in accordance
         •   Does not disable accounts after a period          with the principle of least privilege.
             of inactivity, such as 90 days.               •   Configures th           application to                                         High
         •   Does not enforce the DHS password                 automatically disable inactive accounts in
             requirements beyond the use of 8                  accordance with DHS 4300A.
             characters.                                   •   Configures          password requirements to
         •   Does not have a session timeout after             meet DHS requirements.
             the DHS required period of inactivity.        •   Identifies and implements system capabilities
         •   Audit trails are not reviewed in                  to terminate sessions after a period of


                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                         77
                                                                                                                                Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                         Risk
NFR #                    Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                        Rating
             accordance with Production Systems             inactivity.
             Control (PSC) and DHS policy.              •   Performs reviews of audit trails documenting
                                                            user actions, including changes to security
                                                            profiles and actual or attempted unauthorized,
                                                            unusual, or sensitive access. Documents and
                                                            maintains reviews and investigations of
                                                            suspicious activity.

FEMA-    Segregation of duties controls were not        •   Identify and document incompatible duties,          X
IT-06-   implemented for the            General             and system roles and responsibilities within
  33     Ledger application, such as establishing
         user roles and groups.                         •   Develop and implement policies and
                                                            procedures segregating incompatible duties
                                                            within            to be in compliance with                                   High
                                                            DHS Information Technology Security
                                                            Program Publication, 4300A.
                                                        •   Identify and implement capabilities within
                                                                      that enforce segregation of
                                                                      ible duties.

FEMA-    The current program build of                   •   Develops and implements policies to monitor,        X
IT-06-               Corporate Edition for the NFIP               nd install updates to
  34                network (LAN) program build                   Corporate Edition.
         had Security Advisory SYM06-010 issued         •   When implementing an update, ensures that                                   Medium
         about it on June 6, 2006, indicating that a        patches are successfully installed on all LAN
         security flaw had been identified allowing a       servers and workstations in a timely manner.
         remote or local attacker to execute code on
         an affected system.
FEMA-    •             change management                •   Develops and implements change management           X
IT-06-                 es are not documented.               procedures around            and formally
                                                                                                                                        Medium
  35     • Installation of the new version of               documents approvals to changes prior to
                       in FY 2006 was not formally          installing new versions in the production

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     78
                                                                                                                                Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                         Risk
NFR #                    Condition                                    Recommendation                         New Issue   Repeat Issue
                                                                                                                                        Rating
             approved by users.                           environment.
         •   Installation of the operating system     •   Develops and implements change management
             upgrade in FY 2006 was not formally          procedures over system software changes and
             documented or approved.                      establishes documented approvals prior to
                                                          installing or upgrading system software.

FEMA-    •   Five of 15 selected mainframe changes    •   Documents and implements change                       X
IT-06-       did not have documented requestor’s          management procedures requiring approvals
  36         change approval on the Operations            prior to implementing changes in the
             Service Request (OSR) forms.                 production environment.
         •   NFIP mainframe baseline configuration    •   Develops and implements policies and                                          Medium
             document has not been updated to             procedures requiring update to the mainframe
             reflect the current environment.             baseline configuration document when there is
                                                          a change to the environment.

FEMA-    Excess access was identified to following    •   Implements the recommendations from the               X
IT-06-   Transaction Record Reporting and                 table provided in the condition above, in order
  37     Processing accounts:                             to mitigate excessive access to sensitive
                                                          mainframe production members.
                                                      •   Develops and implements procedures to
                                                          perform a periodic review of access to                                        Medium
                                                          mainframe production datasets to determine
                                                          whether access is valid, consistent with job
                                                          responsibilities, and according to the least
                                                          privilege principle.

FEMA-    There are no individual user accounts for    •   Creates additional                 user accounts      X
IT-06-   LAN administrator access and that the            to allow for accountability while performing
  38     generic                  account is shared                      duties.                                                        Medium
         amongs                   strators.           •   Regularly reviews system activity logs over
         Furthermore, the LAN has the capability to                              accounts in order to
         maintain system activity logs; however,

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   79
                                                                                                                                   Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                            Risk
NFR #                     Condition                                      Recommendation                         New Issue   Repeat Issue
                                                                                                                                           Rating
         system administrators do not regularly              detect attempted malicious activity or other
         review the logs.                                    security breaches.

FEMA-    Access to the excel files that calculate the    Restricts access to the Loss and Loss Adjustment          X
IT-06-   Loss and Loss Adjustment Expense appears        Expense ("LAE") Reserves Estimates excel files to
  39     excessive. Specifically, we identified that     the Actuary and Finance Director in order to
         modify and write access permissions to the      achieve the principle of least privilege.
         excel files appear inappropriate for six
                                                                                                                                           Medium
         people of the Bureau of Finance and
         Statistical Control group.



FEMA-    No formal change control procedures are in      Develop and implement a formal change control             X
IT-06-   place to authorize, test, verify, and approve   procedures around the Loss and Loss Adjustment
  40     program changes made to the Loss and Loss       Expense excel files. Change procedures should at
         Adjustment Expense Reserves excel files.        a minimum include procedures to formally                                          Medium
                                                         authorize, test, and document changes prior to the
                                                         change being implemented.

FEMA-    •   Visitor logs are not maintained to the      •   Develops and implements policies and                  X
IT-06-                raised floor data center in            procedures requiring all visitors to sign in and
  41                                                         out on the visitors log when entering and
         •   Two separated CSC personnel retained            leaving the computer/server room. Maintain
             physical access to th    facility.              visitor logs for the      s raised floor data
                                                             center in
                                                                                                                                            Low
                                                         •   Develops and implements policies to ensure
                                                             that physical security personnel are
                                                             consistently informed of separating
                                                             individuals, including those terminated
                                                             through a reduction in force.
                                                         •   Ensures that separated individuals’ physical

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       80
                                                                                                                                      Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                                                                                                               Risk
NFR #                     Condition                                        Recommendation                          New Issue   Repeat Issue
                                                                                                                                              Rating
                                                               access to the facility is being consistently and
                                                               timely removed.

FEMA-    •   Information owners do not periodically        •   Develops and implements policies and                   X
IT-06-       review access authorization listings to           procedures regarding periodic review of
  42         determine if access is still required or if       mainframe access lists in order to determine
             access levels are commensurate with               whether logical user access is valid, consistent
             users’ job responsibilities.                      with job responsibilities, and in accordance
         •   Audit trails are not reviewed in                  with the principle of least privilege.
             accordance with DHS policy.                   •   Performs reviews of audit trails documenting
         •   Excessive access to the                           user actions, including changes to security                                    Medium
                                        on th                  profiles and actual or attempted unauthorized,
                                         to 1 security         unusual, or sensitive access. Documents and
             administrator and 31 operations                   maintains reviews and investigations of
             personnel.                                        suspicious activity.
                                                           •   Ensures access to the          dataset is limited
                                                               to those personnel that require an elevated
                                                               level of access in the system.

FEMA-    One of the eight requested exit checklists        Perform corrective actions to improve coordination         X
IT-06-   used to ensure that all physical and logical      efforts between the        Data Center and the CSC
  43     access of terminated personnel is removed         Human Resources department and to ensure that
         was not provided.                                 exit checklists are available for all                                               Low
                                                           terminated/separated personnel.




                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                         81
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


                                    Consolidated




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         82
                                                                                                                                     Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                               Department of Homeland Security
                                                FY2006 Information Technology
                                    Notification of Findings and Recommendations – Detail

                                                               Consolidated

                                                                                                                               Repeat         Risk
 NFR #                          Condition                                       Recommendation                     New Issue
                                                                                                                                Issue        Rating
CONS-IT-   Two members of DHS OFM had excessive                     Ensure that the       privileges assigned                     X           Low
 06-01                     access within DHS          . We          to DHS OFM and Department of
           informed DHS OFM of the excessive                        Treasury users remain restricted to only
           access and noted that DHS OFM removed both users         the minimum privileges necessary to
           with excessive                   access. We noted that   achieve the principle of least privilege.
           corrective action has been taken and completed in
           the current fiscal year; however, this issue posed a
           risk for a majority of the fiscal year and therefore
           will be reported as a weakness for FY 2006.
CONS-IT-          new user access request forms were not            Ensure that        user access is only                       X           High
 06-02     consistently completed prior to granting access to       granted upon completion of the
                   Specifically, one (1) out of a sample of         new user access request form w
           eleven (11) did not have a supervisor’s approval.        evidence of supervisory authorization and
           Additionally, five (5) out of a sample of eleven (11)           security manager’s review. In
           did not have        security manager review.             addition, the access request forms should
                                                                    be retained.

CONS-IT-   OFM has not developed procedures to periodically         Develop and implement policies and                           X           High
 06-03     review         access lists in order to determine        procedures regarding periodic review of
           whether user access is valid, consistent with job               access lists in order to determine
           responsibilities and in accordance with the principle    whether logical user access is valid,
           of least privilege                                       consistent with job responsibilities, and in
                                                                    accordance with the principle of least
                                                                    privilege.



                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      83
                                                                                                                                      Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                Repeat         Risk
 NFR #                          Condition                                       Recommendation                      New Issue
                                                                                                                                 Issue        Rating
CONS-IT-   During our audit, the following configuration            •    Segregate the duties of the lead                          X           High
 06-04     management weaknesses were noted                              developer of emergency and non-
                                                                         emergency software performed
           •   Segregation of duties violations exists for twelve        outside of the scheduled
               (12) out of twenty-five (25) system changes               Quarterly Releases, ther
               made outside of the scheduled         Quarterly           preventing the developer of a
               Releases.                                                 software change from testing their
           •   Segregation of duties violations exists for four          own work.
               (4) out of ten (10) emergency system changes         •    Ensure that DHS management
               made outside of the scheduled         Quarterly           follows the Department of
               Releases.                                                                     , ASSC SDLC
           •   Test documentation is not available for changes           Workflow and Processes Handbook,
               implemented outside of the scheduled                      and a higher degree of management
               Quarterly Releases.                                       oversight is utilized for the
                                                                         development and implementation of
                                                                         all changes over DHS
                                                                    •    Maintain test plans and test results for
                                                                         all changes implemented outside of
                                                                         the scheduled         Quarterly
                                                                         Releases.

CONS-IT-   There are no documented procedures in place for          Document and implement procedures for                         X          Medium
 06-05     DHS components to perform a formal review, by a          DHS components to perform a formal
           separate approving individual, to verify the             review of            financial data, by
           financial data to the general ledger before moving       separate approving official, to the general
           the       file from the Holding Area into the            ledger before moving it into the
           Repository.                                              Repository.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        84
                                                                                                                                 Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                            Repeat        Risk
 NFR #                          Condition                                      Recommendation                   New Issue
                                                                                                                             Issue       Rating
CONS-IT-   There are no individual user             DBA            Create an additional DBA user account to        X                      High
 06-06     access and that the generic “            ” account is   allow for accountability when migrating
           shared amongst the two DBAs.                            approved software changes into the
                                                                   production environment or while
                                                                   performing other DBA duties.

CONS-IT-   The DHS Office of Financial Management (OFM) is         •    Require all Federal and contract DHS       X                     High
 06-07     not requiring     users to formally acknowledge                    users to acknowledge and sign
           and sign the FARS ROB prior to being granted                 the FARS ROB prior to being
           access to      . We noted that eighteen (18) out of a        granted access to DHS
           sample of (20)      users had not formally              •    Require all existing DHS        users
           acknowledged and signed the FARS ROB document.               to acknowledge and sign the FARS
                                                                        ROB on a yearly basis

CONS-IT-   •   Password configurations for the                     •    Configure the        application           X                    Medium
 06-08         application have been configured to permit               password parameters to be in
               passwords to be a minimum of six (6) characters          compliance with DHS Information
               in length which is not in compliance with                Technology Security Program
               Department of Homeland Security (DHS)                    Publication, 4300A.
               Information Technology Security Program             •    Configure the        application to
               Publication, 4300A, which requires passwords to          lock out user accounts that have been
               be a minimum of eight (8) characters in length.          inactive for 90 days to be in
           •          application administrators lock out               compliance with DHS Information
               accounts if a user has not accessed the account          Technology Security Program
               after 180 days which is not in compliance with           Publication, 4300A.
               Department of Homeland Security (DHS)               •    Promulgate DHS Information
               Information Technology Security Program                  Technology Security Program
               Publication, 4300A, which requires                       Publication, 4300A and other DHS-
               administrators to lock out accounts if a user has        wide information system security
               not accessed the account after 90 days.                  publications to the Department of
                                                                        Treasury Contractors in order to
                                                                        educate them in DHS information

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       85
                                                                                                                              Appendix B

                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2006

                                                                                                                         Repeat        Risk
NFR #                         Condition                                    Recommendation                    New Issue
                                                                                                                          Issue       Rating
                                                                   system security requirements and to
                                                                   ensure they are implemented onto
                                                                   DHS         and DHS

CON-IT-   The password configurations for the                  Configure the             application            X                    Medium
 06-09    application have been configured to not enforce      password parameters to be in compliance
          passwords to have a combination of alphanumeric      with DHS Information Technology
          characters and special characters which is not in    Security Program Publication, 4300A.
          compliance with Department of Homeland Security
          (DHS) Information Technology Security Program
          Publication, 4300A, which requires that passwords
          contain a combination of alphabetic, numeric, and
          special characters.

CON-IT-   Personnel with physical access to the                Ensure that the Department of Treasury           X                    Medium
 06-10    production server, housed in the Department of       develop and implement documented
          Treasury Data Center are not periodically reviewed   policies and procedures to periodically
          for appropriateness of access.                       review the list of personnel with access to
                                                               the Department of Treasury Data Center
                                                               housing the               production
                                                               server to be in compliance with DHS
                                                               Information Technology Security
                                                               Program Publication, 4300A.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                 86
                                                                                                                                Appendix B

                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2006

                                                                                                                           Repeat        Risk
NFR #                          Condition                                     Recommendation                    New Issue
                                                                                                                            Issue       Rating
CON-IT-   OFM does not maintain a termination/separated           DHS Office of the Chief Financial               X                      High
 06-11    employee listing of OFM employees. As a result we       Officer should work with the DHS HR
          were unable to perform a control test to determine if   department in order to obtain a current
          terminated/separated OFM employees have access to       listing of terminated or separated DHS
                                                                  OFM personnel and use that listing to
                                                                  determine if any terminated or separated
                                                                  DHS OF           onnel continue to have
                                                                  access to        on a scheduled basis.

CON-IT-   Department of Treasury media sanitization policies      The DHS Office of the Chief Financial           X                     High
 06-12    and procedures have not been developed for          .   Officer ensure that the Department of
          We noted that media sanitization services are           Treasury develop and implement media
          provided by Iron Mountain through Qwest; however,       sanitization policies and procedures for
          there are no specific media sanitization policies and          in the event that DHS would like to
          procedures in place for the Department of Treasury      sanitize media without using the services
          to sanitize      media.                                 of Iron Mountain.

CON-IT-   Department of Treasury media sanitization policies      DHS Office of the Chief Financial               X                    Medium
 06-14    and procedures have not been finalized or               Officer ensure that Department of
          implemented. We noted that the Department of            Treasury     Policy  -   Memorandum:
          Treasury policy entitled, “Memorandum: Destroying       Destroying and Sanitizing Media is
          and Sanitizing Media” is currently in draft form.       finalized, and promulgated to necessary
                                                                  personnel.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    87
                                                                                                                                 Appendix B

                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2006

                                                                                                                           Repeat         Risk
NFR #                         Condition                                      Recommendation                    New Issue
                                                                                                                            Issue        Rating
CON-IT-   Discrepancies exist between the DHS Performance        •    Implement the recommendations                           X           Low
 06-15    and Accountability Report (PAR) Guidance and the            from the table provided in the
          Analytical Report                                           condition above, in order to make the
                                                                      analytic report code, equations and
                                                                      PAR guide consistent.
                                                                 •    Develop and implement a
                                                                      configuration management process
                                                                      over analytic report changes to ensure
                                                                      that changes to the report are
                                                                      formally documented and
                                                                      discrepancies can be more easily
                                                                      rectified.

CON-IT-   •    We determined that normal balance type            •    Implement changes to the DHS SGL                       X            Low
 06-16        indicated on the DHS SGL for Account 4132               normal balance types of the accounts
              and Account 7280 differ from the normal                 listed above in order to be in
              balance type indicated on the US SGL.                   compliance with the USSGL.
          •   We determined that 101 DHS SGL accounts            •    Review the accounts listed in the
              were not found in the US SGL and reported a             DHS SGL and remove accounts that
              zero balance for period 9. These accounts do not        are not applicable to DHS operations.
              appear to be currently used by DHS and/or do       •    Develop a procedure to verify the
              not appear to be related to DHS operations.             abnormal balance report logic after
                                                                      any changes in the DHS SGL or
                                                                      USSGL.

CON-IT-   Access to waive fatal errors using the                            waive fatal errors using the          X                     Medium
 06-17    role appears excessive for two employees per OFM                  role is limited to the Assistant
          policy.                                                Director of Financial Reporting Branch
                                                                 and the Assistant Director of Financial
                                                                 Management Coordination Branch, per
                                                                 the documented OFM policy.


               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     88
                                                                                                                             Appendix B

                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2006

                                                                                                                        Repeat        Risk
NFR #                         Condition                                  Recommendation                     New Issue
                                                                                                                         Issue       Rating
CON-IT-   DHS is non-compliant with the Federal Information   The DHS Chief Financial Officer (CFO),                       X          High
 06-18    Security Management Act                             in coordination with the DHS Chief
                                                              Information Officer (CIO) and other DHS
                                                              functional leaders, continue to ensure that
                                                              DHS place further emphasis on the
                                                              monitoring and enforcement of policies
                                                              and procedures through the performance
                                                              of periodic security control assessments
                                                              and audits.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                89
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                 Department of Homeland Security
                  FY2006 Information Technology
      Notification of Findings and Recommendations - Detail

             Federal Law Enforcement and Training Center




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         90
                                                                                                                                   Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

                                                Department of Homeland Security
                                                 FY2006 Information Technology
                                     Notification of Findings and Recommendations – Detail

                                           Federal Law Enforcement and Training Center

                                                                                                                                            Risk
NFR #                       Condition                                       Recommendation                      New Issue   Repeat Issue
                                                                                                                                           Rating
FLETC-   •   No documented configuration                      •   Develop and implement FLETC specific             X                       Medium
IT-06-       management plan is in place for                      policies and procedures over the
01                        , including the following:              configuration management process in
             - Lack of documented test plan                       compliance with DHS Configuration
                 standards and procedures;                        Management policy.
             - Lack of a documented comprehensive             •   Document a listing of all users with access
                 set of test transactions;                        to the             production environment.
             - Test results are not maintained and a              Ensure that access is prohibited to
                 documented approval for the test                 development staff and that an independent
                 results does not exist; and                      group deploys software changes into the
             - Lack of a description for the                      production environment.
                 emergency change process.                    •   Document a listing of all users with access
         •   We were unable to verify that an                     to the            program libraries. Ensure
             independent control group performed the              that access is prohibited to development
             migration of tested and approved                     staff.
                           system software to the
             production environment.
         •   We were unable to verify that access to
                           program libraries is restricted.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       91
                                                                                                                                       Appendix B

                                                      Department of Homeland Security
                                                  Information Technology Management Letter
                                                             September 30, 2006

                                                                                                                                                Risk
NFR #                        Condition                                        Recommendation                        New Issue   Repeat Issue
                                                                                                                                               Rating
FLETC-   •   No documented configuration                       •   Develop and implement documented                    X                       Medium
IT-06-       management plan is in place for                       policies and procedures over the
02                                   , including the                                      configuration
             following:                                            management process modeled after the
             - Lack of documented test plan                        informal configuration management process
                  standards and procedures;                        currently in place.
             - Lack of a documented comprehensive              •   Document a listing of all users with access
                  set of test transactions;                        to the                       program
             - Test results are not maintained and a               libraries. Ensure that access is prohibited to
                  documented approval for the test                 development staff.
                  results does not exist; and
             - Lack of a description for the
                  emergency change process.
         •   We were unable to verify that access to
                                      program libraries is
                                      hat a listing of users
             with access to the
             production environment was unavailable.

FLETC-   The installation of            system                 Enable audit logging over the installation of           X                       Medium
IT-06-   software is not logged or reviewed by FLETC                       system software and ensure that logs
03       management.                                           are maintained and periodically reviewed by
                                                               management.

FLETC-   The SDLC for                 is currently in draft    •   Finalize, and implement a SDLC                      X                       Medium
IT-06-   form.                                                     methodology for               as well as
04                                                                 incorporating security planning throughout
                                                                   the life cycle.
                                                               •   Ensure that the SDLC methodology is
                                                                   promulgated to all personnel involved in the
                                                                   design, development, and implementation
                                                                   process of the SDLC methodology.

                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        92
                                                                                                                                Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                         Risk
NFR #                       Condition                                     Recommendation                     New Issue   Repeat Issue
                                                                                                                                        Rating
FLETC-   •                backups maintained onsite        •   Periodically test the             backup         X                       Medium
IT-06-       are not periodically tested.                      compact discs maintained onsite in
05       •   FLETC does not utilize external labels to         compliance with DHS Information
             indicate the sensitivity of the information       Technology Security Program Publication
             on the              backup compact discs          4300A.
             (CDs).                                        •   Affix external labels to             backup
                                                               CDs indicating the distribution limitations
                                                               and handling caveats of the information in
                                                               compliance with DHS Information
                                                               Technology Security Program Publication
                                                               4300A.

FLETC-   The              contingency plan has not         Perform an adequate test of the                      X                       Medium
IT-06-   been tested.                                      Contingency Plan, in compliance with DHS
06                                                         Information Technology Security Program
                                                           Publication 4300A. Additionally, testing of the
                                                                       Contingency Plan should be
                                                           performed annually.

FLETC-   FLETC Manual 11041: Safeguarding                  Ensure that FLETC Manual 11041:                      X                       Medium
IT-06-   Sensitive But Unclassified (For Official Use      Safeguarding Sensitive But Unclassified (For
07       Only) Information is currently in draft form      Official Use Only) Information is finalized and
         and has not been finalized or implemented.        promulgated to necessary FLETC personnel.

FLETC-   We noted that incidents are not tracked from      Establish a documented incident response             X                       Medium
IT-06-   inception to resolution in an incident response   tracking mechanism in compliance with DHS
08       management system.                                Information Technology Security Program
                                                           Publication 4300A.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    93
                                                                                                                              Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                       Risk
NFR #                      Condition                                     Recommendation                    New Issue   Repeat Issue
                                                                                                                                      Rating
FLETC-   We noted that there are five (5) generic/shared   •   Use unique DBA user accounts to allow for      X                        High
IT-06-                         accounts shared amongst         accountability when performing DBA duties
09       the two database administrators (DBAs).               on                      .
                                                           •                        le duties over
                                                                                    and develop and
                                                               implement policies and procedures that
                                                               segregate the documented incompatible
                                                               duties.

FLETC-   The following Telecom access control              •   Develop policies and procedures                X                       Medium
IT-06-   weaknesses were identified:                           regarding gaining access to the FLETC
10                                                             Telecom Room, including the use of a
         •   No policies and procedures are in place to        user authorization form.
             request access to the Telecom Room.           •   Perform a semi-annual review of the
         •   No policies and procedures are in place to        FLETC Telecom Room access listing in
             periodically review the list of persons           compliance with DHS Information
             with physical access to the Telecom               Technology Security Program Publication
             Room.                                             4300A.
         •   No emergency policies and procedures          •   Develop and implement the emergency
             are in place for the evacuation and re-           procedures that include exit and re-entry
             entry of the Telecom Room.                        procedures into the Telecom Room.
         •   No policies and procedures are in place to    •   Develop and implement policies and
             guide and document the emergency                  procedures to train Telecom Room staff in
             training of Telecom Room personnel.               emergency procedures pertaining, but not
                                                               limited to fire, water, and alarm
                                                               procedures. Additionally, formalize this
                                                               training by retaining documentation that
                                                               all staff has completed the training.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    94
                                                                                                                                   Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                            Risk
NFR #                       Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                           Rating
FLETC-   •   No policies and procedures are in place        •   Ensure that FLETC Manual 4330: User                X                        High
IT-06-       over access authorizations to                      Identification and Authentication
11                                  and the general             Management is finalized, promulgated to all
                                    g these applications.       FLETC employees and enforced.
         • No policies and procedures are in place to       •   Configure the
             periodically review the list of                              appli
                                         user accounts.         to be a minimum of eight characters in
         • No policies and procedures are in place to           length and contain a combination of
             immediately notify                                 alphabetic, numeric, and special characters
                                    System                      to be in compliance with DHS Information
             administrators when users are terminated           Technology Security Program Publication,
             or transferred.                                    4300A Password Policy.
         • Password configurations for                      •   Configure the                         to lock
                                         have been              out user accounts users after three (3)
             configured to permit passwords to be a             invalid login attempts to be in compliance
             minimum of six characters in length with           with DHS Information Technology Security
             no complexity requirements.                        Program Publication, 4300A.
         •                          users are locked out
             of the system after five (5) invalid logon.
FLETC-   FLETC Directive (FD) 43220: IT System              Ensure that FLETC Directive (FD) 43220: IT             X                       Medium
IT-06-   Security Awareness and Training is currently in    System Security Awareness and Training is
12       draft form and has not been finalized or           finalized, and enforced by having all new and
         implemented.                                       existing FLETC users and contractors complete
                                                            the training by May 31 of each year.

FLETC-   There are no established policies and procedures   Develop and implement FLETC specific                   X                       Medium
IT-06-   in place for the authorization and use of mobile   policies and procedures over the authorization
13       code technologies. Currently, FLETC uses           and use of mobile code technologies to be in
         client side Java Applets in connection with        compliance with DHS Information Technology
                                                            Security Program Publication 4300A.



                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     95
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                            Risk
NFR #                       Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                           Rating
FLETC-   There are no policies and procedures in place to   Develop and implement policies and procedures          X                       Medium
IT-06-   review              audit logs for actual or       to proactively monitor sensitive access to system
14       attempted unauthorized or unusual access to        software utilities for            to be in
         sensitive data.                                    compliance with DHS Information Technology
                                                            Security Program Publication, 4300A.

FLETC-   There are no documented policies and               Develop and implement policies and procedures          X                       Medium
IT-06-   procedures in place for restricting access to      for restricting access to            system
15                   system software.                       software, and promulgate it to all needed
                                                            personnel, to be in compliance with DHS
                                                            Information Technology Security Program
                                                            Publication, 4300A.

FLETC-   Incompatible duties and roles identified           •   Identify and document incompatible duties          X                       Medium
IT-06-   within the             application have not            and system roles and responsibilities within
16       been documented and no policies and                    the              pplication.
         procedures exist to segregate incompatible         •   Develop and implement policies and
         duties and roles.                                      procedures segregating incompatible duties
                                                                within              o be in compliance with
                                                                DHS Information Technology Security
                                                                Program Publication, 4300A.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     96
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                              Risk
NFR #                       Condition                                        Recommendation                       New Issue   Repeat Issue
                                                                                                                                             Rating
FLETC-   An established sanctions process for                  •   Implement FLETC Manual 4900,                      X                       Medium
IT-06-   personnel failing to comply with established              Information Technology System ROB and
17       information security policies and procedures              Use Agreements, require all existing Federal
         does not exist. However, we noted that                    and contract employees who use the FLETC
         FLETC Manual 4900, Information                            LAN to acknowledge and sign the ROB.
         Technology System Rules of Behavior (ROB)             •   Require all new Federal and contract
         and Use Agreements, was finalized in August               employees who use the FLETC LAN to
         2006 and establishes disciplinary actions they            acknowledge and sign the ROB prior to
         could be subject to if the ROB are not                    being granted access to the FLETC LAN.
         followed. We noted that the policy is
         finalized but has yet to be implemented.
FLETC-   There are no FLETC specific established               •   Develop and implement FLETC specific              X                       Medium
IT-06-   policies and procedures in place for the use and          policies and procedures over the
18       installation of                   . We noted              authorization and use of
         that FLETC is currently using the Defense                 to be in compliance with DHS Information
         Information                  y (DISA)                     Technology Security Program Publication,
         Telephony &                   Guide and the               4300A, and NIST SP 800-58.
         FLETC VoIP Security Checklist for the use and         •   Conduct a security inspection of the
         installation of                   . Currently, this                                          VoIP
         technology is used at three FLETC sites and is            installations by completing the VoIP
         all interconnected through the FLETC Wide                 Security Checklist for each site.
         Area Network (WAN), which has a direct
         connection with


FLETC-   We noted that twelve (12) out of a sample of          Perform background checks on all new and              X                        High
IT-06-   (15) FLETC contractors did not have evidence          existing contractors ensuring that background
19       that a background investigation was initiated or      checks and periodic re-investigations are
         completed.                                            performed in a timely manner and that
                                                               supporting documentation be maintained.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        97
                                                                                                                                    Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                             Risk
NFR #                        Condition                                     Recommendation                        New Issue   Repeat Issue
                                                                                                                                            Rating
FLETC-   We noted that a user of the                Fixed   •   Disable the user’s ability to manually edit         X                       Medium
IT-06-   Assets module has the ability to change the            the depreciation useful life field during the
20       useful life field during the asset entering            asset entering process within the
         process.                                               Fixed Assets module.
                                                            •   Ensure that changes made after the asset
                                                                entering process to the depreciation useful
                                                                life in years undergo a documented change
                                                                process with evidence of supervisory
                                                                approval.

FLETC-   The following                       access         •   Develop and implement policies and                  X                       Medium
IT-06-   control weaknesses were identified:                    procedures to proactively monitor actual or
21                                                              attempted unauthorized, unusual or sensitive
         •   No policies and procedures are in place to         access to system software utilities for
             review                         server level                               to be in compliance
             system software audit logs for successful or       with DHS Information Technology Security
             unsuccessful access attempts.                      Program Publication, 4300A.
         •   No audit logs are maintained to capture        •   Ensure that management performs manual
             actual or attempted unauthorized, unusual          auditing of the Oracle database tool the
             or sensitive access within the                                            application resides on.
                       application level.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     98
                                                                                                                               Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

                                                                                                                                        Risk
NFR #                       Condition                                    Recommendation                     New Issue   Repeat Issue
                                                                                                                                       Rating
FLETC-   During technical testing, configuration           •   Implement the corrective actions noted in       X                        High
IT-06-   management weaknesses were identified on              the findings.
22       the databases supporting the                      •   Perform periodic scans of the FLETC
                                applications, as well as       network environment, including the
         supporting servers. Specifically, databases           financial processing environment, for the
         and servers were identified with account              identification of vulnerabilities, in
         management, auditing, database configuration          accordance with NIST SP 800-42.
         and password management weaknesses.
                                                           •   Implement corrective actions to mitigate
                                                               the risks associated with any
                                                               vulnerabilities identified during periodic
                                                               scans.

FLETC-   During technical testing, patch management        •   Implement the corrective actions noted in       X                       High
IT-06-   weaknesses were identified on hosts and               the findings.
23       databases supporting the                          •   Perform periodic scans of the FLETC
                                applications. The fact         network environment, including the
         that these vendor supplied patches have not           financial processing environment, for the
         been applied in a timely manner could allow a         identification of vulnerabilities, in
         remote attacker to gain unauthorized access           accordance with NIST SP 800-42.
         on the host or database.
                                                           •   Implement corrective actions to mitigate
                                                               the risks associated with any
                                                               vulnerabilities identified during periodic
                                                               scans.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                    99
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006



                 Department of Homeland Security
                  FY2006 Information Technology
      Notification of Findings and Recommendations - Detail


           Grants and Training (G&T) – Under Preparedness




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         100
                                                                                                                                   Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                              Department of Homeland Security
                                               FY2006 Information Technology
                                   Notification of Findings and Recommendations – Detail

                                      Grants and Training (G&T) – Under Preparedness

                                                                                                                                            Risk
NFR #                      Condition                                      Recommendation                        New Issue   Repeat Issue
                                                                                                                                           Rating
G&T     The Plan of Action and Milestones (POA&M)          •   Follow OMB policy in regards to reporting           X                       Medium
06-01   report for G&T does not identify the scheduled         and tracking all security weaknesses
        completion date, and/or the status of corrective       identified during any reviews done by, for,
        action taken for each IT weakness listed on the        or on behalf of the agency, in the G&T
        POA&M report.                                          POA&M reports.
                                                           •   Do not remove any POA&M weakness until
                                                               the corrective action taken by G&T to
                                                               mitigate the identified POA&M weakness
                                                               has been verified. Additionally, if the
                                                               POA&M weakness was identified by the
                                                               OIG during an audit, then the POA&M
                                                               weakness cannot be removed until the OIG
                                                               has verified and validated that the corrective
                                                               action has mitigated the weakness.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   101
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                                                                                                              Risk
NFR #                       Condition                                        Recommendation                       New Issue   Repeat Issue
                                                                                                                                             Rating
G&T     G&T does not have a signed waiver in place as          Revise the Interagency Agreement (i.e. MOU) to        X                        High
06-02   part of their Interagency Agreement (i.e. MOU)         include the following:
        to mitigate the issue of their lack of compliance
        with NIST Special Publication (SP) 800-53              •   Any updates made to federal
        “Recommended Security Controls for Federal                 laws/regulations the service level provider
        Information Systems” security controls.                    (i.e. OJP) should ensure all General Support
                                                                   Systems (GSS) and Major Applications
                                                                   (MA) are in compliance. If not, then a
                                                                   waiver should be documented by G&T to
                                                                   mitigate the issue of non-compliance with
                                                                   DHS laws/regulations.

                                                               The revised Interagency Agreement (i.e. MOU)
                                                               should be agreed upon and communicated
                                                               between appropriate G&T and the Department
                                                               of Justice (DOJ), Office of Justice Personnel
                                                               (OJP) personnel.
G&T     We identified that all 45 G&T users (17                Perform a review of all user accounts and             X                       High
06-03                               , 11 Integrated            associated access levels within the
                                                               and           applications on an appropriate,
                  , and 17          ) recertification forms    periodic basis.
        contained one of the following weaknesses;
        original access level/privileges assigned were
        not documented on the form, and the user
        privileges were notated as deleted on the form
        but still active on the access listing. In addition,
        the recertification process was not performed on
        a semi-annual basis as stipulated by the OJP’s
        recertification process.




                Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       102
                                                                                                                                    Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                             Risk
NFR #                      Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                            Rating
G&T     We identified 14 out of 15 remote users, did not   Ensure procedural improvements have been               X                          High
06-04   have an authorized remote access form on file.     made for ensuring supervisor and employee
        Specifically, we noted that the forms were         signatures are obtained for all remote access
        missing signatures from the employee and           requests.
        his/her supervisor.
G&T     We identified 1 out of 6 terminated employees      Ensure procedural improvements have been               X                        Medium
06-05   who had a missing requestor signature on their     made for ensuring supervisor and employee
        SF-52 form.                                        signatures are obtained for exit clearance forms.

        In addition, we identified 6 out of 6 terminated
        employees who did not sign their DHS 400-2
        exit clearance form upon departure.
G&T     The following weaknesses were identified as a      Revise the Interagency Agreement (i.e. MOU) to                       X           High
06-06   part of the FY 2006 Department of Justice,         include the minimum-security related
        Office of Justice Programs (OJP) Financial         responsibilities. The agreement should be
        Statement Audit and impact the reliance G&T        revised to include the description and related
        has on OJP’s IT control environment:               responsibility for the following components:
                                                           • Description of Services
        Access Controls:                                   • Description of Processing Services
        • Procedures for Generic User Accounts Not         • Security Services
           Documented.
                                                           • Software Development and Maintenance
        • Periodic Recertification of OJP Application          Support
           and System Accounts Not Consistently
                                                           • List of applications to be processed
           Performed.
                                                           • Help desk support
        • OJP does maintain log of changes to
           security profiles.                              • Service Level Objectives
                                                           • Communications support (LAN, WAN)
        Application Change Controls:                       • Continuity of Operations/Disaster Recovery
        • Application and System Change Controls
           Procedures and Processes Need                   The MOU should be agreed upon and
           Improvement.                                    communicated to the appropriate G&T
                                                           personnel. In addition, G&T should continue to


               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   103
                                                                                                                                 Appendix B

                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2006

                                                                                                                                          Risk
NFR #                      Condition                                     Recommendation                     New Issue   Repeat Issue
                                                                                                                                         Rating
        Service Continuity:                                work with OJP to ensure all weaknesses that
        • Tape Backup Polices and Procedures and           impact G&T reliance on the OJP IT control
            Documentation Storage Requirements Need        environment are mitigated and corrected.
            Enhancement.

        System Software:
        • General Support System Configurations
            Need Enhancement.
G&T     1 out of 6 G&T terminate            es access      Pursue methods for improving the process to                                   High
06-07   was not removed from the            application    notify the G&T Security Administrator that an
        within a timely manner (i.e. two business days).   employee or contractor has been transferred or
                                                           has terminated employment with DHS G&T and
                                                           no longer requires system access to

G&T     Three users who have been assigned privileges      Adjust/modify or remove the access levels for                     X           High
06-12   that allow them to enter, modify, and approve      the individuals identified in the condition.
        journal vouchers. According to their job
        functions and responsibilities, these users
        should only have the ability to enter journal
        vouchers.

        In addition, two users who have been assigned
        privileges (e.g                  that allow them
        to modify vendor tables, and allow them to open
        and close fiscal years.




               Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   104
                                                                                         Appendix B

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                Department of Homeland Security
                 FY2006 Information Technology
     Notification of Findings and Recommendations – Detail


                  Transportation Security Administration




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         105
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

                                                Department of Homeland Security
                                                 FY2006 Information Technology
                                     Notification of Findings and Recommendations – Detail

                                               Transportation Security Administration


NFR                                                                                                                                        Risk
                           Condition                                     Recommendation                       New Issue   Repeat Issue
  #                                                                                                                                       Rating
TSA     The            Business Contingency and            •   Finalize and implement the DRBC and                             X           High
06-01   Disaster Recovery Plan (collectively referred to       ensure that it reflects changes in hardware
        as the DRBC) is approximately 70% completed,           and software and addresses disaster
        with full completion expected by September 30,         recovery procedures for             ’s key
        2006. Because the plan is in draft form it has         financial systems.
        not yet been tested, and a tabletop exercise has   •   Identify an alternate processing site and
        been planned upon completion of the DRBC.              document associated restoration
                                                               procedures.
                                                           •   Periodically test the DRBC and evaluate
                                                               the results of the testwork so that the
                                                               DRBC can be adjusted to correct any
                                                               deficiencies identified in testing.
TSA     A comprehensive incident capability that           •   Develop an incident response capability that      X                         High
06-02   includes designated response team members and          includes:
        procedures for incident handling to help ensure        - Designation of response team members;
        that the incident is properly handled has not          - Training for team members; and
        been documented and implemented.                       - Procedures for incident handling,
        management has acknowledged this issue and is               including preparation, containment,
        currently developing a draft incident response              eradication, recovery and follow-up
        capability.                                                 activities.
                                                           •    Approve and implement the incident
                                                               response capability at the



                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     106
                                                                                                                                  Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

NFR                                                                                                                                      Risk
                          Condition                                     Recommendation                       New Issue   Repeat Issue
  #                                                                                                                                     Rating
TSA     •               emergency procedures are in      •   Finalize and implement the emergency               X                       Medium
06-03        place for the evacuation of           and       procedures that include re-entry
             its Data Center. However, no emergency          procedures into the Data Center.
             re-entry procedures exist within this       •   Develop and implement policies and
             directive.                                      procedures to train Data Center staff in
        • No policies and procedures are in place to         emergency procedures pertaining, but not
             guide and document the emergency                limited to fire, water, and alarm
             training of Data Center personnel.              procedures. Additionally, formalize this
        • Weaknesses exist in the implementation             training by retaining documentation that
             of least privilege regarding granting           all staff has completed the training.
             access to the Data Center personnel.        •   Continue to limit entry to the Data Center,
             Specifically, two out of the fifteen            especially after normal business hours, to
             personnel forms selected, granted twenty-       critical personnel only.
             four hour access to individuals on the
             janitorial staff.
TSA     Although backup tapes for                        •   Develop and document comprehensive                 X                       Medium
06-04                          the Coast Guard General       backup procedures, which include testing the
        Support System (GSS) are created on a regular                   GSS backup tapes on a regular
        basis, testing procedures have not been                        east annually.
        documented in accordance wit                     •   Enforce the tape rotation procedures to
        Instruction.                                         ensure that tape transfer logs are completed
                                                             and perform a weekly review to ensure that
        Additionally, although CAS backup tapes are          the logs are completed in their entirety
        rotated offsite to the                               before the tapes are sent to the
                       , GSS                       n
                                                         •   Include the GSS backup t           the weekly
        included in the tape rotation process to the
                                                             offsite tape rotation to the       Update the
             . Although a tape rotation schedule and
                                                             tape transfer log to include the GSS backup
        tape rotation procedures have been
                                                             tapes that will be included in the rotation.
        documented, the tape transfer logs are not
        being completed in their entirety to note the
        tape numbers and the number of tapes being
        rotated offsite.


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   107
                                                                                                                                       Appendix B

                                                      Department of Homeland Security
                                                  Information Technology Management Letter
                                                             September 30, 2006

NFR                                                                                                                                            Risk
                           Condition                                         Recommendation                       New Issue   Repeat Issue
  #                                                                                                                                           Rating
TSA     Configuration weaknesses over                         •   Develop and implement a configuration              X                         High
06-05   workstations allowed users to modify sensitive            checklist for the anti-virus server.
        workstation system and security settings.             •   Perform periodic audits of the anti-virus and
        During our test work, using a          network            workstation security settings to ensure
        user account provided with ordinary privileges,           appropriate configurations are maintained.
        we were able to successfully:
        • Disable the desktop’s anti-virus;
        • Change the screen saver setting to remove
            the password-locking feature; and
        • Increase the time period for the screen saver
            activation significantly.

        Upon notification,            management took
        immediate action to correct the configuration
        settings.
TSA     Weaknesses were noted in regard to                    •   Continue with efforts to improve the               X                       Medium
06-06   personnel entrance and exit procedures for                implementation of the personnel entrance
        civilian, contractor and military personnel.              and exit procedures and a more formalized
        Specifically, out of fifteen entrance check-in            chain of command for the collection of the
        sheets inspected, thirteen were incomplete or did         check-in and check-out sheets.
        not exist. Additionally, out of fifteen exit check-   •   Track and monitor the completion of
        out sheets inspected, only four were received             check-in and check-out sheets.
        from our sample selection, and none of which
                                                              •   Ensure that personnel indicate which line
        were complete.
                                                                  items on the check-in/check-out sheets are
                                                                  not applicable.
                                                              •   Retain Check-out sheets for up to a year
                                                                  after an employee’s departure.




                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                        108
                                                                                                                                      Appendix B

                                                      Department of Homeland Security
                                                  Information Technology Management Letter
                                                             September 30, 2006

NFR                                                                                                                                           Risk
                           Condition                                         Recommendation                      New Issue   Repeat Issue
  #                                                                                                                                          Rating
TSA     A            Security Configuration Management        Implement corrective actions to implement a           X                         High
06-07   Plan does not exist that clearly delineates the                 Security Configuration Management
        roles and responsibilities between                    Plan that includes the role and responsibilities
                                       , and the          .   of                      Also, the plan should
        GCE is the organization under contract by Coast       address both                 and their
        Guard to manage the                    software       associated operating systems and databases.
        programs. Consequently, the System Security           Subsequently, the                  System
        Plans for the                 applications do not     Security Plans should be updated to reflect the
        include key security control information.             approved information in the             Security
        Specifically, the plans do not include                Configuration Management Plan.
        information on the current security configuration
        management process, including delineation of
        responsibilities for all involved parties.
TSA     During technical testing patch management             •   Implement the corrective actions noted in                       X           High
06-08   weaknesses were identified on hosts supporting            the tables above.
        the                 applications. Many of these       •   Implement polices and procedures to
        vulnerabilities could allow a remote attacker to          ensure that the software builds created by
        gain full control of the affected host and could          the software developer are tested to ensure
        lead to the compromise of the availability,               that all software security configurations,
        confidentiality and integrity of                          such as software patches and non-
        data.                                                     compliant settings, are up to date.
                                                              •   Continue the process for performing
                                                                  periodic scans of the            network
                                                                  environment, including the financial
                                                                  processing environment, for the
                                                                  identification of vulnerabilities, in
                                                                  accordance with NIST SP 800-42.
                                                              •   Implement corrective actions to mitigate
                                                                  the risks associated with any
                                                                  vulnerabilities identified during periodic
                                                                  scans.



                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                         109
                                                                                                                                    Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

NFR                                                                                                                                         Risk
                           Condition                                        Recommendation                     New Issue   Repeat Issue
  #                                                                                                                                        Rating
TSA     During technical testing configuration               We recommend that TSA ensure and verify                            X           High
06-09   management weaknesses were identified on             that Coast Guard’s            complete the
        hosts supporting the                 applications.   following corrective actions:
        Specifically, servers were identified with
        excessive access privileges, and password and        •   Implement the corrective actions noted in
        auditing configuration weaknesses.                       the tables above.
                                                             •   Implement polices and procedures to
                                                                 ensure that the software builds created by
                                                                 the software developer are tested to ensure
                                                                 that all software security configurations,
                                                                 such as software patches and non-
                                                                 compliant settings, are up to date.
                                                             •   Continue the process            rming
                                                                 periodic scans of the            network
                                                                 environment, including the financial
                                                                 processing environment, for the
                                                                 identification of vulnerabilities, in
                                                                 accordance with NIST SP 800-42.
                                                             •   Implement corrective actions to mitigate
                                                                 the risks associated with any
                                                                 vulnerabilities identified during periodic
                                                                 scans.




                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       110
                                                                                                                                  Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

NFR                                                                                                                                       Risk
                           Condition                                      Recommendation                     New Issue   Repeat Issue
  #                                                                                                                                      Rating
TSA     The            & Treasury MOU addresses the        Ensure and verify that Coast Guard’s                 X                         Low
06-11   development, management, operation, and            complete planned corrective actions to finalize
        security of a connection between systems           and obtai        rovals for the MOU and ISA
        owned by both parties. The previous                between           and Treasury-FMS
        agreement expired in April of 2006 and a           Financial Management Service.
        current MOU between                and Treasury
        has not been completed, although finalization
        is in the process. With the renewal of the
        MOU,               s also creating an ISA which
        will further define the technical details of the
        systems interconnection.
TSA                contracts the maintenance of their      •   Continue to communicate with Coast               X                         Low
06-12   information systems software and hardware              Guard Headquarters in order to convey the
        for the Superdome Supercomputer, which                 importance of a timely renewal of the
        houses the four production databases including         maintenance contract.
        the       production database, to Hewlett          •   Maintain a continuous service contract for
        Packard (HP) through two separate service              the hardware and software with the current
        agreements. One of the service contracts is            vendor by anticipating delays in contract
        valid until 2007 for a segment of their                renewal and submitting requests for
        computer software and hardware. However,               procurement in a timely manner.
        the second portion of            ’s Superdome
        equipment is covered under a maintenance
        contract that expired on May 31, 2006.
TSA     • Manager Review of System Administration          •   Revise the Manager Review of System                            X           High
06-13        Monitor Procedures have been developed            Administration Monitor Procedures to
             that guide managers in performing periodic        note how often managers should perform
             system administration monitoring reviews.         system administration monitoring reviews.
             However, the procedures do not note the           Additionally, the procedures should note
             periods of review that are being monitored,       the titles/positions of the individuals who
             who is responsible for performing the             are authorized and responsible for
             reviews and evidence that the manager             performing the reviews and what type of
             review was performed could only be                documentation should be retained as a


                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      111
                                                                                                                                    Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

NFR                                                                                                                                         Risk
                           Condition                                      Recommendation                       New Issue   Repeat Issue
 #                                                                                                                                         Rating
             obtained for March 2006. Additionally,            result of the review.
             although the manager reviews were             •   Continue enforcing             Instruction
             implemented in March 2006, for the first          5230.3 – Policy for System Level Access
             half of the fiscal year, October through          to           Computer Assets.
             March,          system administration             Additionally, review the access request
             monitoring was not performed by a manager         forms before the request is implemented to
             or group outside of the three systems             ensure that the request contains a
             administrators during that time period.           supervisor approval and notes the level of
        •    The access request form for one out of four       access/privileges that the individual should
             individuals granted access to         since       be granted.
             October 1, 2005, did not contain the          •   Continue enforcing             Instruction
             supervisor’s approval.                            5230.3 – Policy for System Level Access
        •    The account of a contractor that left             to           Computer Assets to ensure
                       in October 2005 remained active         that the accounts of terminated
             until May 2006.                                   civilians/contractors/military personnel are
                                                               revoked in a timely manner.
TSA     During our audit, the following      access        •   Continue with efforts to correct the               X                         High
06-14   control weaknesses were noted:                         implementation of the lockout policies and
                                                               procedures to ensure that users are locked
            • Password configurations for application          out of their accounts after three invalid
              and database were configured to permit           attempts.
              passwords to be a minimum of six             •   Establish detailed procedures for audit trail
              characters in length which is not in             generation, review and management. The
              compliance with the            Password          procedures should discuss the conditions
              Policy Standard Operating Procedure              under which the audit trails should be
              (SOP).                                           generated, reviewed, the frequency of the
            • Users are not locked out of their                reviews, and the basis for determining
              application accounts after three     d           when suspicious activity should be
              logon attempts.                                  investigated.
            • Audit logging has not been enabled with in   •   Develop and implement access control
              the      application or database.                procedures for the         ystem and
            • Individuals who are no longer employed           database accounts. These procedures

                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      112
                                                                                                                                 Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

NFR                                                                                                                                      Risk
                          Condition                                    Recommendation                       New Issue   Repeat Issue
 #                                                                                                                                      Rating
             with           were found to have active       should include, at a minimum, steps for
             accounts with in       Although their          removing the accounts of terminated
             application accounts have been disabled,       individuals. Additionally, the procedures
             one civilian and one contractor retained       should include information regarding the
             open and active data          unts after       notification of both internal and remote
             their departure from                           user terminations.
           •       account reviews have not been        •   Develop and implement access control
             performed on a periodic basis for              procedures for the         system and
             personnel.                                     database accounts. These procedures
                                                            should include, at a minimum, steps for
                                                            reviewing the system and database user
                                                            listings to ensure that all terminated
                                                            individuals no longer have active
                                                            accounts, that inactive accounts are locked
                                                            and that privileges associated with each
                                                            individual are still authorized and
                                                            necessary. Additionally the procedures
                                                            should note the parties that should be
                                                            involved in the review process and
                                                            supporting documentation that should be
                                                            maintained as a result of the review.

TSA     During our audit, the following     access      •   Configure the        application and               X                         High
06-15   control weaknesses were noted:                      database to maintain the password history
                                                            for each account.
           • Password configurations for application    •   Configure th           pplication and
             and database have not been configured to       database to lock users out of their accounts
             maintain the password history for each         after three failed login attempts.
             account which is required by the           •   Establish detailed procedures for audit trail
             Password Policy Standard Operating             generation, review and management. The
             Procedure (SOP), as well as DHS                procedures should discuss the conditions
             Information Technology Security Program        under which the audit trails should be

                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                   113
                                                                                                                                     Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

NFR                                                                                                                                          Risk
                           Condition                                       Recommendation                       New Issue   Repeat Issue
 #                                                                                                                                          Rating
             Publication, 4300A.                                generated, reviewed, the frequency of the
           • Users are not locked out of their                  reviews, and the basis for determining
             accounts after three invalid logon attempts.       when suspicious activity should be
           • Policies and procedures for application and        investigated. In addition, sufficient
             database audit log management have not             resources should be allocated to ensure the
             been documented. Additionally, although            proper implementation and monitoring of
             audit logs are generated that document who         these procedures.
             is logging in and out of the                   •   Configure the system to track and lock the
             database administrator account, the logs           accounts of individuals who have not
             are being generated and reviewed by the            logged into the system in 90 days.
             database administrators and not by an
             external party.
           •       has not been configured to track and
             deactivate accounts that have not been used
             in 90 days.
TSA     In FY 2006, we performed access control test        We recommend that TSA ensure and verify                X                         High
06-16   work around the Sunflower application and           that Coast Guard’s            complete the
        database. During our review, the following          following corrective actions:
        Sunflower access control weaknesses were
        noted:                                              •   Continue with efforts to correct the
                                                                implementation of the lockout policies and
           • Password configurations for application            procedures to ensure that users are locked
             and database were configured to permit             out of their accounts after three invalid
             passwords to be a minimum of six                   attempts.
             characters in length which is not in           •   Establish detailed procedures for audit trail
             compliance with the            Password            generation, review and management. The
             Policy Standard Operating Procedure                procedures should discuss the conditions
             (SOP), or the DHS policy, during the time          under which the audit trails should be
             period of October 2005 through June 2006.          generated, reviewed, the frequency of the
             After June 2006, the password length was           reviews, and the basis for determining
             changed to eight characters.                       when suspicious activity should be
           • Users are not locked out of their Sunflower        investigated. In addition, sufficient


                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                       114
                                                                                                                          Appendix B

                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2006

NFR                                                                                                                               Risk
                     Condition                                    Recommendation                     New Issue   Repeat Issue
 #                                                                                                                               Rating
        application accounts after three invalid       resources should be allocated to ensure the
        logon attempts.                                proper implementation and monitoring of
      • Audit logging has not been enabled with in     these procedures.
        the Sunflower application or database.
        Specifically, unusual or sensitive access
        (database and system administrator
        activity) is not monitored and suspicious
        activity is not investigated. Additionally,
        audit trails of appropriate user actions,
        including changes to security profiles are
        not generated and maintained.




            Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                             115
                                                                                                                                   Appendix B

                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2006

NFR                                                                                                                                        Risk
                          Condition                                       Recommendation                      New Issue   Repeat Issue
  #                                                                                                                                       Rating
TSA     During our audit, the following     access         •   Develop and implement access control
06-17   control weaknesses were noted:                         policies and procedures for the periodic
                                                               review of the       application accounts          X                         High
        •        accounts are not immediately disabled         for TSA users. These procedures should
          upon an employee’s termination.                      include, at a minimum, steps for reviewing
          Specifically, one out of the two separated           the application user listings to ensure that
          employees who had access to the                      all terminated individuals no longer have
          system was not disabled until six months             active accounts, that inactive accounts are
          after separating. Additionally, the employee’s       locked and that privileges associated with
          TSA LAN account was also active during               each individual are still authorized and
          this time.                                           necessary. Additionally, the procedures
        • No policies and procedures exist for the             should note the parties that should be
          periodic review of TSA personnel with                involved in the review process (i.e. –
          access to                                            supervisors, database administrators and
                                                               system administrators)
                                                           •   Retain supporting documentation
                                                               indicating the results of each review.
                                                           •   Notify and coordinate with CG-
                                                               to implement the corrective actions that
                                                               must result from the review, such as
                                                               removing separated users from the system
                                                               or modifying account privileges.




                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     116
                                                                                                                               Appendix B

                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2006

NFR                                                                                                                                    Risk
                          Condition                                Recommendation                    New Issue        Repeat Issue
  #                                                                                                                                   Rating
TSA     During our audit the following   access       •       Immediately disable          application,
06-18   control weaknesses were noted:                                  and LAN access for all separated
                                                              employee accounts.                             X                         High
        •        accounts are not immediately disabled      • Formalize and implement access control
            upon an employee’s termination.                   policies and procedures for the periodic
            Specifically:                                     review of the        application,
            - Three separated TSA employees had               and LAN accounts for TSA us                 e
                 active accounts on        and the remote     procedures should include, at a minimum,
                 connection,           . These three user     steps for reviewing the application user
                 accounts for                      were not   listings to ensure that all terminated
                 end dated until October 16, 2006.            individuals no longer have active
                 Additionally, one out of the three have      accounts, that inactive accounts are locked
                 an open TSA Local Access Network             and that privileges associated with each
                 (LAN) Account.                               individual are still authorized and
            - As of September 2006, eight separated           necessary. Additionally, the procedures
                 TSA employee’s           accounts were       should note the parties that should be
                 still active on the application after they   involved in the review process (i.e. –
                 had separated from TSA over seven            supervisors, database administrators and
                 months previously. Additionally, seven       system administrators)
                 of those eight individuals had open        • Retain supporting documentation
                            accounts during that time         indicating the results of each review.
                 period as well and at least four           • Develop and implement formalized access
                 individuals had active TSA LAN               control policies and procedures for
                 accounts as well.                            granting access to the         application and
        •   No formalized policies and procedures for         database accounts. These procedures
            the periodic reviews for the        accounts      should include, at a minimum, steps for
            exist.                                            granting and approving access.
        •   No access request forms could be obtained         Additionally, the procedures should
            for the selection of four TSA users who           require the supervisors to document the
            were granted access to the         application    level of access each new user should be
            this fiscal year.                                 granted within the system and database
                                                              before the request is submitted to the
                                                              system administrator and database
                                                              administrator for implementation. This
                   Information Technology Management Letter           for the FY 2006 DHS Financial Statement Audit
                                                              documentation should be retained for each
                                                              user.
                                                                117
                                                                                                                                   Appendix B

                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2006

NFR                                                                                                                                        Risk
                          Condition                                       Recommendation                      New Issue   Repeat Issue
  #                                                                                                                                       Rating
TSA     In FY 2006, we performed access control test       •   Develop and implement access control
06-19   work around the Sunflower application, database        policies and procedures for the periodic
        and the TSA Local Area Network (LAN).                  review of the Sunflower application               X                         High
        During our review, the following Sunflower             accounts and LAN accounts for TSA
        access control weaknesses were noted:                  users. These procedures should include, at
                                                               a minimum, steps for reviewing the
        •    Sunflower accounts are not immediately            application user listings to ensure that all
             disabled upon an employee’s termination.          terminated individuals no longer have
             Specifically, six terminated TSA personnel        active accounts, that inactive accounts are
             have active accounts on the Sunflower             locked and that privileges associated with
             application. Additionally, three of the six       each individual are still authorized and
             individuals still retain active LAN               necessary. Additionally, the procedures
             accounts. Furthermore, one Sunflower              should note the parties that should be
             account, for a separated individual, was          involved in the review process (i.e. –
             active for over six months on the                 supervisors, database administrators and
             Sunflower system and the TSA LAN                  system administrators)
             before being disabled.                        •   Retain supporting documentation
        •    Policies and procedures requiring the             indicating the results of each review.
             periodic reviews of Sunflower accounts        •   Notify and coordinate with CG-
             have not been documented.                         to implement the corrective actions that
                                                               must result from the Sunflower review,
                                                               such as removing separated users from the
                                                               system or modifying account privileges.




                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     118
                                                                                                                                  Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

NFR                                                                                                                                       Risk
                           Condition                                      Recommendation                     New Issue   Repeat Issue
  #                                                                                                                                      Rating
TSA     The TSA Form 1402, IT off-boarding form for        •    Send out a TSA broadcast message
06-20   Non-Screeners and Contractors, is not                   reminding all TSA Non-Screeners and
        consistently completed for terminated                   Contractors to completely fill out the TSA      X                       Medium
        personnel. Specifically, we noted that the              Form 1402 as they are initiating their own
        form was unavailable for thirty-eight (38) of           termination process.
        sixty (60) terminated employees selected for       • Assess implementing a process whereby
        testing. Additionally, eight (8) out of the             the terminated individual’s supervisor
        twenty-two (22) forms received were                     would initiate the completion of TSA
        incomplete.                                             Form 1402, instead of the terminated
                                                                individuals themselves.
TSA     During our audit, the following weaknesses         Enforce the completion of security awareness
06-21   were identified:                                   training and the computer access agreement for
                                                           all TSA employees and contractors each fiscal        X                       Medium
        •   Initial and/or annual refresher training for   year.
            security awareness was not completed for
            9,821 out of 52,106, approximately 19%
            of the TSA personnel and contractors with
            access to TSA information systems.
        •   Computer Access Agreements were not
            complete for 9,627 out of 55,335,
            approximately 17%, of TSA federal
            employees and contractors, with access to
            TSA information systems. Additionally,
            30,835 out of 55,335 personnel,
            approximately 56% had agreements on
            file that were over a year old.




                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                     119
                                                                                                                                    Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

NFR                                                                                                                                         Risk
                           Condition                                      Recommendation                       New Issue   Repeat Issue
  #                                                                                                                                        Rating
TSA     Although the Interagency agreement between         •   Formally document and better define the
06-22   United States Coast Guard                              different r           esponsibilities that
        (CG            ) and TSA states that CG-               TSA, CG-              and GCE have in the          X                         High
                 is responsible for configuration              change control process for the
        management on both th        hnical and                product suite.
        operational sides of the      product suite,       •   Develop and implement policies and
        TSA however, has not formalized a tracking             procedures to document TSA’s role and
        process of their own for requests that they            responsibilities in the change control
        submit nor do they retain records of the               process. Be sure to specifically address
        change control process.                                initial approvals, testing and final approval
                                                               of all changes to the system.
        TSA has no policies and procedures
                                                           •   Develop and implement a formalize
        surrounding the change control process for the
                                                               process for the retention of documentation
              product suite. Specifically, TSA should
                                                               throughout the change control process.
        be responsible for approving the functional
        resolution documents provided for their
        specific changes,          idence that testing
        was done by CG-             on their behalf, and
        approving the final change before it is moved
        into production.

        Additionally, TSA has not retained any
        documentation of initial approvals, testing and
        final approvals for TSA specific changes made
                           Sunflower in the 2006 FY.
        Specifically, no documentation for the initial
        approvals, testing or final approvals could be
        obtained for a selection 14       changes, 16
              Changes and 4 Sunflower changes
        emergency changes.




                  Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      120
                                                                                                                                    Appendix B

                                                     Department of Homeland Security
                                                 Information Technology Management Letter
                                                            September 30, 2006

NFR                                                                                                                                         Risk
                           Condition                                       Recommendation                      New Issue   Repeat Issue
  #                                                                                                                                        Rating
TSA     During our audit, the following weaknesses          •   Implement policies and procedures to
06-23   were identified:                                        ensure compliance with the new DHS
                                                                policies for the background investigations        X                         High
        •             does not perform background               of contracting personnel.
            investigations or verify that outside           •   Develop risk levels for contractor
            background investigations have been                 positions with access to DHS information
            performed for contractors working at                systems in accordance with DHS policy.
                     , especially those with sensitive IT
            positions. Specifically,           employs
            150 contractors; however, we were unable
            to obtain the status of a background
            investigation on any of them.
        •   No risk levels for contractor personnel with
            access to DHS information systems at
                      exist. Contracting personnel with
            IT job functions which require advanced
            access to the DHS system are not
            categorized at a higher risk level then an
            individual who uses the system with basic
            privileges.

TSA     Excessive access has been granted within            •   Develop and implement access control
06-24             . Specifically, of the 27 individuals         procedures for the periodic access review
        that have been granted Authorized Certifying            of the             system. These                  X                         High
        Officer (ACO) privileges to approve invoices of         procedures should include, at a minimum,
        any dollar value, four were not justified in            steps for reviewing the system user listings
        having such privileged access.                          to ensure that all terminated individuals no
                                                                longer have active accounts, that inactive
                                                                accounts are locked and that privileges
                                                                associated with each individual are still
                                                                authorized and necessary. The procedures
                                                                also should note the parties that should be


                 Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                                      121
                                                                                                              Appendix B

                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2006

NFR                                                                                                                   Risk
             Condition                               Recommendation                      New Issue   Repeat Issue
 #                                                                                                                   Rating
                                          involved in the review process (ie –
                                          supervisors, database administrators and
                                          system administrators) and supporting
                                          documentation that should be maintained
                                          as a result of the review. After the results
                                          of the review are obtained TSA is
                                          re           for communicating the results
                                          to           for the appropriate actions to
                                          be completed.              lly, TSA should
                                          follow-up with              to ensure that
                                          corrective actions are taken if necessary.
                                      •   Ensure that             removes the access
                                          privileges of the four individuals that do
                                          not have appropriate access to the system.




      Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                 122
                                                                            Appendix C

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




                                  Appendix C

Status of Prior Year Notices of Findings and Recommendations
                     And Comparison To
   Current Year Notices of Findings and Recommendations




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         123
                                                                                                 Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006



                                                                                                     Disposition
Component NFR No. Description                                                                  Closed       Repeat

USCIS      05-02   The site Certification and Accreditation (C&A) package for the                X
                   California Service Center, General Support System (GSS) - Local Area
                   Network (LAN) is outdated and has expired.
USCIS      05-03   The C&A package for the Texas Service Center (TSC) GSS-LAN is                 X
                   outdated and has expired.
USCIS      05-04   Access control weaknesses such as account management, password                           06-04
                   length, and a lack of review over audit records were identified for the
                                     .
USCIS      05-05   A Novell NetWare server at USCIS’ Texas Service Center (TSC) was              X
                   identified as not having the corr           supplied patches installed.
USCIS      05-06   A vulnerability assessment over            at USCIS TSC noted that            X
                   multiple local administrator accounts had blank passwords including
                   several accounts with supervisor level access.


ICE        05-07   ICE does not have procedures in place to periodically review                  X
                                                        user access lists and could not
                   provide a list of all authorized    users upon request.


CBP        05-01   Numerous         user IDs were identified as having segregation of            X
                   duties issues
CBP        05-02   The Top Secret mainframe account administration on the                        X
                                                had several weaknesses over unauthorized
                   access to accounts with high-level authority, and inactive accounts.
CBP        05-03   After the re-organization of the Office of Information Technology             X
                   (OIT), security administration functions at the      are not
                   independent of the operations function.
CBP        05-04   The National Benefits Center (NBC) has not defined or documented                         06-01
                   the appropriate user permissions for the various roles granted to
                                Local Area Network (LAN).
CBP        05-05   CBP management has not developed formal procedures for granting               X
                   access to sensitive SAP Technical Team member roles.
CBP        05-06   The                                  continuity of operations plan            X
                   (COOP) is not updated to reflect the results of FY 2004 testing, and the
                   upgrade of their financial system from

CBP        05-08   The documentation of completed initial security awareness training is                    06-29
                   not properly maintained. We selected security awareness training
                   documentation for 45 users. Per inspection of documentation, and
                   noted that 13 of 45 did not have security awareness training certificates
                   documented.
CBP        05-09   Improvements still needed in CBP’s technical security controls.                          06-17
                   Related to issues reported in FY02, FY03 and FY04 findings


   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                   124
                                                                                                   Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                       Disposition
Component NFR No. Description                                                                    Closed       Repeat

                   regarding host and network based security system access deficiencies,
                   we noted the following:

                   •    CBP has confirmed that they will not be implementing the
                                                              to enforce strong passwords or
                        the Windows NT password protection feature enhancement
                        upgrade referred to as NT LANMAN v2 (LM v2).
                   • CBP has not made the configuration changes to the Windows NT
                              Domain Controller that was compromised in our FY03
                        intrusion tests.
                   • Discovered key systems’ domains in targeting for potential
                        unauthorized access attempts where we were able to identify major
                        CBP network domains.
                   • Exploited a system vulnerability that had not been corrected.
                   • We confirmed that the number of Domain Administrators on
                        selected Domains has increased since 2005.
                   • ESM identified weak passwords, expired passwords,
                        misconfigurations, and missing patches.
                   • Identified vulnerabilities on an Oracle database which had critical
                        patches missing, week passwords and auditing is not enabled.
CBP        05-10         security audit log reviews not evidenced for the majority of FY           X
                   2005.
CBP        05-11   • CBP management has not established ISAs for legacy connections                           06-02
                        with
                   • Additionally, the majority of financial institutions connecting with
                              do not have ISAs.
CBP        05-12   CBP alternate processing site agreement not finalized. Priority of              X
                   service provision not in place.
CBP        05-13   Field offices are not consistently reporting the completion of         re-                 06-08
                   certifications at their ports to the OFO headquarters. Email
                   confirmation of completion of          re-certifications were not available
                   for Boston, Baltimore, New Orleans, Miami, and Calgary (Canada)
                   field offices, and the Los Angeles field office only provided an email
                   stating that re-certification process exists, but did not confirm that
                   re-certifications had been completed. The six field offices listed above
                   represent 10 of 44 ports selected for testing.
CBP        05-14   • CBP management has not performed a formal review of                                      06-05
                        individuals with physical access to the data center.
                   • Additionally, CBP management has not established formal
                        procedures for revoking physical access to          buildings.
CBP        05-15   Eighteen (18)         developers were found with access to the                  X
                   production environment.
CBP        05-16   Improvements are still needed in CBP’s Incident Handling and                               06-10
                   Response Capability which may potentially limit CBP’s ability to


   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                   125
                                                                                                Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                    Disposition
Component NFR No. Description                                                                 Closed       Repeat

                   respond to incidents in an appropriate manner. Specifically, we noted
                   the following issues:
                   •          Health Endpoint will not be installed on all workstations for
                        the majority of the fiscal year.
                   • 3 of 8 selected system flaw notifications did not have an associated
                        Service Center ticket.
CBP        05-17   CBP has not configured their version of        to include a company          X
                   code setting of "productive."
CBP        05-18   We could not obtain the requested evidence of         recertifications                  06-09
                   from CBP for any of the 44 selected field level ports to determine
                   whether        accounts with sensitive and high-risk combination of
                   functions are reviewed for appropriateness.
CBP        05-19                                                                                X
                   Separated employees with active        accounts.
CBP        05-20   CBP does not document changes to the            system including test        X
                   plans, test cases, impact analysis, and test results.
CBP        05-21   CBP management has not activated logging for critical tables within          X

CBP        05-22   CBP management has not performed a formal certification and                             06-03
                   accreditation on the NDC LAN as a whole. Specifically, a formal
                   security control assessment and a formal risk assessment have not been
                   performed for components of the NDC LAN.

CBP        05-23   CBP has not performed a separate certification and accreditation for the                06-06
                   applications remaining in the seven business process areas defined in
                   the Administrative Applications C&A. These seven business process
                   areas include the following:
                   • Disclosure Administrative Support Systems
                   • Financial Administrative Support Systems
                   • Field Operations Support Systems
                   • Investigation Support Systems
                   • OIT Administrative Support Systems
                   • Personnel Administrative Support Systems
                   • Training Support Systems
CBP        05-24   CBP does not maintain a centralized listing of separated contract                       06-04
                   personnel. The only method CBP employs to track terminated
                   contractors is the use of a report of users that had their mainframe
                   account deleted. We cannot acknowledge this list as representative of
                   all terminated contractors. This is because terminated contract
                   personnel might not have mainframe access or their access was not
                   removed after their termination.
CBP        05-25                                                                                X
                        idle session lock inconsistent with CBP policy.



   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                  126
                                                                                                     Appendix C

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

                                                                                                         Disposition
Component NFR No. Description                                                                      Closed       Repeat

CBP          05-26          does not have an automated mechanism to detect and deactivate                       06-07
                      users that have not logged on for 90 days per DHS policy.
CBP          05-27    We noted that 24 out of 45 selected individuals did not have formally                     06-12
                      documented VPN access authorization forms. Additionally, CBP has
                      not implemented formal procedures for VPN recertification for the
                      majority of FY 2006.
CBP          05-28    Access to the                                                                  X
                      related dataset and CSD definition file is excessive.
CBP          05-29    CBP management did not provide information as to whether                       X
                      vendor and bank tables are appropriately segregated.
CBP          05-30    The number of users with access to               Audit, Recovery, and          X
                      Backup datasets is excessive.
CBP          05-31    Weaknesses in the C&A process at field sites including several missing         X
                      site assessments.


CG           05-001   The                                   ) has not completed a Business
                                                                                                     X
                      Recovery Plan (BRP).
CG           05-002         has not completed a testing baseline and users were able to change
                                                                                                     X
                      their privileges to gain access to production.
CG           05-003   Access authorization requests for           ids did not indicate the roles                06-009
                      or menus necessary for the user to perform job functions; rather
                      access authorizations identified a current user with similar privileges
                      that could be copied to create the privileges for the new           id.
                      Additionally, requests for new accounts are accomplished via email,
                      and the system administrator did not routinely retain these emails
                      prior to January 2006.

CG           05-004   A periodic review of Direct Access access lists was not conducted to                      06-008
                      ensure that users had the correct access privileges. Additionally, we
                      determined that an applicant could be entered and hired by the same
                      individual. The process of transitioning an applicant to an employee
                      is in an audit trail; however this audit trail is not reviewed on a
                      regular basis.

CG           05-005   A security test and evaluation has not been conducted on the                              06-024
                      General Support System. In addition, the final Certification and
                      Accreditation package has not been created and an Authorization to
                      Operate has not been requested or approved for the       General
                      Support System.

CG           05-006   •   Coast Guard has not completed the process of filing the records                       06-028
                          that were recovered and recreating of the records that were not
                          found during the migration of records from the Department of
                          Transportation to DHS.

     Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                      127
                                                                                                     Appendix C

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

                                                                                                         Disposition
Component NFR No. Description                                                                      Closed       Repeat

                      •   Civilian background investigations and reinvestigations are not
                          being consistently performed. Specifically, three (3) out of seven
                          (7) newly hired civilian employees at              did not have any
                          record of a background investigation on file. Additionally, for
                          the re-investigation of            employees, four (4) out of five
                          (5) GS employees selected did not have a current investigation
                          on file.
                      •   Position sensitivity level distinctions for civilian personnel with
                          access to DHS information systems at                are not accurately
                          depicted. Specifically, of the selection of position descriptions
                          received, nine (9) out of ten (10) had non-critical position
                          sensitivities although their job functions were that of IT personnel
                          with advanced access to the DHS system.

CG           05-006   •             does not perform background investigations or verify that                   06-034
                          background investigations have been performed for contractors
                          working at            especially those with sensitive IT positions.
                          Specifically            employs 150 contractors; however, we were
                          unable to obtain the status of a background investigation on any of
                          them.
                      •   No risk levels for contractor personnel with access to DHS
                          information systems at             exist. Contracting personnel with
                          IT job functions which require advanced access to the DHS system
                          are not categorized at a higher risk level then an individual who
                          uses the system with basic privileges.

CG           05-008   The passwords for             are not required by the system to be 8                      06-007
                      characters in length or contain a combination of alphabetic, numeric
                      and/or special characters. Due to lack of vendor support, there is
                      uncertainty to the feasibility of implementing stronger password
                      controls.

CG           05-009   The            Business Contingency and Disaster Recovery Plan is still                   06-001
                      in draft form and has not yet been tested.
CG           05-010                    change control process supporting                 have
                      weaknesses including: procedures in support of the finalized CM
                      policy are not developed, documentation supporting risk assessments            X
                      is not maintained, formal change requests are not used, and test plans
                      and test results are not documented.
CG           05-011              does not have documented procedures for controlling the
                      processes associated        the granting, monitoring, and termination of       X
                      user accounts within        have not been documented.
CG           05-012   • Manager Review of System Administration Monitor Procedures                              06-019
                           have been developed that guide managers in performing periodic
                           system administration monitoring reviews. However, the


     Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                      128
                                                                                                      Appendix C

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

                                                                                                          Disposition
Component NFR No. Description                                                                       Closed       Repeat

                          procedures do not note the periods of review that are being
                          monitored, who is responsible for performing the reviews and
                          evidence that the manager review was performed could only be
                          obtained for March 2006. Additionally, although the manager
                          reviews were implemented in March 2006, for the first half of the
                          fiscal year, October through March,         system administration
                          monitoring was not performed by a manager or group outside of
                          the three systems administrators during that time period.
                      •   The access request form for one out of four individuals granted
                          access to        since October 1, 2005, did not contain the
                          supervisor’s approval.
                      •   The account of a contractor that left          in October 2005
                          remained active until May 2006.

CG           05-013             ’s Certification and Accreditations (C&A) for                and
                              were not complete. Specifically, security testin
                                                                                                      X
                      evaluations (ST&E) were incomplete and security plans had not been
                      updated.
CG           05-014   Results of reviews over         user access were not available and
                                                                                                      X
                      documentation of periodic reviews was not on file at
CG           05-015              has not implemented formal procedures for the periodic
                      management review and monitoring activities of            database              X
                      administrators and system administrators, or the                accounts.
CG           05-016   During technical testing patch management weaknesses were identified                       06-026
                      on hosts supporting the                          applications. Many of
                      these vulnerabilities could allow a remote attacker to gain full control
                      of the affected host and could lead to the compromise of the
                      availability, confidentiality and integrity of                        data.
CG           05-016   During technical testing configuration management weaknesses were                          06-027
                      identified on hosts supporting the                          applications.
                      Specifically, servers were identified with excessive access privileges,
                      and password and auditing configuration weaknesses.
CG           05-017   The Enterprise Security Management (ESM) tool identified
                                                                                                      X
                      configuration and account management weaknesses on
CG           05-018   Internet Security Systems Internet Scanner identified three hosts that
                                                                                                      X
                      were missing patches.
CG           05-019   Formal procedures regarding access to the               data center have
                                                                                                      X
                      not been established and implemented.
CG           05-021   System change request to modify transaction code 136-2 to                                  06-41
                      automatically reestablish the funds as obligated was implemented in
                      March 2006 within the          3.2 build. Currently, the automated
                      process appeared to be operating effectively. However, from October
                      2005 through March 2006, no mitigating controls such as procedures
                      for training of staff and/or manual reviews were established to
                      determine whether or not the re-obligation should be established to


     Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                       129
                                                                                                     Appendix C

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

                                                                                                         Disposition
Component NFR No. Description                                                                      Closed       Repeat

                      the associated UDO balance.

                      Additionally,           management indicated that transaction code
                          should not be automatically reestablishing the funds in the
                      system. However, as we could not perform a complete analysis of
                      the      posting logic in FY 2006 as noted in NFR CG IT-06-029,
                      tra       n code     , as well as other codes, may still contain errors
                      as of September 30, 2006.

CG           05-022   •   A copy of the                            Disaster Recovery Plan has                   06-30
                          been completed. However, the plan has not been tested.
                      •   The DRP for the
                                    has bee
                          DRP has not taken place. The projected completion date is October
                          2006.
                      •   The DRP for the General Support System has been completed.
                          However, testing of the GSS DRP is scheduled to take place by the
                          end of the year.
                      •   A copy of the Memorandum of Understanding (MOU) between
                               and two other CG components who the OSC must rely on for
                          various reasons at the off-site facility was cited in the Disaster
                          Recovery Plan
                      •   A finalized contract with the off-site facility was cited in the
                          Disaster Recovery Plan. However, we were unable to obtain the
                          signature page for it during our audit field work.

CG           05-023        has not completed a security plan for CMPlus 5.
                                                                                                     X
CG           05-024   During our FY 2006 follow-up testing, we determined that           had                    06-031
                      taken corrective action on several of the previously noted
                      vulnerabilities, however several remained. The remaining
                      vulnerabilities are in the following four areas:

                      •   Account management - 2 high-risk vulnerabilities and 4 medium-
                          risk vulnerabilities
                      •   Configuration management – 2 medium-risk vulnerabilities
                      •   Patch management – 3 high-risk vulnerabilities

CG           05-025   During our FY 2006 testing, we determined that none of the           prior                06-032
                      year vulnerabilities were corrected. As a result, the vulnerabilities
                      present in FY 2006 are in the following four areas:

                      •   Audit management – 2 medium risk vulnerabilities
                      •   Configuration management – 3 high, 6 medium and 11 low risk
                          vulnerabilities

     Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                      130
                                                                                                     Appendix C

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2006

                                                                                                         Disposition
Component NFR No. Description                                                                      Closed       Repeat

                      •   Password management – 1 high and 5 medium risk vulnerabilities
                      •   Patch management- 11 high, 12 medium and 12 low risk
                          vulnerabilities

CG           05-026        has initiated required changes on the application code on the
                      server side. However the required update to the user workstations has          X
                      not been completed.
CG           05-027   As a result of our audit test work and supported by all the IT NFRs                       06-044
                      issued during the current year, we determined that Coast Guard is
                      non-compliant with the following laws and regulations:

                      •   Federal Information Security Management Act of 2002 (FISMA)
                      •   Federal Financial Management Improvement Act (FFMIA)
                      •   Office of Management and Budget (OMB) Circular A-130



CON          05-01    Two members of DHS OFM had excessive                          access                      06-01
                      within DHS           We informed DHS OFM of the excessive
                                      access and noted that DHS OFM removed both users
                      with excessive                  access. We noted that corrective action
                      has been taken and completed in the current fiscal year; however, this
                      issue posed a risk for a majority of the fiscal year and therefore will be
                      reported as a weakness for FY 2006.
CON          05-02           new user access request forms were not consistently completed                      06-02
                      prior to granting access to      . Specifically, one (1) out of a sample
                      of eleven (11) did not have a supervisor’s approval. Additionally, five
                      (5) out of a sample of eleven (11) did not have         security manager
                      review.

CON          05-03    OFM has not developed procedures to periodically review             access                06-03
                      lists in order to determine whether user access is valid, consistent with
                      job responsibilities and in accordance with the principle of least
                      privilege
CON          05-04    Informal processes are followed for making changes to                          X
                      and                does not have a version manager tool for template
                      changes made to the application.
CON          05-05    • During our audit, the following configuration management                                06-04
                           weaknesses were noted
                      • Segregation of duties violations exists for twelve (12) out of
                           twenty-five (25) system changes made outside of the scheduled
                                  Quarterly Releases.
                      • Segregation of duties violations exists for four (4) out of ten (10)
                           emergency system changes made outside of the scheduled
                           Quarterly Releases.


     Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                      131
                                                                                                Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                  Disposition
Component NFR No. Description                                                                 Closed     Repeat

                   •   Test documentation is not available for changes implemented
                       outside of the scheduled      Quarterly Releases.

CON        05-06   Discrepancies exist between the DHS Performance and Accountability                    06-15
                   Report (PAR) Guidance and the Analytical Report

CON        05-07   •    We determined that normal balance type indicated on the DHS                      06-16
                        SGL for Account 4132 and Account 7280 differ from the normal
                        balance type indicated on the US SGL.
                   • We determined that 101 DHS SGL accounts were not found in the
                        US SGL and reported a zero balance for period 9. These accounts
                        do not appear to be currently used by DHS and/or do not appear to
                        be related to DHS operations.
CON        05-08   There are no documented procedures in place for DHS components to                     06-05
                   perform a formal review, by a separate approving individual, to verify
                   the        financial data to the general ledger before moving the
                   file from the Holding Area into the         Repository.

CON        05-09   DHS is non-compliant with the Federal Information Security                            06-18
                   Management Act


FEMA       05-01   There are no procedures are in place to periodically review        user               06-03
                   access lists to determine if access is still needed, including the
                   development of a master listing of all employees and contractors
                   developed and maintained by FSB.

FEMA       05-02   •            users are not locked out of the system after three invalid               06-09
                       logon attempts. In addition, we determined that upon locking a
                       user account out of the system after three invalid logon attempts at
                       the domain level, the user account becomes unlocked and active
                       again after fifteen (15) minutes of inactivity.
                   •                      settings on machines running Microsoft Windows
                       2000 Professional disabled the user’s ability to disable the
                       password protected screensaver; however the
                       settings did not disable the user’s ability to ch
                       threshold greater than the FEMA standard of fifteen minutes. This
                       weakness impacts

FEMA       05-03   The         production and test servers are located in very close                     06-04
                   proximity of each other, which is not conducive to effective
                   contingency planning efforts. We note that upon the implementation of
                   the                Data Center’s “real-time” back-up facility, both the
                          test and production servers will be redundant, alleviating the
                   current condition. However, the           back-up facility does not
                   currently have that capability in place.

   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                  132
                                                                                                   Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                     Disposition
Component NFR No. Description                                                                    Closed     Repeat



FEMA       05-04   Twenty-nine (29) terminated or separated FEMA employees and                              06-13
                   contractors maintain active          user accounts. Additionally, we
                   noted that two (2) terminated or separated FEMA employees maintain
                   active           user accounts. The implementation of FEMA
                   Instruction 1540.3 as a form of access controls review is not sufficient
                   because FEMA is only performing reviews over current year
                   terminations and separations, and has not performed reviews over
                   legacy users to ensure that all users have valid access.
FEMA       05-05   • The             ST&E did not provide adequate documentation of the                     06-05
                        results to the accrediting authority. The         ST&E included
                        thorough testing of managerial, operational and technical controls
                        and identified 88 vulnerabilities; however, the vulnerabilities listed
                        in the         report were only identified as one POA&M weakness
                        in the         POA&M
                   •   Of the 10 systems deemed critical for which the C&A process was
                       completed, we noted that the following four systems did not
                       include any documentation of their ST&E results in the ATO
                       package:
                   •   FEMA has completed a majority of the            migration from
                       Microsoft Windows 2000 Professional to Linux except for a few
                       aspects of the migration dealing with Individual Assistance and
                       various regional sites. We noted that these major changes to the
                       system warrant that the          C&A process be re-performed.
FEMA       05-06                     settings on machines running Microsoft Windows                         06-10
                   2000 Professional prevented the user’s ability to disable the password
                   protected screensaver; however the                     settings did not
                   prevent the user’s ability to change                   shold. The
                   implementation of a password protected screensaver as a mitigating
                   control for lacking a second form of authentication is not sufficient if
                   users have the ability to change the inactivity threshold greater than the
                   FEMA standard of fifteen minutes. This weakness impacts

FEMA       05-07   There is not formal, documented procedures are in place to require                       06-06
                   updates to the         system documentation as          functions are
                   added, deleted, or modified.
FEMA       05-08   • FEMA did not adequately document testing of the Contingency                            06-07
                       Plan for         . Although a table-top test of the
                       Contingency Plan was completed on February 1             , the
                       table top test did not adequately test the IT components of the
                       system/processes.
                   • FEMA does not have an accurate Contingency Plan for
                       The most recent version of the            Contingency Plan is dated
                       July 19, 2004. However, since that time, FEMA has nearly

   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                    133
                                                                                                 Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                   Disposition
Component NFR No. Description                                                                  Closed     Repeat

                       completed its migration of         from Microsoft Windows 2000
                       Professional to the      operating system and is adding a Small
                       Business Administration web interface.
FEMA       05-09   The FEMA COOP has prioritized each of its 12 critical Information                      06-08
                   Technology (IT) systems according to criticality of the systems;
                   however, the FEMA COOP has not been updated to take into account
                   the new listing of FEMA critical IT systems. We confirmed with the
                   Office of Cyber Security (OCS) and ONSC that the updated listing of
                   FEMA mission critical IT systems should be represented in the FEMA
                   COOP.

FEMA       05-10   During our techni                   guration management weaknesses                     06-02
                   were identified on                   and key support servers.
                   Specifically, servers were identified with password and auditing
                   configuration weaknesses, and version weaknesses.
FEMA       05-11   During our technical testing, configuration management weaknesses                      06-02
                   were identified on                   and key support servers.
                   Specifically, servers were identified with password and auditing
                   configuration weaknesses, and version weaknesses.
FEMA       05-12   During our technical testing, configuration management weaknesses                      06-02
                   were identified on                   and key support servers.
                   Specifically, servers were identified with password and auditing
                   configuration weaknesses, and version weaknesses.
FEMA       05-13   During our technical testing, patch management weaknesses were                         06-01
                   identified on         servers. Specifically, as a result of missing
                   patches, the         servers were vulnerable to buffer overflow
                   vulnerabilities.
FEMA       05-14   Twenty-one (21) users in                 and eight (8) users in                        06-27
                         have the ability to gain access to the account mapping          ns
                   and make changes to the account tables. Of the 21 users in
                          nine (9) users do not have a real business need to have access to
                   this function. The 9 users that appear to have excessive access consist
                   of         developers or others with system administrative access.
                   Additionally, of the 8 users in               six (6) users do not have a
                   real business need to have access to this function.

                   Additionally, excessive access is designed to be permitted within
                           to make offline changes to the general ledger account tables via
                   the                                                            Group.
                   Currently, we identified five (5) users in the         group that have
                   the ability to make offline changes to the general ledger account tables.
                   Of the five users, four (4) users do not have a real business need to
                   have access to this function.




   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                   134
                                                                                                Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                    Disposition
Component NFR No. Description                                                                 Closed       Repeat

G&T        05-04   Three users who have been assigned privileges that allow them to                        06-12
                   enter, modify, and approve journal vouchers. According to their job
                   functions and responsibilities, these users should only have the ability
                   to enter journal vouchers.

                   In addition, two users who have been assigned privileges (e.g.
                                  ) that allow them to modify vendor tables, and allow
                   them to open and close fiscal years.
G&T        05-06   The following weaknesses were identified as a part of the FY 2006                       06-06
                   Department of Justice, Office of Justice Programs (OJP) Financial
                   Statement Audit and impact the reliance G&T has on OJP’s IT control
                   environment:

                   Access Controls:
                   • Procedures for Generic User Accounts Not Documented.
                   • Periodic Recertification of OJP Application and System Accounts
                      Not Consistently Performed.
                   • OJP does maintain log of changes to security profiles.

                   Application Change Controls:
                   • Application and System Change Controls Procedures and
                      Processes Need Improvement.

                   Service Continuity:
                   •   Tape Backup Polices and Procedures and Documentation Storage
                       Requirements Need Enhancement.

                   System Software:
                   •   General Support System Configurations Need Enhancement.

G&T        05-12   Segregation of duties is not properly enforced. The SLGCP has not            X
                   formed a separate Information Systems department and has yet to
                   develop policies or procedures outlining segregation of duties controls
                   or procedures
G&T        05-13   1 out of 6 G&T terminated employees access was not removed from                         06-07
                   the Web 269 application within a timely manner (i.e. two business
                   days).

TSA        05-01   Formal procedures regarding access to the Coast Guard                        X
                               data center have not been established and implemented.
TSA        05-03                   change control process supporting                            X
                                                                              have
                   weaknesses including: procedures in support of the finalized CM
                   policy are not developed, documentation supporting a risk assessment
                   is not maintained, formal change requests are not used, and test plans

   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                  135
                                                                                                 Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                     Disposition
Component NFR No. Description                                                                  Closed       Repeat

                   and test results are not documented.
TSA        05-04   The            Business Contingency and Disaster Recovery Plan                           06-01
                   (collectively referred to as the DRBC) is approximately 70%
                   completed, with full completion expected by September 30, 2006.
                   Because the plan is in draft form it has not yet been tested, and a
                   tabletop exercise has been planned upon completion of the DRBC.

TSA        05-05   No documented procedures exist for controlling the processes                  X
                   associated with the granting, monitoring, and termination of user
                   accounts within       have not been documented.
TSA        05-06   • Manager Review of System Administration Monitor Procedures                             06-13
                       have been developed that guide managers in performing periodic
                       system administration monitoring reviews. However, the
                       procedures do not note the periods of review that are being
                       monitored, who is responsible for performing the reviews and
                       evidence that the manager review was performed could only be
                       obtained for March 2006. Additionally, although the manager
                       reviews were implemented in March 2006, for the first half of the
                       fiscal year, October through March,          system administration
                       monitoring was not performed by a manager or group outside of
                       the three systems administrators during that time period.
                   • The access request form for one out of four individuals granted
                       access to         ince October 1, 2005, did not contain the
                       supervisor’s approval.
                   • The account of a contractor that left             in October 2005
                       remained active until May 2006. Once the system administrators
                       were notified of the active account, it was deleted.
TSA        05-07                                                                                 X
                   Certification and Accreditations (C&A) for the
                                                               were not complete.
                   Specifically, security testing and evaluations (ST&Es) were incomplete
                   and security plans had not been updated.
TSA        05-08             has not implemented formal procedures for the periodic              X
                   management review and monitoring of activities of           database
                   administrators and system administrators or the                accounts.
TSA        05-09   The Enterprise Security Management tool identified world writeable            X
                   directories without a sticky bit set, and account management
                   weaknesses over DART.
TSA        05-10   During technical testing patch management weaknesses were identified                 06-08 & 06-09
                   on hosts supporting the                  applications. Many of these
                   vulnerabilities could allow a remote attacker to gain full control of the
                   affected host and could lead to the compromise of the availability,
                   confidentiality and integrity o                 data.

                   During technical testing configuration management weaknesses were


   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                   136
                                                                                               Appendix C

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2006

                                                                                                   Disposition
Component NFR No. Description                                                                Closed       Repeat

                   identified on hosts supporting the                applications.
                   Specifically, servers were identified with excessive access privileges,
                   and password and auditing configuration weaknesses.
TSA        05-11   Internet Security Systems Internet Scanner identified three hosts that      X
                   were missing patches.
TSA        05-12   Inaccuracies exist within TSA personnel records which addresses both        X
                   separated employee issue and other erroneous personnel records.




   Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                                  137
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         138
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         139
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         140
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         141
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         142
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         143
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         144
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         145
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         146
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         147
                                                                            Appendix D

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2006




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit

                                         148
                   Report Distribution

                   Department of Homeland Security

                   Secretary
                   Deputy Secretary
                   General Counsel
                   Chief of Staff
                   Deputy Chief of Staff
                   Executive Secretariat
                   Under Secretary, Management
                   Chief Information Officer
                   Chief Financial Officer
                   Chief Information Security Officer
                   Assistant Secretary, Public Affairs
                   Assistant Secretary, Legislative Affairs
                   Assistant Secretary, Policy
                   DHS Audit Liaison
                   Chief Information Officer, Audit Liaison
                   Chief Privacy Officer

                   Office of Management and Budget

                   Chief, Homeland Security Branch
                   DHS OIG Budget Examiner

                   Congress

                   Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the FY 2006 DHS Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
